No.

In the Supreme Court of the United States
STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY,
PETITIONER

v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
EDWIN S. KNEEDLER
Deputy Solicitor General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
MATTHEW GUARNIERI
Assistant to the Solicitor
General
MICHAEL S. RAAB
DANIEL TENNY
ADAM C. JED
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

In the Coronavirus Aid, Relief, and Economic Security or CARES Act, Congress directed the Secretary of
the Treasury to disburse $8 billion of relief funds “to
Tribal governments.” Pub. L. No. 116-136, Div. A, Tit. V,
§ 5001(a), 134 Stat. 501-502 (42 U.S.C. 801(a)(2)(B)).
The CARES Act defines a “Tribal government” as “the
recognized governing body of an Indian Tribe,”
42 U.S.C. 801(g)(5), and provides that “[t]he term ‘Indian Tribe’ has the meaning given that term in” the
Indian Self-Determination and Education Assistance
Act (ISDA), 25 U.S.C. 5301 et seq. 42 U.S.C. 801(g)(1).
ISDA, in turn, defines “Indian tribe” to mean “any Indian tribe, band, nation, or other organized group or
community, including any Alaska Native village or regional or village corporation as defined in or established
pursuant to the Alaska Native Claims Settlement Act
* * * , which is recognized as eligible for the special programs and services provided by the United States to Indians because of their status as Indians.” 25 U.S.C.
5304(e). The question presented is as follows:
Whether Alaska Native regional and village corporations established pursuant to the Alaska Native Claims
Settlement Act are “Indian Tribe[s]” for purposes of the
CARES Act, 42 U.S.C. 801(g)(1).

(I)

PARTIES TO THE PROCEEDING

Petitioner (defendant-appellee below) is Steven T.
Mnuchin in his official capacity as the Secretary of the
Treasury.
Respondents (plaintiffs-appellants below) are the
Akiak Native Community; the Aleut Community of St.
Paul Island; the Arctic Village Council; the Asa’carsarmiut Tribe; the Cheyenne River Sioux Tribe; the Confederated Tribes of the Chehalis Reservation; the Elk
Valley Rancheria, California; the Houlton Band of
Maliseet Indians; the Native Village of Venetie Tribal
Government; the Navajo Nation; the Nondalton Tribal
Council; the Oglala Sioux Tribe; the Pueblo of Picuris;
the Quinault Indian Nation; the Rosebud Sioux Tribe;
the San Carlos Apache Tribe; the Tulalip Tribes; and the
Ute Tribe of the Uintah and Ouray Indian Reservation.
In addition, the following parties intervened in the
litigation, participated as defendants-appellees below,
and are respondents in this Court: Ahtna, Inc.; Akiachak, Ltd.; the Alaska Native Village Corporation Association, Inc.; the Association of ANCSA Regional
Corporation Presidents/CEO’s, Inc.; Calista Corp.;
Kwethluk, Inc.; Napaskiak, Inc.; Sea Lion Corp.; and
St. Mary’s Native Corp.

(II)

RELATED PROCEEDINGS

United States District Court (D.D.C.):
Confederated Tribes of the Chehalis Reservation v.
Mnuchin, Nos. 20-cv-1002, 20-cv-1059, and 20-cv1070 (June 26, 2020)
United States Court of Appeals (D.C. Cir.):
Confederated Tribes of the Chehalis Reservation v.
Mnuchin, Nos. 20-5204, 20-5205, and 20-5209
(Sept. 25, 2020)

(III)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 2
Statutory provisions involved ...................................................... 2
Statement ...................................................................................... 2
Reasons for granting the petition ............................................. 12
A. ANCs are expressly included in the definition of
“Indian tribe” in ISDA and therefore in the
CARES Act .................................................................... 13
1. Congress deliberately included ANCs in the
ISDA definition ....................................................... 14
2. Congress has ratified the longstanding
administrative and judicial understanding that
ANCs satisfy the ISDA definition of “Indian
tribe” ......................................................................... 17
3. The court of appeals erred in reading ANCs
out of the ISDA definition and the CARES Act.... 23
B. This case warrants review ............................................ 31
Conclusion ................................................................................... 34
Appendix A — Court of appeals opinion (Sept. 25, 2020) ..... 1a
Appendix B — District court memorandum opinion
(June 26, 2020) ........................................... 28a
Appendix C — Court of appeals order (Sept. 30, 2020) ...... 73a
Appendix D — Court of appeals order (Sept. 14, 2020)...... 75a
Appendix E — District court memorandum opinion and
order (July 7, 2020) ................................... 77a
Appendix F — District court memorandum opinion
(Apr. 27, 2020) ............................................ 84a
Appendix G — Statutory provisions ................................... 126a
TABLE OF AUTHORITIES

Cases:
Alaska v. Native Village of Venetie Tribal Gov’t,
522 U.S. 520 (1998)................................................................ 3
(V)

VI
Cases—Continued:

Page

American Sur. Co. v. Marotta, 287 U.S. 513 (1933) .......... 29
Branch v. Smith, 538 U.S. 254 (2003) .................................. 21
Central Council of Tlingit & Haida Indian Tribes v.
Chief, Branch of Judicial Servs.,
26 IBIA 159 (1994) .............................................................. 18
CFTC v. Schor, 478 U.S. 833 (1986) ..................................... 19
Cherokee Nation v. Georgia, 30 U.S. (5 Pet.) 1 (1831) ....... 26
Connecticut Nat’l Bank v. Germain,
503 U.S. 249 (1992).............................................................. 29
Cook Inlet Native Ass’n v. Bowen, 810 F.2d 1471
(9th Cir. 1987) ............................................................. passim
Cook Inlet Treaty Tribes v. Shalala, 166 F.3d 986
(9th Cir. 1999) ...................................................................... 23
Duncan v. Walker, 533 U.S. 167 (2001) ................................. 9
FDA v. Brown & Williamson Tobacco Corp.,
529 U.S. 120 (2000).............................................................. 21
Jama v. ICE, 543 U.S. 335 (2005) ........................................ 28
Joint Tribal Council of the Passamaquoddy Tribe v.
Morton, 528 F.2d 370 (1st Cir. 1975) ................................ 27
Lockhart v. United States, 136 S. Ct. 958 (2016) .......... 28, 29
Lorillard v. Pons, 434 U.S. 575 (1978) ................................ 20
Loughrin v. United States, 573 U.S. 351 (2014) ................. 12
Nielsen v. Preap, 139 S. Ct. 954 (2019) ............................... 24
Parker Drilling Mgmt. Servs., Ltd. v. Newton,
139 S. Ct. 1881 (2019) ................................................... 12, 24
Payless Shoesource, Inc. v. Travelers Cos.,
585 F.3d 1366 (10th Cir. 2009) ........................................... 30
Rice v. Rehner, 463 U.S. 713 (1983) ..................................... 29
Sebelius v. Auburn Reg’l Med. Ctr.,
568 U.S. 145 (2013).............................................................. 19
Skidmore v. Swift & Co., 323 U.S. 134 (1944) ....................... 9

VII
Cases—Continued:

Page

United States v. Hayes, 555 U.S. 415 (2009) ...................... 29
Worcester v. Georgia, 31 U.S. (6 Pet.) 515 (1832) ............... 26
Statutes, regulations, and rule:
Act of Nov. 1, 1988, Pub. L. No. 100-581, § 208,
102 Stat. 2940 ...................................................................... 19
Act of May 24, 1990, Pub. L. No. 101-301,
§ 2(a)(1)-(3), 104 Stat. 206 .................................................. 19
Act of Oct. 31, 1998, Pub. L. No. 105-333, § 12,
112 Stat. 3135 ...................................................................... 15
Alaska Native Claims Settlement Act,
Pub. L. No. 92-203, 85 Stat. 688
(43 U.S.C. 1601 et seq.) ......................................................... 3
§ 7(h)(1), 85 Stat. 692......................................................... 4
§ 7(h)(3), 85 Stat. 693......................................................... 4
§ 8(c), 85 Stat. 694.............................................................. 4
43 U.S.C. 1601(a) ............................................................... 3
43 U.S.C. 1601(b) ..................................................... 4, 133a
43 U.S.C. 1602(c) ............................................................. 31
43 U.S.C. 1603 .................................................................... 3
43 U.S.C. 1604(a) ............................................................... 4
43 U.S.C. 1604(b) ............................................................... 4
43 U.S.C. 1606(d) ..........................................4, 15, 31, 136a
43 U.S.C. 1606(g)(1)(A) ........................................... 4, 137a
43 U.S.C. 1606(r) ............................................. 16, 33, 138a
43 U.S.C. 1607 .................................................... 4, 31, 138a
43 U.S.C. 1607(b) ................................................... 15, 139a
43 U.S.C. 1618(a) ............................................................... 3
43 U.S.C. 1629c ........................................................ 4, 139a

VIII
Statutes, regulations, and rule—Continued:

Page

Coronavirus Aid, Relief, and Economic Security Act,
Pub. L. No. 116-136, 134 Stat. 281:
Div. A, Tit. V, § 5001(a), 134 Stat. 501 ............................. 2
42 U.S.C. 801(a)(1) ....................................... 6, 11, 126a
42 U.S.C. 801(a)(2) ............................................. 2, 126a
42 U.S.C. 801(a)(2)(B) ............................7, 12, 32, 127a
42 U.S.C. 801(c)(7) ....................................... 8, 32, 130a
42 U.S.C. 801(d)(1)-(3) ....................................... 7, 131a
42 U.S.C. 801(f )(2) ............................................. 7, 132a
42 U.S.C. 801(g)(1) .................. 3, 7, 12, 14, 17, 20, 132a
42 U.S.C. 801(g)(5) ................................... 2, 7, 10, 133a
Department of the Interior and Related Agencies
Appropriations Act, 1998, Pub. L. No. 105-83,
111 Stat. 1543:
§ 325(a), 111 Stat. 1597.................................................... 23
§ 325(d), 111 Stat. 1598 ................................................... 23
Dictionary Act, 1 U.S.C. 1..................................................... 30
Federally Recognized Indian Tribe List Act of 1994,
Pub. L. 103–454, Tit. I, 108 Stat. 4791 .............................. 21
25 U.S.C. 5130(2) ............................................................. 21
Indian Self-Determination and Education Assistance
Act, Pub. L. No. 93-638, 88 Stat. 2203 (25 U.S.C.
5301 et seq.) ........................................................................ 3, 4
25 U.S.C. 5304(e) ........................................... passim, 126a
25 U.S.C. 5304(l) .................................................... 5, 10, 23
25 U.S.C. 5321(a)(1) ........................................................... 5
Indian Self-Determination and Education Assistance
Act Amendments of 1988, Pub. L. No. 100-472,
§ 103, 102 Stat. 2286...................................................... 19, 20
Indian Self-Determination and Education Assistance
Act Amendments of 1990, Pub. L. No. 101-644,
Tit. II, § 202(1)-(2), 104 Stat. 4665 .................................... 19

IX
Statutes, regulations, and rule—Continued:

Page

Indian Self-Determination Contract Reform Act of
1994, Pub. L. No. 103-413, Tit. I, § 102,
108 Stat. 4250 ...................................................................... 19
Indian Tribal Energy Development and SelfDetermination Act Amendments of 2017,
Pub. L. No. 115-325, 132 Stat. 4445:
§ 202(a), 132 Stat. 4459.................................................... 22
§ 202(c)(1)(B), 132 Stat. 4461 .......................................... 22
§ 202(c)(2), 132 Stat. 4461 ............................................... 22
Indian Tribal Energy Development and SelfDetermination Act of 2005, Pub. L. No. 109-58,
Tit. V, § 503(a), 119 Stat. 764 ............................................. 22
25 U.S.C. 3501(4)(A) ........................................................ 22
25 U.S.C. 3501(4)(B) ........................................................ 22
12 U.S.C. 1715z-13a(l)(8) ....................................................... 20
15 U.S.C. 637(a)(13) ............................................................... 20
25 U.S.C. 1603(14) ................................................................. 20
25 U.S.C. 2403(3) ................................................................... 20
25 U.S.C. 2511(4) ................................................................... 20
25 U.S.C. 4103(13)(B) ............................................................ 21
28 U.S.C. 524 note ................................................................. 21
34 U.S.C. 12291(a)(16) ........................................................... 21
42 U.S.C. 15855(a)(2) ............................................................. 21
25 C.F.R Pt. 83:
Section 83.4(a) ............................................................ 11, 25
Section 83.11 .................................................................... 25
Section 83.12 .................................................................... 25
Sup. Ct. R. 10(a) ..................................................................... 31

X
Miscellaneous:

Page

1 American Indian Policy Review Comm’n,
95th Cong., 1st Sess., Final Report
(Comm. Print 1977) ...................................................... 26, 27
David S. Case & David A. Voluck, Alaska Natives
and American Laws (3d ed. 2012) ........................ 15, 19, 25
Felix S. Cohen, Handbook of Federal Indian Law
(1942) .................................................................................... 27
1 Cohen’s Handbook of Federal Indian Law
(Nell Jessup Newton ed. 2017) .......................3, 4, 19, 24, 28
166 Cong. Rec. E344 (daily ed. Mar. 31, 2020) ................... 33
Troy A. Eid, Book Review, 30 Alaska L. Rev. 223
(2013) .................................................................................... 19
43 Fed. Reg. 39,361 (Sept. 5, 1978) ...................................... 25
46 Fed. Reg. 27,178 (May 18, 1981) ..................................... 26
47 Fed. Reg. 53,130 (Nov. 24, 1982) ..................................... 26
53 Fed. Reg. 52,829 (Dec. 29, 1988) ..................................... 27
58 Fed. Reg. 54,364 (Oct. 21, 1993) .......................... 18, 26, 27
60 Fed. Reg. 9250 (Feb. 16, 1995) ........................................ 18
Bryan A. Garner, Garner’s Modern English Usage
(4th ed. 2016) ....................................................................... 30
Sidney Greenbaum, The Oxford English Grammar
(1996) .................................................................................... 30
H.R. Rep. No. 1600, 93d Cong., 2d Sess. (1974) ................. 16
H.R. Rep. No. 420, 116th Cong., 2d Sess. (2020) .................. 6
Indian Self-Determination and Education
Assistance Act: Hearings before the Subcomm.
on Indian Affairs of the House Comm. on Interior
and Insular Affairs, 93d Cong., 2d Sess. (1974) ............. 16
S. 1017, 93d Cong., 2d Sess. (1974):
(Mar. 28) ........................................................................... 16
(Dec. 16)............................................................................ 16
S. Conf. Rep. No. 581, 92d Cong., 1st Sess. (1971) ............. 15

XI
Miscellaneous—Continued:

Page

S. Rep. No. 925, 91st Cong., 2d Sess. (1970) ......................... 3
Antonin Scalia & Bryan A. Garner, Reading Law:
The Interpretation of Legal Texts (2012) ................... 24, 29
U.S. Dep’t of Energy:
Department of Energy Announces Up To
$15 Million for Tribes to Deploy Energy
Technology, https://go.usa.gov/xfexW
(Mar. 27, 2020) ........................................................... 21
Office of Indian Energy Policy & Programs,
Current Funding Opportunities,
https://go.usa.gov/xfexj
(last visited Oct. 23, 2020) ......................................... 21
U.S. Dep’t of Hous. & Urban Dev.:
Office of Native American Programs,
About ONAP, https://go.usa.gov/xfecz
(last visited Oct. 23, 2020) ......................................... 21
Office of Pub. & Indian Hous., Lenders Section
184 Resources, https://go.usa.gov/xfexb
(last visited Oct. 23, 2020) ......................................... 21
U.S. Dep’t of the Treasury:
Coronavirus Relief Fund Allocations to Tribal
Governments (May 5, 2020),
https://go.usa.gov/x7auz ........................................... 7
Coronavirus Relief Fund Guidance for State,
Local, and Tribal Governments (rev. Sept. 2,
2020), https://go.usa.gov/x7axA ............................... 7

In the Supreme Court of the United States
No.
STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY,
PETITIONER

v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of the Secretary of the Treasury, respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the District of Columbia Circuit in
this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a27a) is not yet published in the Federal Reporter but is
available at 2020 WL 5742075. The opinion of the district court (App., infra, 28a-72a) is not yet published in
the Federal Supplement but is available at 2020 WL
3489479. The district court’s opinions and orders granting a stay pending appeal (App., infra, 77a-83a) and
granting a preliminary injunction (App., infra, 84a125a) are, respectively, available at 2020 WL 3791874
and reported at 456 F. Supp. 3d 152.
(1)

2
JURISDICTION

The judgment of the court of appeals was entered on
September 25, 2020. The jurisdiction of this Court is
invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED

Section 4 of the Indian Self-Determination and Education Assistance Act provides in relevant part:
‘Indian tribe’ means any Indian tribe, band, nation,
or other organized group or community, including
any Alaska Native village or regional or village corporation as defined in or established pursuant to the
Alaska Native Claims Settlement Act (85 Stat. 688)
[43 U.S.C. 1601 et seq.], which is recognized as eligible for the special programs and services provided
by the United States to Indians because of their status as Indians.
25 U.S.C. 5304(e) (brackets in original).
The Coronavirus Aid, Relief, and Economic Security
or CARES Act provides in relevant part that “[t]he
term ‘Indian Tribe’ has the meaning given that term in
section 5304(e) of title 25.” 42 U.S.C. 801(g)(1).
Other pertinent statutory provisions are reproduced
in the appendix to this petition. App., infra, 126a-141a.
STATEMENT

In the midst of the public-health and economic crises
precipitated by COVID-19, Congress appropriated $8
billion in aid for “Tribal governments.” CARES Act,
Pub. L. No. 116-136, Div. A, Tit. V, § 5001(a), 134 Stat.
501 (42 U.S.C. 801(a)(2)). Congress defined a “Tribal
government” for these purposes as the “recognized governing body of an Indian Tribe.” 42 U.S.C. 801(g)(5).
And it specified that the “[t]he term ‘Indian Tribe’ has
the meaning given that term in section 5304(e) of title

3
25.” 42 U.S.C. 801(g)(1). The cross-referenced definition, from the Indian Self-Determination and Education
Assistance Act (ISDA), 25 U.S.C. 5301 et seq., expressly
refers to Alaska Native regional and village corporations
established pursuant to the Alaska Native Claims
Settlement Act (ANCSA), 43 U.S.C. 1601 et seq. See
25 U.S.C. 5304(e). For nearly 45 years, the federal government has understood Alaska Native corporations to
qualify as Indian tribes under the ISDA definition. In
this case, the court of appeals interpreted the ISDA definition of “Indian tribe” to exclude Alaska Native corporations, based on another clause in the ISDA definition
that had long been recognized as not disqualifying
them, thereby making the Native corporations ineligible to receive the relief payments available to Indian
tribes under the CARES Act. App., infra, 1a-27a.
1. a. In 1971, Congress enacted ANCSA, Pub. L. No.
92-203, 85 Stat. 688 (43 U.S.C. 1601 et seq.), to address
the “need for a fair and just settlement of all claims by
Natives and Native groups of Alaska, based on aboriginal
land claims,” 43 U.S.C. 1601(a); see S. Rep. No. 925, 91st
Cong., 2d Sess. 69-72 (1970). ANCSA “[d]epart[ed]
from previous Indian land claims settlement acts” by
using a corporate model unique to Alaska. 1 Cohen’s
Handbook of Federal Indian Law § 4.07[3][a] (Nell
Jessup Newton ed. 2017) (Cohen’s). In exchange for extinguishing native land claims and hunting rights and
revoking most existing reservations, see 43 U.S.C. 1603,
1618(a), “Congress authorized the transfer of $962.5
million in state and federal funds and approximately 44
million acres of Alaska land to state-charted private
business corporations that were to be formed pursuant
to the statute,” Alaska v. Native Village of Venetie
Tribal Gov’t, 522 U.S. 520, 524 (1998).

4
ANCSA provided for “the creation of two types of
corporations to receive this money and land: Alaska
Native Regional Corporations and Alaska Native Village Corporations.” App., infra, 4a. Within each of
twelve regions covering all of Alaska, Congress provided for representatives of existing Native associations to “incorporate under the laws of Alaska a Regional Corporation to conduct business for profit.”
43 U.S.C. 1606(d). Congress also directed the Secretary
of the Interior to prepare a roll of all Alaska Natives
showing the region and, if applicable, village in which
they resided. 43 U.S.C. 1604(a) and (b). Alaska Natives
then received stock in the regional corporation for the
region in which they resided. 43 U.S.C. 1606(g)(1)(A).
Alaska Natives who lived in villages also received stock
in newly formed village corporations, established pursuant to ANCSA for approximately 200 villages.
43 U.S.C. 1607; see 1 Cohen’s § 4.07[3][b][ii][B].
Through these Alaska Native corporations (ANCs),
Congress sought to address the “economic and social
needs” of Alaska Natives “without establishing any permanently racially defined institutions.” 43 U.S.C. 1601(b).
ANCSA thus originally contemplated that shares in the
regional and village corporations would be inalienable
by their initial Alaska Native shareholders for 20 years
and then would be freely transferrable, including to
persons other than Alaska Natives. ANCSA § 7(h)(1)
and (3), 85 Stat. 692-693; see § 8(c), 85 Stat. 694. The
statute was later amended to extend the alienability restrictions indefinitely unless an ANC opts out of them.
43 U.S.C. 1629c.
b. In 1975, Congress enacted ISDA, Pub. L. No.
93-638, 88 Stat. 2203 (25 U.S.C. 5301 et seq.). ISDA authorizes “any Indian tribe” to request that the federal

5
government enter into a contract with a “tribal organization” to provide various government-funded economic, infrastructure, health, and education services to
Indians. 25 U.S.C. 5321(a)(1). Under ISDA, a “tribal
organization” includes “the recognized governing body
of any Indian tribe,” 25 U.S.C. 5304(l), and “Indian
tribe” means
any Indian tribe, band, nation, or other organized
group or community, including any Alaska Native
village or regional or village corporation as defined
in or established pursuant to the Alaska Native
Claims Settlement Act (85 Stat. 688) [43 U.S.C. 1601
et seq.], which is recognized as eligible for the special
programs and services provided by the United
States to Indians because of their status as Indians.
25 U.S.C. 5304(e) (brackets in original). In this case, the
lower courts referred to the final clause beginning with
“which is recognized as eligible” as the “recognition” or
“eligibility” clause. App., infra, 11a, 41a.
In 1976, the Assistant Solicitor for Indian Affairs in
the Department of the Interior issued a memorandum
addressing whether ANCs qualify as “Indian tribes”
under the definition quoted above. C.A. App. 137-140.
The question arose because of the final clause in the
ISDA definition: “which is recognized as eligible for the
special programs and services provided by the United
States to Indians because of their status as Indians.”
25 U.S.C. 5304(e). The Assistant Solicitor noted that,
although “Alaska Native * * * regional or village corporation[s] * * * established pursuant to” ANCSA are
expressly included in the ISDA definition, ibid., “profitmaking regional and village corporations have not heretofore been recognized as eligible for BIA programs
and services which are not provided for by the terms of

6
[ANCSA],” C.A. App. 138. The Assistant Solicitor explained that if the recognition clause in the ISDA definition of “Indian tribe” were to “operate[] to disqualify
[ANCs] from the benefits of ” ISDA, then “their very
mention” in the definition would be “superfluous.” Ibid.
Rejecting that interpretation, the Assistant Solicitor
concluded that the recognition clause was not intended
to “apply to regional and village corporations,” which
are therefore Indian tribes “within the scope” of ISDA’s
definition. Ibid.
Since the 1976 memorandum, the Department of the
Interior—the “agency in charge of Indian affairs,”
App., infra, 58a—has consistently adhered to the view
that ANCs qualify as Indian tribes as defined in ISDA.
Ibid. The Indian Health Service (IHS), which is part of
the Department of Health and Human Services (HHS)
and which also administers ISDA, adopted that interpretation in 1977. See Cook Inlet Native Ass’n v.
Bowen, 801 F.2d 1471, 1474 (9th Cir. 1987); see also id.
at 1473-1476 (agreeing with that view and holding that
an ANC is an “Indian tribe” under the ISDA definition).
Congress has since reenacted the ISDA definition of
“Indian tribe” without change and has incorporated or
substantially copied it into other federal statutes. See
pp. 20-21, infra.
c. In 2020, the COVID-19 pandemic created a “public health emergency and economic crisis” throughout
the United States. H.R. Rep. No. 420, 116th Cong.,
2d Sess. 2-3 (2020). Congress enacted the CARES Act
to address those twin catastrophes—in part by appropriating $150 billion to a coronavirus relief fund for
“States, Tribal governments, and units of local government.” 42 U.S.C. 801(a)(1). Of those funds, Congress

7
directed the Secretary of the Treasury to reserve $8 billion specifically “for making payments to Tribal governments.” 42 U.S.C. 801(a)(2)(B). The CARES Act defines the term “Tribal government” to mean “the recognized governing body of an Indian Tribe,” 42 U.S.C.
801(g)(5), where “[t]he term ‘Indian Tribe’ has the
meaning given that term in section 5304(e) of title 25,”
i.e., in ISDA. 42 U.S.C. 801(g)(1).
The CARES Act specifies that these funds shall be
used to cover the costs of “necessary expenditures incurred” due to COVID-19 that were not “accounted for”
in prior budgets and that are “incurred” between March
1, 2020, and December 30, 2020. 42 U.S.C. 801(d)(1)-(3).
The Treasury Department has interpreted the term “necessary expenditures” to include “[e]xpenses associated
with the provision of economic support” to private businesses “in connection with the COVID-19 public health
emergency.” U.S. Dep’t of the Treasury, Coronavirus
Relief Fund Guidance for State, Local, and Tribal Governments 4 (rev. Sept. 2, 2020), https://go.usa.gov/x7axA.
For example, a state, local, or tribal recipient may use
coronavirus relief funds to assist private businesses by
“reimburse[ing] the costs of business interruption caused
by required closures.” Ibid. And tribal recipients may
use the funds to support tribally owned businesses. See
U.S. Dep’t of the Treasury, Coronavirus Relief Fund
Allocations to Tribal Governments 1-2 (May 5, 2020),
https://go.usa.gov/x7auz. Relief funds that are not spent
on permissible purposes may be recouped by the federal
government. 42 U.S.C. 801(f )(2).
2. The present controversy arises from the efforts of
several Indian tribes to prevent the Secretary of the
Treasury from making payments to ANCs as “Indian
tribes” under the CARES Act. Between April 17 and

8
April 23, 2020, “three separate groups of Indian tribes
filed lawsuits” against the Secretary in the United
States District Court for the District of Columbia, contending that ANCs are not eligible to be treated as Indian tribes for these purposes. App., infra, 7a; see id.
at 33a. The district court consolidated the three pending challenges, and a group of ANCs intervened as defendants. Id. at 7a.
On April 20, 2020, the Treasury Department requested the views of the Department of the Interior on
ANC eligibility. C.A. App. 142; cf. 42 U.S.C. 801(c)(7).
The Interior Department “confirm[ed]” its position that
ANCs “are ‘Indian tribes’ for the specific purpose of
[ISDA] eligibility.’ ” C.A. App. 142. On April 23, the
Treasury Department issued public guidance stating
that, “[a]fter consultation with the Department of the
Interior, Treasury has concluded that Alaska Native regional and village corporations as defined in or established pursuant to ANCSA are eligible” to receive these
CARES Act funds. Id. at 145.
3. The district court granted a preliminary injunction on April 27, 2020, forbidding Treasury “from disbursing Title V funds to any ANC.” App., infra, 86a;
see id. at 84a-125a. On June 26, however, after additional briefing and argument, the court reconsidered its
earlier view, dissolved the preliminary injunction, and
entered summary judgment in favor of the Secretary
and the intervenor ANCs. Id. at 28a-72a.
The district court framed the ISDA question as primarily a contest between two competing “canon[s] of
statutory construction.” App., infra, 44a. On the one
hand, the plaintiff tribes invoked the “series-qualifier
canon,” under which “a modifier at the end of [a] list” of
parallel nouns or verbs “normally applies to the entire

9
series.” Id. at 44a-45a (citation and internal quotation
marks omitted). The plaintiff tribes argued that the
recognition clause in the ISDA definition of “Indian
tribe” modifies each item in the preceding list, including
Alaska Native regional and village corporations. On the
other hand, the Secretary invoked the canon against
surplusage, arguing that the plaintiff tribes’ reading
would render the reference to ANCs in the definition
superfluous. Id. at 45a-46a.
The district court concluded that “[t]he series-qualifier
canon * * * must give way in this case to the rule
against superfluity.” App., infra, 50a. The court stated
that the plaintiff tribes’ reading would improperly “render Congress’s purposeful inclusion of ANCs in the
[ISDA] definition ‘wholly superfluous,’ ” id. at 47a (quoting Duncan v. Walker, 533 U.S. 167, 174 (2001)), because ANCs are business corporations that have never
been formally recognized for purposes of governmentto-government relations under principles of federal
recognition, id. at 47a-50a. The court also determined
that ISDA’s “drafting history lends support to this conclusion,” because “Congress went out of its way to add
ANCs to the statutory definition of ‘Indian tribe.’ ” Id.
at 53a. “It would be an odd result,” the court reasoned,
“for Congress to include ANCs in one breath only to negate their inclusion in the very next breath through the
eligibility clause.” Id. at 53a-54a. Finally, the court invoked principles of Skidmore deference and emphasized that the Interior Department “has long taken the
position that ANCs qualify as ‘Indian Tribes’ for purposes of ” ISDA. Id. at 57a; see Skidmore v. Swift & Co.,
323 U.S. 134, 140 (1944).
The district court also rejected the plaintiff tribes’
alternative argument that by directing the Secretary to

10
distribute coronavirus relief funds to the “recognized
governing bod[ies]” of Indian tribes, 42 U.S.C.
801(g)(5), Congress created an additional requirement
that disqualified ANCs, which do not have governments
as such. App., infra, 63a-72a. The court understood the
phrase “recognized governing body of an Indian Tribe”
to include the board of directors of an ANC—as the
same phrase in ISDA had long been interpreted. See
id. at 67a-68a (discussing 25 U.S.C. 5304(l)). 1
4. The court of appeals reversed. App., infra, 1a27a. As relevant here, the court held that “ANCs do not
satisfy the ISDA definition” of “Indian tribe” and therefore are not eligible to receive payments. Id. at 11a. In
its view, the “text and structure” of the ISDA definition
“make clear that the recognition clause, which is adjectival, modifies all of the nouns listed in the clauses that
precede it.” Id. at 11a-12a. The court reasoned that the
recognition clause follows a list of “five synonyms in a
grammatically simple list (any ‘tribe, band, nation, or
other organized group or community’).” Id. at 12a. The
court further reasoned that, through “its usage of ‘including,’ ” the statute “equate[s]” ANCs “with the five
preceding nouns,” making them all subject to the recognition clause. Ibid. The court also observed that the
recognition clause “undisputedly” applies to the term
“Alaska Native village” in the ISDA definition. Ibid.
The court deemed it “not grammatically possible for the
recognition clause to modify all of the five nouns in the
listing clause, plus the first noun in the more proximate

On July 7, 2020, the district court granted the plaintiff tribes’
request for a stay to prevent the Secretary from disbursing the disputed funds to ANCs. App., infra, 77a-83a. The court of appeals
later entered a similar injunction pending appeal. Id. at 75a-76a.
1

11
Alaska clause (‘village’), but not the one noun in the preceding two clauses that is its most immediate antecedent (‘corporation’).” Ibid.
The court of appeals reasoned that recognition is a
“legal term of art” in Indian law, App., infra, 13a (citation omitted); that ANCs have never been recognized in
that formal sense because the United States does not
have “a political relationship with them government-togovernment,” id. at 18a; and that regulations in place
since 1978 in fact foreclose formal recognition of business corporations “formed in recent times,” ibid. (quoting 25 C.F.R. 83.4(a)). The court nonetheless maintained that its interpretation does not render the express reference to ANCs mere surplusage because, according to the court, “it was highly unsettled in 1975,
when ISDA was enacted, whether Native villages or
Native corporations would ultimately be recognized.”
Id. at 19a. The court acknowledged that its interpretation conflicted with the longstanding position of the Interior Department and with a prior Ninth Circuit decision. See id. at 23a-24a (declining to follow Cook Inlet
Native Association, supra).
Judge Henderson concurred but called the result the
court of appeals reached “unfortunate” and “unintended.” App., infra, 26a. She could “think of no reason
that the Congress would exclude ANCs (and thus exclude many remote and vulnerable Alaska Natives)
from receiving and expending much-needed” coronavirus relief funds. Id. at 26a-27a.
The court of appeals issued its decision on September 25, 2020. App., infra, 1a. On September 30—the
last day of the government fiscal year for which the
funds at issue had been appropriated, see 42 U.S.C.

12
801(a)(1)—the court ordered that, “to ensure an opportunity for orderly review” of its decision, “any expiration of the appropriation for Tribal governments set
forth in 42 U.S.C. 801(a)(2)(B) is hereby suspended.”
App., infra, 74a. That order will remain in force pending certiorari. See ibid.
REASONS FOR GRANTING THE PETITION

The court of appeals erred in concluding that an
Alaska Native regional or village corporation established
pursuant to the Alaska Native Claims Settlement Act
does not qualify as an “Indian tribe” within the meaning
given that term in the ISDA definition, 25 U.S.C. 5304(e),
which is incorporated into the CARES Act, 42 U.S.C.
801(g)(1). ISDA’s definition of “Indian tribe” refers expressly to both types of corporations—references that
would be superfluous if ANCs were simultaneously
excluded by the recognition clause at the end of the
same definition. The decision below thus violates the
“ ‘cardinal principle’ of interpretation that courts ‘must
give effect, if possible, to every clause and word of a
statute.’ ” Parker Drilling Mgmt. Servs., Ltd. v. Newton, 139 S. Ct. 1881, 1890 (2019) (quoting Loughrin v.
United States, 573 U.S. 351, 358 (2014)).
Congress deliberately added ANCs to the ISDA definition during the legislative process, in order to ensure
that ANCs would be eligible to enter into contracts with
the federal government under ISDA on the same terms
as federally recognized tribes. The Department of the
Interior has understood the ISDA definition that way
essentially since ISDA was enacted. In Cook Inlet Native Association v. Bowen, 810 F.2d 1471, 1473-1474
(1987), the Ninth Circuit likewise determined that
ANCs qualify as Indian tribes under the ISDA definition, thus settling the issue for the last thirty years for

13
the circuit that encompasses all ANCs. Congress later
reenacted the ISDA definition without suggesting any
disagreement with the prevailing administrative and judicial interpretation. Congress has also incorporated or
substantially copied the ISDA definition into other federal laws—including laws that presuppose, in the statutory text, that ANCs are treated as Indian tribes.
Thus, when Congress incorporated the meaning
given “Indian tribe” in the ISDA definition into the
CARES Act in 2020, it did so against an established understanding that the ISDA definition includes ANCs.
Nothing in the CARES Act suggests that Congress departed from that understanding. To the contrary, Congress incorporated the ISDA definition to ensure that
urgent coronavirus relief funds are available to ANCs
for the benefit of their Alaska Native shareholders and
the communities ANCs serve. The decision below contravenes that judgment; avowedly conflicts with the
Ninth Circuit’s decision in Cook Inlet Native Association, supra; and calls into question the status of ANCs
under other federal statutes. The petition for a writ of
certiorari should be granted.
A. ANCs Are Expressly Included In The Definition Of
“Indian Tribe” In ISDA And Therefore In The CARES Act

The court of appeals erred in construing the ISDA
definition of “Indian tribe” to exclude ANCs. Congress
did not expressly include ANCs in one clause of the
ISDA definition only to then categorically exclude them
in the very next clause, by imposing a requirement of
formal recognition as a sovereign tribe that ANCs could
not and do not satisfy. The statutory definition should
not be read to be at war with itself. If the recognition
clause is read to impose such a requirement, subjecting

14
ANCs to it—and thereby excluding them from eligibility despite Congress’s express inclusion of them—
would violate the rule that all terms of a statute must be
given effect.
Alternatively, if the recognition clause is read instead to refer to the Indian and Native entities that
have a requisite status under federal law with respect
to programs and services to promote the welfare of Indians, then Congress itself made the judgment directly
in the ISDA definition that ANCs and Alaska Native villages qualify for purposes of ISDA. ANCs and Native
villages were specifically identified or established in
ANCSA, as the ISDA definition recites, and together
ANCs and Native villages were to perform a role in
Alaska under ISDA parallel to that of federally recognized tribes elsewhere in the United States. Congress
therefore “include[d]” them in a special Alaska clause in
the ISDA definition, 25 U.S.C. 5304(e).
In any event, by the time Congress enacted the
CARES Act and incorporated the “meaning given”
to the term “Indian tribe” in the ISDA definition,
42 U.S.C. 801(g)(1), the term had long been construed
by the Interior Department and IHS to include ANCs;
the Ninth Circuit had adopted that interpretation in
Cook Inlet Native Association; and Congress itself had
ratified that interpretation, including by reenacting the
ISDA definition of “Indian tribe” without change after
the Ninth Circuit’s decision. The decision below failed
to account for those considerations.
1.

Congress deliberately included ANCs in the ISDA
definition

The ISDA definition expressly includes Alaska Native regional and village corporations:

15
‘Indian tribe’ means any Indian tribe, band, nation,
or other organized group or community, including
any Alaska Native village or regional or village corporation as defined in or established pursuant to the
Alaska Native Claims Settlement Act (85 Stat. 688)
[43 U.S.C. 1601 et seq.], which is recognized as eligible for the special programs and services provided
by the United States to Indians because of their status as Indians.
25 U.S.C. 5304(e) (brackets in original). The definition
also uses ANC-specific language. Of the listed entities,
only ANCs are “established pursuant to” ANCSA. Ibid.
The ISDA definition should therefore be understood to
include ANCs as Indian tribes, not to categorically exclude them.
That reading is consistent with the nature and role
of ANCs under ANCSA. In ANCSA, to address the
unique circumstances and history of federal-tribal relations in Alaska, Congress provided for the formation of
Alaska Native regional and village corporations to receive the money and land that the United States paid to
settle Alaska Native land claims. See pp. 3-4, supra; see
also David S. Case & David A. Voluck, Alaska Natives
and American Laws 179 (3d ed. 2012) (Case & Voluck)
(describing this “novel and experimental” approach,
unique to Alaska). ANCs are incorporated under state
law as business corporations, with Alaska Native shareholders. See 43 U.S.C. 1606(d) (regional corporations);
43 U.S.C. 1607(b) (village corporations). But it was also
contemplated that ANCs would perform “social welfare
functions” to benefit their shareholders and communities. S. Conf. Rep. No. 581, 92d Cong., 1st Sess. 42
(1971); cf. Act of Oct. 31, 1998, Pub. L. No. 105-333, § 12,

16
112 Stat. 3135 (adding 43 U.S.C. 1606(r), which “confirm[s]” the authority of ANCs to “promote the health,
education, or welfare” of Alaska Native shareholders
and their families). It is thus unsurprising that Congress has chosen to treat ANCs on the same terms as
formally recognized tribes in certain respects, including
under ISDA.
The drafting history of ISDA confirms that Congress included the express reference to ANCs in order
to ensure that ANCs, like federally recognized tribes,
are eligible to enter into contracts with the federal government under ISDA. As reported in the Senate, the
version of the bill that became ISDA included “Alaska
Native village[s]” in the definition of “Indian tribe,” but
not ANCs. S. 1017, 93d Cong., 2d Sess. § 4(b) (Mar. 28,
1974) (“ ‘Indian tribe’ means any Indian tribe, band, nation, or other organized group or community, including
any Alaska Native village as defined in [ANCSA], which
is recognized as eligible for the special programs and
services provided by the United States to Indians because of their status as Indians.”). ANCs were added to
the definition only later, when the bill was reported in
the House of Representatives. S. 1017, 93d Cong.,
2d Sess. § 4(b) (Dec. 16, 1974) (“including any Alaska
Native village or regional or village corporation as defined in or established pursuant to [ANCSA]”)
(amended text emphasized).
The accompanying committee report makes clear that
legislators specifically understood the definition as
amended “to include regional and village corporations,”
H.R. Rep. No. 1600, 93d Cong., 2d Sess. 14 (1974), with
no suggestion that ANCs would somehow be excluded by
the recognition clause. See Indian Self-Determination
and Education Assistance Act: Hearings before the

17
Subcomm. on Indian Affairs of the House Comm. on
Interior and Insular Affairs, 93d Cong., 2d Sess. 118
(1974) (statement of Chairman Meeds that “[w]hat we
are going to have to do is include those regional corporations”). As the district court recognized, “[t]hat Congress went out of its way to add ANCs to the statutory
definition of ‘Indian tribe’ is compelling evidence that
Congress intended ANCs to meet that definition.”
App., infra, 53a.
2.

Congress has ratified the longstanding administrative and judicial understanding that ANCs satisfy
the ISDA definition of “Indian tribe”

When Congress enacted the CARES Act in 2020 and
incorporated the “meaning given” to the term “Indian
Tribe” in ISDA, 42 U.S.C. 801(g)(1), the ISDA definition had been understood for decades to mean that
ANCs are eligible. The agencies charged with administering ISDA have consistently understood the statute
that way, and the only court of appeals to address the
matter confirmed that interpretation in 1987. Congress
itself has modified ISDA and incorporated its definition
of “Indian tribe” into other federal laws without suggesting any disagreement with the prevailing interpretation. Indeed, Congress has enacted several laws that
presuppose, in the statutory text, that ANCs are
treated as Indian tribes under the ISDA definition. By
incorporating the settled meaning of the ISDA definition into the CARES Act, Congress made ANCs eligible
for the relief payments at issue here.
a. The Interior Department first concluded in
1976—a year after ISDA’s enactment—that ANCs constitute “Indian tribes” under the statutory definition.
See C.A. App. 137-140. The Department’s Assistant So-

18
licitor for Indian Affairs explained in a 1976 memorandum that “profit-making regional and village corporations have not heretofore been recognized as eligible
for” the programs and services for which Indian tribes
are eligible because of their status as Indians; that applying the recognition clause to ANCs would “operate[]
to disqualify them from the benefits” available under
ISDA; and that such a construction would render “their
very mention” in the ISDA definition “superfluous.” Id.
at 138. The Department rejected that interpretation as
unsound. See ibid. Since that time, the Department has
consistently “taken the position that ANCs qualify as
‘Indian Tribes’ for purposes of ” ISDA. App., infra, 57a
(district court opinion); see, e.g., 60 Fed. Reg. 9250, 9250
(Feb. 16, 1995); 58 Fed. Reg. 54,364, 54,366 (Oct. 21,
1993); Central Council of Tlingit & Haida Indian
Tribes v. Chief, Branch of Judicial Servs., 26 IBIA 159,
163 (1994). The Indian Health Service in HHS, which
also administers ISDA, adopted the same position in
1977. See p. 6, supra.
The Ninth Circuit, which hears the large majority of
federal appeals involving Alaska Native issues, adopted
that same interpretation of ISDA in 1987. See Cook Inlet Native Association, supra. The court reasoned that
the recognition clause should not be read to apply to and
therefore exclude ANCs because “the words of a statute
should be harmonized internally and with each other,”
and the definition “should not be interpreted to render
one part inoperative.” 810 F.2d at 1474. The court correctly recognized this as the “consistent” administrative interpretation. Ibid. And the court found that the
reference to ANCs had been inserted into the definition
during the legislative drafting process “for special consideration by way of amendment,” which reinforced the

19
court’s conclusion that the language including ANCs
“should be given effect.” Id. at 1475.
The leading treatise on Indian law likewise explains
that “regional and village corporations are included as
‘tribes’ under some Indian legislation,” citing ISDA as
a paradigmatic example. 1 Cohen’s § 4.07[3][d][i]. The
Case and Voluck legal treatise on Alaska Natives reflects a similar understanding. See Case & Voluck
233 (“[T]he inclusion of [ANCs] in the definition of ‘Indian tribe’ [in ISDA] allows such corporations to contract for services to deliver to their respective regions
and villages.”); cf. Troy A. Eid, Book Review, 30 Alaska
L. Rev. 223, 223 (2013) (describing the Case and Voluck
treatise as “the Alaskan equivalent of the late Felix Cohen’s Handbook”).
b. Congress has revisited ISDA and ANCSA numerous times since the 1970s, including by amending
ISDA’s other definitional provisions five times, without
suggesting any disagreement with the prevailing interpretation. 2 Congress’s decision not “to revise or repeal
the agency’s interpretation” while making those other
changes “is persuasive evidence that the interpretation
is the one intended by Congress.” CFTC v. Schor, 478
U.S. 833, 846 (1986); see Sebelius v. Auburn Reg’l Med.
Ctr., 568 U.S. 145, 159 (2013) (upholding interpretation
in light of “nearly 40 years” of agency interpretation, no
See Indian Self-Determination Contract Reform Act of 1994,
Pub. L. No. 103-413, Tit. I, § 102, 108 Stat. 4250; Indian SelfDetermination and Education Assistance Act Amendments of 1990,
Pub. L. No. 101-644, Tit. II, § 202(1)-(2), 104 Stat. 4665; Act of May
24, 1990, Pub. L. No. 101-301, § 2(a)(1)-(3), 104 Stat. 206; Act of Nov.
1, 1988, Pub. L. No. 100-581, § 208, 102 Stat. 2940; Indian SelfDetermination and Education Assistance Act Amendments of 1988,
Pub. L. No. 100-472, § 103, 102 Stat. 2286; Case & Voluck 179-197.
2

20
judicial disagreement, and six amendments to the statute that left the relevant provision “untouched”).
That inference is especially compelling here because
Congress did not merely leave the definition undisturbed but in fact reenacted it—nearly two years after
the Ninth Circuit’s decision in Cook Inlet Native Association. See Indian Self-Determination and Education
Assistance Act Amendments of 1988, Pub. L. No. 100472, § 103, 102 Stat. 2286; cf. Lorillard v. Pons, 434 U.S.
575, 580 (1978) (“Congress is presumed to be aware of
an administrative or judicial interpretation of a statute
and to adopt that interpretation when it re-enacts a
statute without change[.]”).
c. Congress carried forward the same settled understanding when it incorporated ISDA’s definition of “Indian tribe” into the CARES Act. See Lorillard, 434 U.S.
at 581 (“[W]here * * * Congress adopts a new law incorporating sections of a prior law, Congress normally can
be presumed to have had knowledge of the interpretation
given to the incorporated law[.]”). Indeed, the CARES
Act provides that “[t]he term ‘Indian Tribe’ has the
meaning given that term” in ISDA. 42 U.S.C. 801(g)(1).
Through many decades of consistent interpretation by
the agencies charged with administering ISDA, as well
as the Ninth Circuit’s decision in Cook Inlet Native Association, the settled “meaning given” the term “Indian
tribe” in ISDA included ANCs.
Congress has also incorporated or substantially copied the ISDA definition of “Indian tribe” into other statutes addressing a wide array of federal programs. See,
e.g., 12 U.S.C. 1715z-13a(l)(8) (mortgage assistance);
15 U.S.C. 637(a)(13) (aid to small businesses); 25 U.S.C.
1603(14) (healthcare); 25 U.S.C. 2403(3) (substanceabuse prevention and treatment programs); 25 U.S.C.

21
2511(4) (educational grants); 25 U.S.C. 4103(13)(B)
(housing assistance); 28 U.S.C. 524 note (law enforcement grants); 34 U.S.C. 12291(a)(16) (Violence Against
Women Act grants); 42 U.S.C. 15855(a)(2) (renewable
energy). 3 Congress has also sometimes defined “Indian
tribe[s]” in terms that clearly exclude ANCs, including
in the Federally Recognized Indian Tribe List Act of
1994, Pub. L. No. 103-454, Tit. I, 108 Stat. 4791. See
25 U.S.C. 5130(2) (“The term ‘Indian tribe’ means any
Indian or Alaska Native tribe, band, nation, pueblo, village or community that the Secretary of the Interior
acknowledges to exist as an Indian tribe.”). Congress
could have incorporated one of those other preexisting
definitions into the CARES Act if ANCs were to be excluded, but it chose instead to employ the ISDA definition that has long been understood to encompass ANCs.
Cf. Senator Murkowski et al. C.A. Amici Br. 5.
d. Finally, the CARES Act and the ISDA definition
that it incorporates should be understood “in the context of the corpus juris of which they are a part.”
Branch v. Smith, 538 U.S. 254, 281 (2003) (opinion of
Scalia, J.); see FDA v. Brown & Williamson Tobacco

Some federal agencies that administer statutes with definitions
that incorporate or substantially mirror the ISDA definition, including the Department of Housing and Urban Development (HUD) and
the Department of Energy (DOE), have indicated that they understand the statutory language to mean that ANCs qualify as “Indian
tribes.” See Office of Native American Programs, HUD, About
ONAP, https://go.usa.gov/xfecz; Office of Pub. & Indian Hous.,
HUD, Lender Section 184 Resources, https://go.usa.gov/xfexb;
Office of Indian Energy Policy & Programs, DOE, Current Funding Opportunities, https://go.usa.gov/xfexj; DOE, Department of
Energy Announces Up To $15 Million for Tribes to Deploy Energy
Technology, https://go.usa.gov/xfexW (Mar. 27, 2020).
3

22
Corp., 529 U.S. 120, 133 (2000) (“A court must * * * interpret [a] statute ‘as a symmetrical and coherent regulatory scheme,’ and ‘fit, if possible, all parts into an
harmonious whole.’ ”) (citations omitted). Congress has
enacted several statutes that, in their text, presuppose
that ANCs meet the ISDA definition of “Indian tribe.”
The court of appeals did not attempt to reconcile its interpretation with those other statutes.
In 2018, for example, Congress “establish[ed] a biomass demonstration project for federally recognized Indian tribes and Alaska Native corporations to promote
biomass energy production.” Indian Tribal Energy Development and Self-Determination Act Amendments of
2017, Pub. L. No. 115-325, § 202(a), 132 Stat. 4459 (emphasis added). To carry out that project, Congress directed the federal government to enter into agreements
with “Indian tribe[s],” defined by cross-reference to the
same ISDA definition at issue here. § 202(c)(1)(B) and
(c)(2), 132 Stat. 4461. Congress thus plainly understood
ANCs to fall within the ISDA definition.
Likewise, the Indian Tribal Energy Development
and Self-Determination Act of 2005, Pub. L. No. 109-58,
Tit. V, § 503(a), 119 Stat. 764, incorporates ISDA’s definition of “Indian tribe” but adds that, for certain purposes, “the term ‘Indian tribe’ does not include any Native Corporation,” 25 U.S.C. 3501(4)(A) and (B)—a
carve-out that would make no sense under the court of
appeals’ understanding of ISDA.
And in 1997, Congress authorized certain Alaska regional health entities to form a consortium to enter into
ISDA contracts for the provision of statewide health
services, “without further resolutions from the Regional Corporations, Village Corporations,” or tribes

23
that the entities represented. Department of the Interior and Related Agencies Appropriations Act, 1998,
Pub. L. No. 105-83, § 325(a), 111 Stat. 1597. That provision presupposes that ANCs qualify as “Indian tribes”
from which authorizing resolutions might otherwise be
required under ISDA. See 25 U.S.C. 5304(l). Section
325(d) of the same 1997 statute allowed Cook Inlet Region, Inc. (an ANC), through a designated entity, to enter into contracts or funding agreements under ISDA
to provide select services at certain locations in
Alaska—again, without needing to submit “any further
authorizing resolutions from any other Alaska Native
Region [or] village corporation.” 111 Stat. 1598. 4
This broader corpus juris, including statutes that incorporate the ISDA definition, confirms that ANCs are
“Indian tribes” for purposes of the CARES Act as well.
3. The court of appeals erred in reading ANCs out of the
ISDA definition and the CARES Act

The court of appeals erred in nevertheless reading
the recognition clause of the ISDA definition to exclude
ANCs because they are not formally recognized Indian
tribes in the political sense of federal recognition. That
reading of the definition cannot be correct because it
would render the express reference to ANCs in the
definition a dead letter, in contravention of the statutory text and the deliberate insertion of ANCs into that
text during the drafting process to ensure their coverage. A fortiori, Congress did not exclude ANCs when
The 1997 statute settled a controversy regarding an ISDA compact involving Cook Inlet Region, Inc. See Cook Inlet Treaty Tribes
v. Shalala, 166 F.3d 986, 989-990 (9th Cir. 1999). In dismissing that
controversy as moot in light of the 1997 statute, the Ninth Circuit
observed that Cook Inlet Region, Inc. qualified as an Indian tribe
under the ISDA definition. See id. at 988.
4

24
it later incorporated the ISDA definition into the
CARES Act.
a. The court of appeals determined, as the government argued, that the recognition clause—i.e., the clause
concerning entities “recognized as eligible for the special
programs and services provided by the United States to
Indians because of their status as Indians,” 25 U.S.C.
5304(e)—uses language that generally refers to recognition as a legal term of art in Indian law, meaning “a ‘formal political act confirming the tribe’s existence as a distinct political society.’ ” App., infra, 13a (citation omitted); see id. at 13a-16a. Recognition in that sense is a
formal act by which the federal government acknowledges a “government-to-government relationship” with
an Indian tribe as a “political society.” 1 Cohen’s § 3.02[3].
If the recognition clause is understood in that sense,
reading it to apply to ANCs (and thereby excluding
them from eligibility) would violate the “ ‘cardinal principle’ of interpretation that courts ‘must give effect, if
possible, to every clause and word of a statute.’ ” Parker
Drilling, 139 S. Ct. at 1890 (citation omitted); see, e.g.,
Nielsen v. Preap, 139 S. Ct. 954, 969 (2019) (endorsing
“the idea that ‘every word and every provision is to be
given effect and that none should needlessly be given an
interpretation that causes it * * * to have no consequence’ ”) (quoting Antonin Scalia & Bryan A. Garner,
Reading Law: The Interpretation of Legal Texts 174
(2012) (Scalia & Garner)) (brackets omitted).
ANCs are not and have never been recognized in that
formal, government-to-government sense. If the ISDA
definition were read to mean that an ANC may contract
with the federal government under ISDA only if the
ANC is recognized as a tribe in the sovereign sense,

25
then no ANC has ever been or ever will be eligible (absent an Act of Congress)—despite practice to the contrary under ISDA for many years. See 43 Fed. Reg.
39,361, 39,361-39,364 (Sept. 5, 1978) (explaining that “a
political relationship” is “indispensable” for recognition
and that “corporations * * * formed in recent times” are
not eligible to petition for acknowledgment under Interior’s regulations); 25 C.F.R. 83.4(a), 83.11, 83.12 (similar); see also Case & Voluck 198 (explaining that ANCs
are “generally subject to state law and are not federally
recognized as ‘tribes’ in the political sense,” even if they
are “eligible as ‘tribes’ for certain Native American services and programs under several statutes”) (emphasis
added). Reading the recognition clause to exclude ANCs
from eligibility would be particularly jarring because
the recognition clause follows directly after the express
mention of ANCs. As the district court explained, “[i]t
would be an odd result indeed for Congress to include
ANCs in one breath only to negate their inclusion in the
very next breath.” App., infra, 53a-54a.
b. The court of appeals did not dispute that, under
its interpretation, the inclusion of ANCs in the ISDA
definition is a null set. But it reasoned that its interpretation would not have violated the rule against superfluity at the time ISDA was enacted, positing that “it was
highly unsettled in 1975 * * * whether Native villages
or Native corporations would ultimately be recognized”
as tribes, “even though, as things later turned out, no
ANCs were recognized.” App., infra, 19a.
That effort to avoid the rule against superfluity is unavailing. The evidence of purported uncertainty on
which the court of appeals relied pertained to the status
of Alaska Native villages. See App., infra, 19a-20a. Of
course, since 1993 the list of formally recognized Indian

26
tribes published by the Interior Department has included Native villages, as defined in ANCSA and referred to in the ISDA definition of “Indian tribe.” See
58 Fed. Reg. at 54,365; App., infra, 22a. But even before the 1993 list, Alaska Native villages were treated
as eligible to enter into contacts, or to designate organizations to do so on their behalf, with the federal government under ISDA. See 46 Fed. Reg. 27,178, 27,179
(May 18, 1981); 47 Fed. Reg. 53,130, 53,133-53,135 (Nov.
24, 1982); Cook Inlet Native Ass’n, 810 F.2d at 1474.
Whatever the import of that pre-1993 evidence with
respect to Native villages, however, it does not suggest
any uncertainty about the status of ANCs—newly
formed business corporations that are plainly not sovereign entities. Indeed, a 1977 report cited by the court
of appeals explained that “village and regional corporations organized pursuant to” ANCSA meet “the definition of ‘Indian tribe’ used in” ISDA, even though ANCs
are not “repositories of tribal sovereignty.” 1 American
Indian Policy Review Comm’n, 95th Cong., 1st Sess.,
Final Report 495 (Comm. Print 1977) (AIPRC Report);
see id. at 490 (distinguishing between “historic and traditional tribal entities,” which are eligible for formal
federal recognition, and “Native corporations organized
under” ANCSA, which are not).
The court of appeals also erred in suggesting that the
standards for formal federal recognition in the political
sense were so “unsettled” as of ISDA’s enactment as to
explain away any superfluity. App., infra, 21a. Formally recognized Indian tribes have always been understood in terms not applicable to ANCs. See, e.g., Cherokee Nation v. Georgia, 30 U.S. (5 Pet.) 1, 17 (1831)
(tribes are “domestic dependent nations”); Worcester v.

27
Georgia, 31 U.S. (6 Pet.) 515, 559 (1832) (“distinct, independent political communities”); Joint Tribal Council
of the Passamaquoddy Tribe v. Morton, 528 F.2d 370,
377 (1st Cir. 1975) (“a particular Indian community as a
dependent tribe under [federal] guardianship”); Felix
S. Cohen, Handbook of Federal Indian Law 271 (1942)
(identifying the principal factors for federal recognition, including “treaty relations,” “ethnological and historical” bonds, and whether “the group has exercised
political authority over its members”). And when Congress enacted ISDA in 1975, recognition decisions were
based primarily on historical precedent—i.e., “whether
at some point in a tribe’s history it established a formal
political relationship with the Government of the United
States.” 1 AIPRC Report 462. None of the newly formed
ANCs had ever established such a formal political relationship.
The court of appeals observed that ANCs were included for a time on a list of “native entities within the
State of Alaska recognized and eligible to receive services from the United States Bureau of Indian Affairs.”
App., infra, 22a (quoting 53 Fed. Reg. 52,829, 52,83252,833 (Dec. 29, 1988)). But that list only underscores
the court’s error. The Interior Department explained
at the time that ANCs were included on that list precisely because ISDA “specifically include[d]” them.
53 Fed. Reg. at 52,833. ANCs were later removed from
that list to forestall any confusion, with Interior explaining that ANCs “lack tribal status in a political sense”
and had been listed previously “because of their eligibility to participate in Federal programs under specific
statutes.” 58 Fed. Reg. at 54,365.
Reading the ISDA definition to subject ANCs to a
formal-recognition requirement would also serve no

28
purpose in this context (other than to exclude them).
With respect to the other entities listed in the opening
clause of the ISDA definition, formal recognition can
serve to distinguish groups of Indians that have merely
identified themselves as a tribe, or are recognized as a
tribe only by a State, from those groups of Indians that
the federal government has acknowledged to have the
requisite special status under federal law. See 1 Cohen’s § 3.03[3] (discussing recognition). But at the time
of ISDA’s enactment, ANCs already had a special status under federal law as “Native” entities, conferred directly by ANCSA. That special status is incorporated
into the ISDA definition, which expressly “include[s]”
Native villages and ANCs “as defined in or established
pursuant to” ANCSA. 25 U.S.C. 5304(e). Inclusion of
ANCs therefore creates no tension with the role of the
recognition clause—to exclude groups that merely selfidentify as tribes, or are recognized only by a State,
without any federal imprimatur.
c. The court of appeals also erred in viewing its interpretation to be compelled by the “series-qualifier
canon,” which provides that a modifier that follows a
“straightforward, parallel construction” of nouns or
verbs in a series may be read to apply to each item in
the series. App., infra, 12a (citation omitted). That
principle cannot “bear the weight” the court placed on
it. Lockhart v. United States, 136 S. Ct. 958, 965 (2016).
To be sure, that principle supports reading the recognition clause to apply to “any Indian tribe, band, nation,
or other organized group or community,” 25 U.S.C.
5304(e), and not merely the last item in that series, because those terms are a single, integrated list. Cf. Jama
v. ICE, 543 U.S. 335, 344 n.4 (2005). But as the district
court recognized, also subjecting ANCs to a formal

29
recognition requirement “that [they] cannot meet” would
render their inclusion within the definition mere “surplusage.” App., infra, 47a, 50a. Congress did not specifically include ANCs in a special Alaska clause in the
ISDA definition only to then exclude them via the recognition clause.
In short, applying the series-qualifier canon to the
recognition clause while construing it to require political recognition, and thereby excluding ANCs from eligibility, would “run[] headlong into the rule against superfluity.” Lockhart, 136 S. Ct. at 966. Canons of construction, it bears repeating, are “no more than rules of
thumb that help courts determine the meaning of legislation.” Connecticut Nat’l Bank v. Germain, 503 U.S.
249, 253 (1992). This Court has cautioned, including in
the particular context of Indian law, that such canons
should not be applied in “formalistic disregard of congressional intent.” Rice v. Rehner, 463 U.S. 713, 732
(1983); cf. United States v. Hayes, 555 U.S. 415, 425-426
(2009) (declining to apply a modifier to the immediately
preceding phrase where doing so would render a statutory term “superfluous”); Scalia & Garner 150 (stating
that the series-qualifier canon “is highly sensitive to
context,” and that “[o]ften the sense of the matter prevails”). The court of appeals lost sight of these principles, according dispositive weight to a canon of construction that produces a result demonstrably at odds
with Congress’s express inclusion of ANCs. 5
The court of appeals suggested that, because the clause regarding ANCs is introduced by the term “including,” it necessarily introduces terms that should be “equate[d]” with the preceding list of
nouns. App., infra, 12a. But “[i]n definitive provisions of statutes”
the word “include” can be used “as a word of extension or enlargement rather than as one of limitation or enumeration.” American
5

30
The court of appeals was similarly wrong to suggest
that reading the recognition clause not to apply to ANCs
would be “grammatical * * * nonsense.” App., infra, 12a.
The recognition clause is a restrictive relative clause, introduced by the relative pronoun “which.” Separating
such a clause from its antecedent is not necessarily ungrammatical. See Sidney Greenbaum, The Oxford English Grammar 222 (1996) (examples); cf. Bryan A. Garner, Garner’s Modern English Usage 784-786 (4th ed.
2016) (advising against “remote relatives” but calling
“lapses * * * extremely common” and giving examples
from published works). And in any event, rules of grammar are “a valuable starting point” for interpretation,
but they are “violated so often by so many of us that
they can hardly be safely relied upon as the end point.”
Payless Shoesource, Inc. v. Travelers Cos., 585 F.3d
1366, 1372 (10th Cir. 2009) (Gorsuch, J.) (interpreting a
contract containing a list of terms followed by a limiting
clause). Here, the other textual and contextual evidence
weighs strongly in favor of not reading the recognition
clause to exclude ANCs.
d. Alternatively, if the recognition clause is not read
to impose a requirement of formal recognition as a
sovereign—but rather to refer to entities that have a
requisite status under federal law with respect to programs and services to promote the welfare of Native
peoples—then the inclusion of ANCs in the ISDA definition reflects a judgment by Congress that ANCs, like
Sur. Co. v. Marotta, 287 U.S. 513, 517 (1933). For example, the Dictionary Act, 1 U.S.C. 1, uses the term “include” to expand the meaning of the preceding language. See ibid. (“words importing the masculine gender include the feminine as well”). In any event, the critical point here is that Congress would not have added ANCs to the
definition only to then categorically exclude them.

31
Native villages, qualify for purposes of ISDA. Native
villages and ANCs were specifically identified in
ANCSA, the foundational law for the governing of Native affairs in Alaska. See 43 U.S.C. 1602(c), 1606(d),
1607. And Native villages and corporations “as defined
in or established pursuant to” ANCSA are, in turn, expressly included in the ISDA definition of “Indian
tribe.” 25 U.S.C. 5304(e). That inclusion reflects a judgment that Native villages and corporations together
were to perform a role on behalf of the Native population in Alaska under ISDA parallel to that of federally
recognized tribes elsewhere in the United States. See
Pet. at 29-32, Alaska Native Village Corp. Ass’n, Inc. v.
Confederated Tribes of the Chehalis Reservation,
No. 20-___ (filed Oct. 21, 2020).
e. Whichever way the recognition clause is read,
however, the fundamental point is that Congress made
an express and deliberate judgment to include ANCs
(and Native villages) in a special Alaska clause in the
ISDA definition of “Indian tribe.” That special Alaska
clause follows the listing of the tribal entities in the
opening clause and reflects both the unique framework
for the administration of Native affairs in Alaska under
ANCSA and the special roles Native villages and corporations were intended to fulfill under ANCSA and ISDA
on behalf of Alaska Natives.
B. This Case Warrants Review

This Court should grant the petition for a writ of certiorari to restore uniformity to federal law. Sup. Ct. R.
10(a). In the decision below, the D.C. Circuit expressly
“decline[d] to follow” the Ninth Circuit’s holding in
Cook Inlet Native Association that ANCs qualify as
“Indian tribes” for ISDA purposes. App., infra, 24a;

32
see Cook Inlet Native Ass’n, 810 F.3d at 1473-1476 (discussed at pp. 18-19, supra). To be sure, this case arises
in the context of the CARES Act, whereas Cook Inlet
Native Association involved an ISDA contract dispute.
But nothing in the D.C. Circuit’s decision turned on that
distinction. The court held that ANCs “are not Indian
tribes under ISDA.” App., infra, 18a. Moreover, because the Ninth and D.C. Circuits encompass Alaska
and the seat of the federal government, respectively,
the ANC question is most likely to arise in those circuits, and additional percolation is unlikely to yield further insights from other courts.
The question presented is also of significant practical
importance. The decision below, if allowed to stand, will
exclude ANCs from receiving hundreds of millions of
dollars in coronavirus relief funds that Congress directed the Secretary of the Treasury to reserve for Indian tribes. 42 U.S.C. 801(a)(2)(B); see App., infra, 7a,
81a. Those funds are intended to offset to some extent
the devastating and unexpected financial impact of the
COVID-19 pandemic on Indian tribal institutions, including ANCs. See 42 U.S.C. 801(c)(7) (authority to
make payments to account for “increased expenditures
of each * * * Tribal government (or tribally-owned entity of such Tribal government) relative to aggregate
expenditures in fiscal year 2019”). As Judge Henderson
noted in her concurring opinion, “no reason” exists to
suppose that “the Congress would exclude ANCs (and
thus exclude many remote and vulnerable Alaska Natives) from receiving and expending much-needed” relief funds during the pandemic. App., infra, 26a-27a.
Depriving ANCs of coronavirus relief funds may impede their ability to “promote the health, education,
[and] welfare” of the Alaska Natives they serve.

33
43 U.S.C. 1606(r). Providing relief funds to ANCs also
serves as a form of economic stimulus. The Treasury
Department has confirmed, for example, that the relief
payments at issue here may be used to provide economic assistance to private businesses, including tribally owned businesses, harmed by the COVID-19 pandemic. See p. 7, supra; cf. 166 Cong. Rec. E344 (daily
ed. Mar. 31, 2020) (statement of Rep. Torres noting that
many Indian tribes “did the right thing” and “clos[ed]
their businesses” during the pandemic, resulting in
“catastrophic” losses).
The court of appeals noted that Alaska Native villages are still eligible to receive relief funds. App., infra, 24a. In the proceedings below, however, amici
ANCs reported that thousands of Alaska Natives who
receive benefits from ANCs are not enrolled in any federally recognized tribe. See Cook Inlet Region, Inc.
C.A. Amicus Br. 1-2; see also id. at 11-18. With respect
to such individuals, the court expressed confidence that,
“if there are Alaska Natives uncared for because they
are not enrolled in any recognized village, either the
State of Alaska or [HHS] will be able to fill the void.”
App., infra, 25a. But such a void should not exist at all.
Properly construed, the CARES Act itself ensures that
coronavirus relief funds can flow equitably to all Alaska
Natives, including those served by ANCs.

34
CONCLUSION

The petition for a writ of certiorari should be
granted.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
EDWIN S. KNEEDLER
Deputy Solicitor General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
MATTHEW GUARNIERI
Assistant to the Solicitor
General
MICHAEL S. RAAB
DANIEL TENNY
ADAM C. JED
Attorneys

OCTOBER 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 20-5204
Consolidated with 20-5205 and 20-5209
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL., APPELLEES
UTE TRIBE OF THE UINTAH AND OURAY INDIAN
RESERVATION, APPELLANT
v.
STEVEN T. MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF U.S. DEPARTMENT OF THE TREASURY,
ET AL., APPELLEES
Argued: Sept. 11, 2020
Decided: Sept. 25, 2020
Appeals from the United States District Court
for the District of Columbia
(No. 1:20-cv-01002)
(No. 1:20-cv-01059)
(No. 1:20-cv-01070)
Before: HENDERSON , MILLETT, and KATSAS, Circuit Judges.
Opinion of the Court filed by Circuit Judge KATSAS.
Concurring Opinion filed by Circuit Judge HENDERSON.
(1a)

2a
KATSAS, Circuit Judge: Title V of the Coronavirus
Aid, Relief, and Economic Security Act (CARES Act)
makes certain funds available to the recognized governing bodies of any “Indian Tribe” as that term is defined
in the Indian Self-Determination and Education Assistance Act (ISDA). Alaska Native Corporations are statechartered corporations established by Congress to receive land and money provided to Alaska Natives in settlement of aboriginal land claims. We consider whether
these corporations qualify as Indian Tribes under the
CARES Act and ISDA.
I
A
Since the Alaska Purchase in 1867, the United States
has taken shifting positions on the political status of
Alaska’s indigenous populations. Initially, the government thought that Alaska Natives had no distinct sovereignty. See, e.g., In re Sah Quah, 31 F. 327, 329 (D. Alaska 1886) (“The United States has at no time recognized
any tribal independence or relations among these Indians. . . . ”). Over time, it came to view Alaska Natives as “being under the guardianship and protection of
the Federal Government, at least to such an extent as to
bring them within the spirit, if not within the exact letter, of the laws relative to American Indians.” Leasing
of Lands Within Reservations Created for the Benefit of
the Natives of Alaska, 49 Pub. Lands Dec. 592, 595
(1923). Those laws recognize and implement the unique
trust relationship between the federal government and
Indian tribes as dependent sovereigns, and the distinct
obligations that relationship imposes. See, e.g., United
States v. Jicarilla Apache Nation, 564 U.S. 162, 175-76

3a
(2011). But Alaska Natives differed from other Indians in their “peculiar nontribal organization” in small,
isolated villages. Op. Sol. of Interior, M-36975, 1993
WL 13801710, at *18 (Jan. 11, 1993) (“Sansonetti Op.”)
(quoting H.R. Rep. 74-2244, at 1-5 (1936)).
For over a century, the federal government had no
settled policy on recognition of Alaska Native groups as
Indian tribes. Instead, it dealt with that question “in a
tentative and reactive way,” with “decisions on issues
concerning the relationship with Natives [being] postponed, rather than addressed.” Sansonetti Op. at *2.
Because of the “remote location, large size and harsh climate of Alaska,” there was no pressing need “to confront questions concerning the relationship between the
Native peoples of Alaska and the United States.” Id.
But in 1958, the Alaska Statehood Act provided for a
large transfer of land from the federal government to
the soon-to-be State. Pub. L. No. 85-508, § 6, 72 Stat.
339, 340-43. And in 1968, oil was discovered on Alaska’s
North Slope, requiring construction of a pipeline system
running across the entire State. See Alyeska Pipeline
Serv. Co. v. Wilderness Soc’y, 421 U.S. 240, 241-42 & n.2
(1975). These developments forced the federal government to confront at least the question of Native claims
to aboriginal lands. See Sansonetti Op. at *43.
In 1971, Congress enacted the Alaska Native Claims
Settlement Act (ANCSA), a “comprehensive statute designed to settle all land claims by Alaska Natives.”
Alaska v. Native Vill. of Venetie Tribal Gov’t, 522 U.S.
520, 523 (1998). Rather than set aside land for reservations, as Congress often had done in the lower 48
states, it “adopted an experimental model initially calcu-

4a
lated to speed assimilation of Alaska Natives into corporate America.” 1 Cohen’s Handbook of Federal Indian
Law § 4.07(3)(b)(ii)(C) (2019). Among other things,
ANCSA “completely extinguished all aboriginal claims
to Alaska land” and abolished all but one Native reservation in Alaska. Native Vill. of Venetie, 522 U.S. at
524. “In return, Congress authorized the transfer of
$962.5 million in state and federal funds and approximately 44 million acres of Alaska land to state-chartered
private business corporations that were to be formed
pursuant to the statute.” Id.
As relevant here, ANCSA authorized the creation of
two types of corporations to receive this money and land:
Alaska Native Regional Corporations and Alaska Native
Village Corporations, which we collectively refer to as
ANCs. First, the statute divided Alaska into twelve
geographic areas, each sharing a common heritage and
interests, and it created a regional corporation for each
area. 43 U.S.C. § 1606(a). Second, ANCSA required
the Alaska Native residents of each “Native village”—
defined as any community of at least twenty-five Alaska
Natives, id. § 1602(c)—to organize as a village corporation to receive benefits under the statute. Id. § 1607(a).
Village corporations “hold, invest, manage and/or distribute lands, property, funds, and other rights and assets for and on behalf of a Native village.” Id. § 1602( j).
Like other corporations, ANCs have boards of directors and shareholders. 43 U.S.C. §§ 1606(f )-(h), 1607(c).
The initial ANC shareholders were exclusively Alaska
Natives; each Native received one hundred shares of the
regional and village corporation operating where he or
she lived. Id. §§ 1606(g)(1)(A), 1607(c). ANCSA initially prohibited the transfer of stock to non-Natives for

5a
twenty years, 43 U.S.C. § 1606(h)(1) (1971), but Congress later made the prohibition continue unless and until an ANC chose to end it, 43 U.S.C. § 1629c(a). ANCs
may freely sell land to non-Natives and need not use the
land “for Indian purposes.” Native Vill. of Venetie,
522 U.S. at 533. Regional ANCs may provide “health,
education, or welfare” benefits to Native shareholders
and to shareholders’ family members who are Natives
or Native descendants, without regard to share ownership. 43 U.S.C. § 1606(r).
B
In 1975, Congress enacted ISDA to “help Indian
tribes assume responsibility for aid programs that benefit their members.” Menominee Indian Tribe of Wis.
v. United States, 136 S. Ct. 750, 753 (2016). ISDA authorizes the federal government to contract with Indian
tribes to provide various services to tribal members.
Salazar v. Ramah Navajo Chapter, 567 U.S. 182, 185
(2012). Under these “self-determination” contracts, the
government provides money to an individual tribe, which
agrees to use it to provide services to tribal members.
See Menominee Indian Tribe, 136 S. Ct. at 753.
Specifically, ISDA directs the Secretary of the Interior or the Secretary of Health and Human Services,
“upon the request of any Indian tribe,” to contract with
an appropriate “tribal organization” to provide the requested services. 25 U.S.C. § 5321(a)(1). ISDA defines an “Indian tribe” as
any Indian tribe, band, nation, or other organized
group or community, including any Alaska Native village or regional or village corporation as defined in
or established pursuant to the Alaska Native Claims

6a
Settlement Act (85 Stat. 688), which is recognized as
eligible for the special programs and services provided by the United States to Indians because of their
status as Indians.
Id. § 5304(e). ISDA further defines a “tribal organization” to include “the recognized governing body of any
Indian tribe.” Id. § 5304(l).
C
On March 27, 2020, Congress passed the CARES Act
to provide various forms of relief from the ongoing coronavirus pandemic. Title V of the CARES Act appropriated $150 billion “for making payments to States,
Tribal governments, and units of local government.”
42 U.S.C. § 801(a)(1). These payments cover “necessary expenditures incurred due to the public health
emergency.” Id. § 801(d)(1). Congress directed the
payments to be made within 30 days. Id. § 801(b)(1).
Of these funds, the CARES Act reserved $8 billion
“for making payments to Tribal governments.” 42
U.S.C. § 801(a)(2)(B). The CARES Act defines a “Tribal
government” as “the recognized governing body of an
Indian Tribe.” Id. § 801(g)(5). It further defines “Indian Tribe” as bearing “the meaning given that term” in
ISDA. Id. § 801(g)(1).
II
On April 13, 2020, the Department of the Treasury
published a form seeking tribal data to help apportion
Title V funds. The Department requested each tribe’s
name, population, land base, employees, and expenditures. The form suggested that ANCs would receive
funding. For example, in seeking population information, the form requested the total number of tribal

7a
citizens, members, or shareholders. On April 22, the
Department confirmed its conclusion that ANCs were
eligible to receive Title V funds.
Between April 17 and 23, three separate groups of
Indian tribes filed lawsuits challenging that decision.
Collectively, the plaintiffs encompass six federally recognized tribes in Alaska and twelve federally recognized
tribes in the lower 48 states. The tribes argued that
ANCs are not “Indian Tribes” within the meaning of the
CARES Act or ISDA because they do not satisfy the final requirement of the ISDA definition—i.e., because
they are not “recognized as eligible for the special programs and services provided by the United States to
Indians because of their status as Indians.” 23 U.S.C.
§ 5304(e). The government agreed that ANCs have not
been so recognized, and it further argued that ANCs
could not be so recognized. But, the government reasoned, Congress expressly included ANCs within the
ISDA definition, and we must give effect to that decision.
The district court consolidated the three cases and
granted a preliminary injunction prohibiting the distribution of any Title V funds to ANCs. In finding that
the tribes were likely to succeed on the merits, the court
reasoned that any “Indian tribe” under ISDA must be
“recognized” as such and that Alaska Native corporations, unlike Alaska Native villages, have not been so
recognized. As a result of the preliminary injunction,
the government has withheld distribution of more than
$162 million in Title V funds that it otherwise would have
provided to ANCs. Several ANCs and ANC associations then intervened as defendants.

8a
The district court ultimately granted summary judgment to the defendants. After further consideration, the
court agreed with the government: ANCs must qualify
as Indian tribes to give effect to their express inclusion
in the ISDA definition, even though no ANC has been
recognized as an Indian tribe.
To permit orderly review, the district court granted
the tribes’ motion for an injunction pending appeal, subject to the tribes seeking expedition in this Court. The
injunction prohibited the distribution of Title V funds to
ANCs until the earlier of September 15 or a merits decision by this Court. We granted expedition, heard
oral argument, and extended the injunction pending our
decision.
III
The government first contends that its decision to
provide CARES Act funds to ANCs is not judicially reviewable. The Administrative Procedure Act provides
a cause of action to persons “adversely affected or aggrieved by agency action,” 5 U.S.C. § 702, but withdraws
the action to the extent that “statutes preclude judicial
review,” id. § 701(a)(1). “Whether and to what extent
a particular statute precludes judicial review is determined not only from its express language, but also from
the structure of the statutory scheme, its objectives, its
legislative history, and the nature of the administrative
action involved.” Block v. Cmty. Nutrition Inst., 467
U.S. 340, 345 (1984). Any preclusion must be “fairly
discernible in the statutory scheme,” id. at 351, and
must appear “with sufficient clarity to overcome the
strong presumption in favor of judicial review,” Thryv,
Inc. v. Click-to-Call Techs., LP, 140 S. Ct. 1367, 1373
(2020) (quotation marks omitted).

9a
Nothing in the CARES Act expressly precludes review of spending decisions under Title V. Nonetheless,
the government argues that the statute precludes judicial review by implication. It highlights three structural or contextual considerations: the short deadline
for disbursing funds, the urgency of providing relief
funds quickly, and the lack of any requirement for advance notice of funding decisions.
We are unpersuaded. To begin, the government
cites no case in which short statutory deadlines have
been held to preclude judicial review by implication.
To the contrary, in Dunlop v. Bachowski, 421 U.S. 560
(1975), the Supreme Court held that judicial review was
available despite a 60-day deadline for the relevant administrative action. Id. at 563 n.2, 567. Likewise, in
Texas Municipal Power Agency v. EPA, 89 F.3d 858
(D.C. Cir. 1996), we rejected a claim that “short statutory deadlines,” combined with the need “to compile
enormous amounts of data and allocate allowances to
2,200 utilities” within the deadline, made the claim at issue unreviewable. See id. at 864-65. The government
cites Morris v. Gressette, 432 U.S. 491 (1977), where the
plaintiffs sought to challenge an administrative failure
to object to a state voting measure under section 5 of the
Voting Rights Act. But the Act provided other means
to obtain judicial review of the underlying legal question, see id. at 504-05, and the case involved the same
kind of enforcement discretion later held to be generally
unreviewable in Heckler v. Chaney, 470 U.S. 821 (1985).
The government also cites Dalton v. Specter, 511 U.S.
462 (1994), but that case turned on the fact that presidential action is not subject to APA review. See id. at

10a
471-76. As for urgency, the government frames its argument as only a slight variation on its point about the
need for speed.
Finally, while the government may be correct that judicial review would be difficult had it simply disbursed
the funds with no prior warning, see City of Hous. v.
HUD, 24 F.3d 1421, 1424 (D.C. Cir. 1994), that should
hardly preclude review where, as here, the government
did take prior agency action in time to afford review.
To be sure, the government might have argued that the
actions taken here, including a solicitation of information, were not final agency action reviewable under
the APA. We take no position on that question because
finality in this context bears on the scope of the plaintiff ’s cause of action; it is a forfeitable objection that the
government did not press here. See Marcum v. Salazar, 694 F.3d 123, 128 (D.C. Cir. 2012).
IV
On the merits, the district court held that ANCs are
Indian tribes within the ISDA definition and thus are
eligible for funding under Title V of the CARES Act.
We review de novo this legal ruling, which was appropriately made on summary judgment. Stoe v. Barr,
960 F.3d 627, 629 (D.C. Cir. 2020). In considering the
difficult legal question now before us, we have benefitted greatly from the district court’s two thoughtful opinions, rendered under severe time constraints, which
carefully assess the arguments on both sides.
Title V of the CARES Act makes funding available
“to States, Tribal governments, and units of local government.” 42 U.S.C. § 801(a)(1). Alaska Native Cor-

11a
porations are neither “States” nor “units of local government” in Alaska. ANCs thus are eligible to receive Title V funds only if they are “Tribal governments.” Title V defines a “Tribal government” as “the recognized
governing body of an Indian Tribe,” id. § 801(g)(5), and
defines “Indian Tribe” as bearing “the meaning given
that term” in ISDA, id. § 801(g)(1). So ANCs are eligible for Title V funding only if they qualify as an “Indian
tribe” under ISDA. As explained below, ANCs do not
satisfy the ISDA definition.
A
ISDA defines an “Indian tribe” as
[1] any Indian tribe, band, nation, or other organized
group or community, [2] including any Alaska Native
village or regional or village corporation as defined in
or established pursuant to the Alaska Native Claims
Settlement Act (85 Stat. 688), [3] which is recognized
as eligible for the special programs and services provided by the United States to Indians because of their
status as Indians.
25 U.S.C. § 5304(e). The first, listing clause sets forth
five kinds of covered Indian entities—any “tribe, band,
nation, or other organized group or community.” The
second, Alaska clause clarifies that three kinds of Alaskan entities are covered—“any Alaska Native village or
regional or village corporation.” The third, recognition
clause restricts the definition to a subset of covered
entities—those “recognized as eligible for the special
programs and services provided by the United States to
Indians because of their status as Indians.”
The text and structure of this definition make clear
that the recognition clause, which is adjectival, modifies

12a
all of the nouns listed in the clauses that precede it.
Under the series-qualifier canon, “[w]hen there is a
straightforward, parallel construction that involves all
nouns or verbs in a series, a prepositive or postpositive
modifier normally applies to the entire series.” A.
Scalia & B. Garner, Reading Law 147 (2012); see, e.g.,
Lockhart v. United States, 136 S. Ct. 958, 963 (2016)
(canon applies where “the listed items are simple and
parallel without unexpected internal modifiers”); Jama
v. ICE, 543 U.S. 335, 344 n.4 (2005) (same where “modifying clause” appears “at the end of a single, integrated
list”). This canon applies to the listing clause, which
ticks off five synonyms in a grammatically simple list
(any “tribe, band, nation, or other organized group or
community”). Moreover, through its usage of “including,” the Alaska clause operates to equate its two parallel nouns (“village” and “corporation”) with the five preceding nouns. And given the obvious similarities between the Indian entities in the listing clause and Alaska
Native villages—more than 200 of which have been recognized as tribes—the recognition clause undisputedly
modifies “village” as well as the five previously listed Indian groups. Finally, it is not grammatically possible
for the recognition clause to modify all of the five nouns
in the listing clause, plus the first noun in the more proximate Alaska clause (“village”), but not the one noun in
the preceding two clauses that is its most immediate antecedent (“corporation”). If possible, we construe statutory text to make grammatical sense rather than nonsense. See Scalia & Garner, supra, at 140-43 (“Grammar Canon”). For these reasons, an ANC cannot qualify as an “Indian tribe” under ISDA unless it has been

13a
“recognized as eligible for the special programs and services provided by the United States to Indians because
of their status as Indians.”
B
Because no ANC has been federally “recognized” as
an Indian tribe, as the recognition clause requires, no
ANC satisfies the ISDA definition.
“[I]t is a cardinal rule of statutory construction that,
when Congress employs a term of art, it presumably
knows and adopts the cluster of ideas that were attached
to each borrowed word in the body of learning from
which it was taken.” Air Wis. Airlines Corp. v. Hoeper,
571 U.S. 237, 248 (2014) (quoting FAA v. Cooper, 566
U.S. 284, 292 (2012)). We adhere to this presumption
unless the statute contains some “contrary indication.”
McDermott Int’l, Inc. v. Wilander, 498 U.S. 337, 342
(1991).
In the context of Indian law, “recognition” is a “legal
term of art.” Frank’s Landing Indian Cmty. v. Nat’l
Indian Gaming Comm’n, 918 F.3d 610, 613 (9th Cir.
2019). It refers to a “formal political act confirming the
tribe’s existence as a distinct political society, and institutionalizing the government-to-government relationship between the tribe and the federal government.”
Cal. Valley Miwok Tribe v. United States, 515 F.3d 1262,
1263 (D.C. Cir. 2008) (quotation marks omitted). Federal recognition both establishes the tribe as a “domestic dependent nation” and “requires the Secretary [of
the Interior] to provide a panoply of benefits and services to the tribe and its members.” Frank’s Landing,
918 F.3d at 613-14 (quotation marks omitted); see Muwekma Ohlone Tribe v. Salazar, 708 F.3d 209, 211 (D.C.

14a
Cir. 2013) (“Federal recognition is a prerequisite to the
receipt of various services and benefits available only to
Indian tribes.”); Miwok Tribe, 515 F.3d at 1263-64 (noting “the federal benefits that a recognized tribe and its
members may claim”); Golden Hill Paugussett Tribe of
Indians v. Weicker, 39 F.3d 51, 57 (2d Cir. 1994) (“After
passage of the Indian Reorganization Act recognition
proceedings were necessary because the benefits created by it were made available only to descendants of
‘recognized’ Indian tribes.”). Given the well-established
meaning of “recognition” in Indian law, and its connection to the provision of benefits to tribal members, we
interpret ISDA’s requirement that an Indian tribe be
“recognized as eligible for the special programs and services provided by the United States to Indians because
of their status as Indians” to require federal recognition
of the putative tribe.
Several pre-ISDA statutes bolster this conclusion.
During the 1950s and 1960s, Congress sought to assimilate Indians by terminating federal recognition of various tribes, thereby ending the special relationship that
existed between the federal government and the tribes
as sovereigns. Felter v. Kempthorne, 473 F.3d 1255,
1258 (D.C. Cir. 2007). By rote formula, these statutes
provided that, upon termination, members of the former
tribe “shall not be entitled to any of the services performed by the United States for Indians because of their
status as Indians.” See, e.g., An Act to Provide for the
Division of the Tribal Assets of the Catawba Indian
Tribe of South Carolina, Pub. L. No. 86-322, 73 Stat. 592,
593 (1959); An Act to Provide for the Distribution of the
Land and Assets of Certain Indian Rancherias and Reservations in California, Pub. L. No. 85-671, 72 Stat. 619,
621 (1958); An Act to Provide for the Termination of

15a
Federal Supervision Over the Property of the Ottawa
Tribe of Indians in the State of Oklahoma, Ch. 909, 70
Stat. 963, 964 (1956).1 These statutes confirm that, long
before ISDA was enacted, there was an established connection between recognition and sovereignty. Likewise,
in text that closely mirrors ISDA’s recognition clause,
they confirm that with recognition comes various benefits provided “by the United States for Indians because
of their status as Indians.” In sum, they confirm that
not only the general concept of recognition, but also the
specific phrase used to describe it in ISDA, are terms of
art denoting federal recognition of a sovereign Indian
tribe.
The Federally Recognized Indian Tribe List Act of
1994 (List Act) further reinforces this conclusion. It
charges the Secretary of the Interior with “keeping a
list of all federally recognized tribes.” Pub. L. No. 103454, § 103(6), 108 Stat. 4791, 4792. The list must be “accurate, regularly updated, and regularly published,” so
that all federal agencies may use it “to determine the
eligibility of certain groups to receive services from the
United States.” Id. § 103(7), 108 Stat. at 4792. The
list also must “reflect all federally recognized Indian
tribes in the United States which are eligible for the special programs and services provided by the United
States to Indians because of their status as Indians.”
Id. § 103(8), 108 Stat. at 4792. Repeating this language,
the List Act’s only substantive section, titled “Publication of list of recognized tribes,” requires the Secretary
to publish annually a list of “all Indian tribes which the

This precise formulation, or close variants of it, appears in at
least sixteen termination statutes enacted between 1954 and 1968.
1

16a
Secretary recognizes to be eligible for the special programs and services provided by the United States to
Indians because of their status as Indians.” 25 U.S.C.
§ 5131(a). Thus, in language that twice tracks ISDA’s
recognition clause almost verbatim, the List Act equates
federal recognition of Indian tribes with eligibility for
“the special programs and services provided by the
United States to Indians because of their status as Indians.”
To be sure, the List Act post-dates ISDA. But during the time between those two statutes, the Secretary
of the Interior consistently recognized Indian tribes on
the same terms and listed them as so recognized. See
Procedures for Establishing that an American Indian
Group Exists as an Indian Tribe, 43 Fed. Reg. 39,361,
39,362 (Sept. 5, 1978) (“[A]cknowledgment of tribal existence by the Department is a prerequisite to the protection, services, and benefits from the Federal Government available to Indian tribes. Such acknowledgment
shall also mean that the tribe is entitled to the immunities and privileges available to other federally acknowledged Indian tribes by virtue of their status as Indian
tribes. . . . ”) (codified at 25 C.F.R. § 83.2 (1978)).
Given the strikingly similar language between the List
Act and ISDA, the term-of-art nature of that language,
and its usage in administrative practice spanning several decades, we conclude that the List Act and ISDA
must reflect the same understanding of tribal recognition.
The intervenors urge a different understanding of
what kind of recognition ISDA requires. Rejecting the
term-of-art understanding laid out above, the interve-

17a
nors contend that an Alaska Native group is “recognized” within the meaning of ISDA if it receives any
Indian-related funding or benefits, regardless of
whether the federal government has acknowledged a
sovereign-to-sovereign relationship with the group.
Because some statutes fund programs for Alaska Natives in part through ANCs, see, e.g., 20 U.S.C. § 7453(b)
(Alaska Native language immersion schools), the intervenors contend that that ANCs are therefore recognized
Indian Tribes for ISDA purposes.
The intervenors’ proposed interpretation cannot be
reconciled with the text of ISDA. First, ISDA’s recognition clause does not simply require the group to be
“recognized as eligible” for any special program or service “provided by the United States to Indians because
of their status as Indians.” Instead, it requires the group
to be “recognized as eligible for the special programs
and services provided by the United States to Indians
because of their status as Indians” (emphases added).
Use of the definite article (“the”) indicates that what follows “has been previously specified by context.” Nielsen v. Preap, 139 S. Ct. 954, 965 (2019). Here, the only
“special programs and services” (in the plural) plausibly
specified by context are the “panoply of benefits and
services” to which “recognized” tribes are entitled.
Frank’s Landing, 918 F.3d at 613-14. Second, the intervenors would read recognition out of ISDA; whereas
the statute requires a group to be “recognized as eligible” for various special programs, the intervenors would
read it to require only that the group be “eligible” to receive benefits or funding.
The ANCs have not satisfied the recognition clause
as we construe it. They do not contend that the United

18a
States has acknowledged a political relationship with
them government-to-government. Nor could they, for
in 1978, the Interior Department promulgated regulations making “corporations . . . formed in recent
times” ineligible for recognition. See 25 C.F.R. § 83.4(a).
Under that regulation, which remains in effect, no ANC
appears on the Secretary of the Interior’s current list of
recognized Indian tribes. See Indian Entities Recognized by and Eligible To Receive Services from the
United States Bureau of Indian Affairs, 85 Fed. Reg.
5,462 (Jan. 30, 2020). And because ANCs are not federally recognized, they are not Indian tribes under
ISDA.
C
The government agrees that ANCs have not been
“recognized” as ISDA requires. Indeed, it stresses that
ANCs, which have never enjoyed any sovereign-tosovereign relationship with the United States, could
never be so recognized. For the government, the upshot is that ANCs need not satisfy the recognition clause
to qualify as Indian tribes. Otherwise, the government
reasons, Congress would have accomplished nothing by
expressly adding “any Alaska native village or regional
or village corporation” (emphasis added) to the list of
possible recognized tribes. Given what the government describes as a misfit between the last noun in the
statutory list (“corporation”) and the adjectival clause
that follows (including “recognized”), the government
contends that the adjectival clause must be read to modify every listed noun except its immediate antecedent.
Fortunately, we need not choose between the government’s interpretation, which produces grammatical incoherence, and a competing interpretation that would

19a
produce equally problematic surplusage. For we conclude that, although ANCs cannot be recognized as Indian tribes under current regulations, it was highly unsettled in 1975, when ISDA was enacted, whether Native villages or Native corporations would ultimately be
recognized. The Alaska clause thus does meaningful
work by extending ISDA’s definition of Indian tribes to
whatever Native entities ultimately were recognized—
even though, as things later turned out, no ANCs were
recognized.
For over a century, claims of tribal sovereignty in
Alaska went largely unresolved. Soon after the Alaska
Purchase, many courts held that Native villages were
not sovereigns in control of some distinct “Indian country.” United States v. Seveloff, 27 F. Cas. 1021, 1024
(C.C.D. Or. 1872); Kie v. United States, 27 F. 351, 35152 (C.C.D. Or. 1886); see also In re Sah Quah, 31 F. at 329
(“The United States at no time recognized any tribal independence or relations among these Indians. . . . ”).
That view changed over the first half of the 20th century,
yet there were still few occasions for the federal government to develop political relationships with the remote
and isolated Native villages. Sansonetti Op. at *9, *1516. Accordingly, the government addressed questions
of Native sovereignty only “in a tentative and reactive
way.” Id. at *2. And when land disputes came to the
fore in ANCSA, Congress complicated the question of
Native sovereignty even more. As a general matter,
Indian tribes must control a particular territory. See,
e.g., Merrion v. Jicarilla Apache Tribe, 455 U.S. 130,
142 (1982); Montoya v. United States, 180 U.S. 261, 266
(1901). But ANCSA terminated 22 of the 23 existing
reservations in Alaska, 43 U.S.C. § 1618(a); extinguished
all aboriginal land claims of Native individuals or tribes,

20a
id. § 1603; and transferred settlement proceeds not to
the Native villages previously thought to have at least
arguable sovereignty, but to newly-created corporations
chartered under and thus subject to Alaska law, id.
§§ 1605(c), 1606(d).
After the enactment of ISDA, questions persisted for
nearly two more decades about the nature of tribal sovereignty in Alaska. In 1977, a congressional commission concluded that the sovereign powers of Alaska Native villages had been placed “largely in abeyance at the
present time because the tribes currently do not possess
tribal domains.” 2 Am. Indian Pol’y Rev. Comm’n, No.
93-440, Final Report, 489, 490-491 & n.12 (1977). In
1988, the Alaska Supreme Court held that Alaska Native
villages had “not been accorded tribal recognition” (except for the tribe inhabiting the one remaining reservation) and thus lacked tribal sovereign immunity. Native Vill. of Stevens v. Alaska Mgmt. & Planning, 757
P.2d 32, 39-41 (Alaska 1988). And as late as January
1993, the Solicitor of Interior concluded that Alaska Native villages enjoyed some attributes of tribal sovereignty, but only after conducting an exhaustive historical survey and analysis of various conflicting considerations. Sansonetti Op. at *5-35, *75-76. Even then, the
Solicitor concluded that this sovereignty did not extend
to control over the lands transferred by ANCSA to the
regional and village corporations. Id. at *75.
Moreover, ANCSA charged the new ANCs with a
handful of functions that would ordinarily be performed
by tribal governments, making potential future recognition of ANCs more plausible. For one thing, ANCs
were the vehicle for implementing a global settlement
encompassing all land claims that any Native individual

21a
or sovereign could bring against the United States. 43
U.S.C. § 1601(a). Moreover, the village corporations
were charged with managing the land transferred by the
United States not on behalf of their shareholders, but
“on behalf of a Native village.” Id. § 1602( j). And the
regional corporations were authorized to “promote the
health, education, or welfare” of Alaska Natives. Id.
§ 1606(r). That function is currently performed by two
large cabinet agencies, the Department of Health and
Human Services and the Department of Education,
which at the time of ANCSA were constituted as a single
Department of Health, Education, and Welfare. The
intervenors themselves characterize ANCs as performing functions “that one would most naturally describe as
governmental.” Intervenor-Appellees’ Br. at 35.
When ISDA was enacted, the standards and procedures for the United States to recognize Indian tribes
also were unsettled. At that time, recognition occurred
in an “an ad hoc manner,” with petitions for recognition
evaluated “on a case-by-case basis,” Mackinac Tribe v.
Jewell, 829 F.3d 754, 756 (D.C. Cir. 2016), and “at the
discretion” of the Interior Department, Procedures
Governing Determination that Indian Group Is a Federally Recognized Indian Tribe, 42 Fed. Reg. 30,647,
30,647 (June 16, 1977). It was not until 1978 that the
Department first promulgated regulations establishing
uniform standards to govern the question whether to
grant “formal recognition” to specific Indian groups.
Mackinac Tribe, 829 F.3d at 756.
But even after promulgating those regulations, Interior still had difficulty sorting out whether to recognize
Native villages, corporations, or both. In 1979, Interior published its first list of tribes recognized under the

22a
new regulatory criteria. The list contained no Alaska
Native entities, which the agency said would be addressed “at a later date.” Indian Tribal Entities that
Have a Government-To-Government Relationship with
the United States, 44 Fed. Reg. 7,235, 7,235 (Feb. 6,
1979). In 1988, Interior included both villages and corporations in a single list designated as “native entities
within the State of Alaska recognized and eligible to receive services from the United States Bureau of Indian
Affairs.” Indian Entities Recognized and Eligible to
Receive Services from the United States Bureau of Indian Affairs, 53 Fed. Reg. 52,829, 52,832-33 (Dec. 29,
1988) (cleaned up). Finally, Interior changed course in
October 1993, publishing a substantially revised list of
recognized Native entities that included over 200 Alaska
Native villages, but no Alaska Native corporations. Indian Entities Recognized and Eligible to Receive Services from the United States Bureau of Indian Affairs,
58 Fed. Reg. 54,364 (Oct. 21, 1993). In the preamble to
that list, Interior analogized Native corporations to
“tribal organizations” in the lower 48 states, which were
not recognized as Indian tribes. See id. at 54,365.
Moreover, it expressed concern that recognizing Native
corporations as sovereign entities would undercut the
case for so recognizing the traditional Native villages.
See id. As the leading Indian-law treatise explains,
“the question of federal recognition of Alaska tribes”
thus was not “definitively settled” until Interior published this “revised list of federally recognized tribes” in
October 1993. Cohen’s Handbook, supra, § 4.07(3)(d)(ii).
In sum, when Congress enacted ISDA in 1975, it was
substantially uncertain whether the federal government
would recognize Native villages, Native corporations,

23a
both kinds of entities, or neither. In the face of this uncertainty, Congress expanded the term “Indian tribe” to
cover any Native “village or regional or village corporation” that was appropriately “recognized.” By including both villages and corporations, Congress ensured
that any Native entities recognized by Interior or later
legislation would qualify as Indian tribes. There is no
surplusage problem simply because, almost two decades
later, Interior chose to recognize the historic villages
but not the newer corporations as the ultimate repository of Native sovereignty.
Finally, we reject the government’s plea for deference. The government does not contend that its interpretation of ISDA is entitled to deference under Chevron, U.S.A., Inc. v. Natural Resources Defense Council,
Inc., 467 U.S. 837 (1984), presumably because that interpretation has never been formally expressed, see
United States v. Mead Corp., 533 U.S. 218, 226-27 (2001).
Instead, the government claims deference under Skidmore v. Swift & Co., 323 U.S. 134 (1944), to the extent
that its position is persuasive. The government’s position in this case traces back to an internal agency memorandum written by an Assistant Solicitor of Interior,
who simply asserted that ANCs must be exempt from
ISDA’s recognition clause in order to avoid statutory
surplusage. That memorandum did not address any of
the textual or historical considerations set forth above.
Moreover, it appears inconsistent with a binding regulation adopted by the Department of the Treasury, the
agency before the Court on this appeal. The regulation
provides that, under ISDA, “[e]ach such Indian Tribe”
covered by the definition—“including any Alaska Native
village or regional or village corporation” as defined in
ANCSA—“must be recognized as eligible for special

24a
programs and services provided by the United States to
Indians because of their status as Indians.” 12 C.F.R.
§ 1805.104. Because the Interior Department’s administrative interpretation of ISDA has little persuasive
power, we afford it no deference. Likewise, we decline
to follow Cook Inlet Native Ass’n v. Bowen, 810 F.2d
1471 (9th Cir. 1987), in which the Ninth Circuit accepted
that interpretation. See id. at 1473-76.
For these reasons, we read the ISDA definition to
mean what it says, that Alaska Native villages and corporations count as an “Indian tribe” only if “recognized”
as such.
D
The ANCs suggest that a ruling for the tribes would
produce sweeping adverse consequences. They worry
that such a ruling would disentitle them not only from
CARES Act funding, but also from funding under ISDA
and the many other statutes that incorporate its “Indian
tribe” definition. This is far from obvious, for ISDA
makes funding available to any “tribal organization,” upon
request by any “Indian tribe.” 25 U.S.C. § 5321(a)(1).
And it further defines “tribal organization” to include
not only “the recognized governing body of any Indian
tribe,” but also “any legally established organization of
Indians which is controlled, sanctioned, or chartered by
such governing body.” Id. § 5304(l). The parties disagree on whether ANCs, if requested to provide services
by a recognized Native village, may receive ISDA funding
as an “organization of Indians” that was “sanctioned” by
the village to provide the services. We need not resolve that question, and so we leave it open.

25a
The ANCs further claim flexibility to provide coronavirus relief to Alaska Natives who are not enrolled in
any recognized village. Given the urgent need for relief, the ANCs say, we should broadly construe the
CARES Act to direct funding to the entities best able to
provide needed services. The short answer is that we
must of course follow statutory text as against generalized appeals to sound policy. But we also note that
ANCSA expressly preserves “any governmental programs otherwise available to the Native people of
Alaska as citizens of the United States or the State of
Alaska.” 43 U.S.C. § 1626(a). We are confident that,
if there are Alaska Natives uncared for because they are
not enrolled in any recognized village, either the State
of Alaska or the Department of Health and Human Services will be able to fill the void.
V
We hold that Alaska Native Corporations are not eligible for funding under Title V of the CARES Act. We
thus reverse the grant of summary judgment to the government and the intervenors, as well as the denial of
summary judgment to the plaintiff tribes.
So ordered.

26a
KAREN LECRAFT HENDERSON, Circuit Judge, concurring: It is, was and always will be, this court’s duty
“to say what the law is,” Marbury v. Madison, 5 U.S.
(1 Cranch) 137, 177, 2 L.Ed. 60 (1803), but that does not
mean we should be blind to the impact of our decisions.
The COVID-19 pandemic is an unprecedented calamity,
subjecting Americans to physical and economic suffering on a national scale. The virus respects no geographic or political boundaries and invades nearly every
facet of life. And as the virus has swept through our
Nation, it has disproportionately affected American Indian and Alaska Native communities. 1
Although I join my colleagues in full, I write separately to express my view that this decision is an unfortunate and unintended consequence of high-stakes,
time-sensitive legislative drafting. 2 It is indisputable
that the services ANCs provide to Alaska Native
communities—including healthcare, elder care, educational support and housing assistance—have been made
only more vital due to the pandemic. I can think of no
reason that the Congress would exclude ANCs (and thus
Press Release, Centers for Disease Control and Prevention,
CDC data show disproportionate COVID-19 impact in American
Indian/Alaska Native populations (Aug. 19, 2020), https://www.cdc.
gov/media/releases/2020/p0819-covid-19-impact-american-indianalaska-native.html.
2
The CARES Act was drafted and required to be implemented
on an extraordinarily short timeline. Only eight days elapsed between the CARES Act’s introduction in the Senate on March 19
and the President’s signature on March 27. See H.R. 784, 116th
Cong. (2020) (enacted); S. 3548, 116th Cong. (2020). The CARES
Act funds at issue were to be distributed no later than 30 days after
enactment and any undistributed funds are scheduled to lapse on
September 30. 42 U.S.C. § 801(a)(1), (b)(1).
1

27a
exclude many remote and vulnerable Alaska Natives)
from receiving and expending much-needed Title V
funds.
Indian law, however, does not have a simple history
or statutory scheme and “no amount of wishing will give
it a simple future.” Lummi Indian Tribe v. Whatcom
Cty., 5 F.3d 1355, 1360 (9th Cir.) (Beezer, J., dissenting),
as amended on denial of reh’g (Dec. 23, 1993); see also
United States v. Lara, 541 U.S. 193, 219 (2004) (Thomas,
J., concurring) (“Federal Indian policy is, to say the least,
schizophrenic.”). Indian law’s complexity and the pressure to provide swift relief may have proved too much
in this case. ISDA is only one of the many statutes
which define “Indian tribe” in less than clear—and even
conflicting—terms. 3 I believe the Congress must have
had reason to believe its definition would include ANCs
but, by incorporating by reference ISDA’s counter-intuitive definition, it did not, in fact, do so. As a result,
many of our fellow citizens who depend on ANCs will not
receive Title V aid. Nonetheless it is not this court’s
job to “soften . . . Congress’ chosen words whenever [we] believe[] those words lead to a harsh result.”
United States v. Locke, 471 U.S. 84, 95 (1985). And a
harsh result it is.

For example, the Native American Housing Assistance and
Self-Determination Act defines “Indian tribe” as a “federally recognized tribe” and defines “federally recognized tribe” as those
tribes, Alaska Native villages or ANCs “recognized as eligible for
the special programs and services provided by the United States
to Indians because of their status as Indians pursuant to [ISDA].”
25 U.S.C. §4103(13)(B) (emphasis added).
3

28a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Case No. 20-cv-01002 (APM)
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL., PLAINTIFFS
v.
STEVEN MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE TREASURY, DEFENDANT
Case No. 20-cv-01059 (APM)
CHEYENNE RIVER SIOUX TRIBE, ET AL., PLAINTIFFS
v.
STEVEN MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE TREASURY, DEFENDANT
Case No. 20-cv-01070 (APM)
UTE TRIBE OF THE UINTAH AND OURAY
RESERVATION, PLAINTIFF
v.
STEVEN MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE TREASURY, DEFENDANT
Filed:

June 26, 2020

29a
MEMORANDUM OPINION

Under Title V of the Coronavirus Aid, Relief, and
Economic Security Act, or CARES Act, Congress appropriated $8 billion for “Tribal governments” to combat the COVID-19 pandemic. This consolidated case
concerns who qualifies as a “Tribal government” under
the CARES Act. Plaintiffs are a group of federally
recognized tribes from the lower 48 states and Alaska;
they ask this court to permanently enjoin the Secretary
of the Treasury from making Title V payments to Alaska
Native regional and village corporations, or ANCs.
ANCs are not federally recognized tribes; rather, they
are for-profit corporations established by Congress in
1971 under the Alaska Native Claims Settlement Act
and recognized under Alaska law.
The CARES Act defines “Tribal governments” to
mean “the recognized governing body of an Indian Tribe.”
The Act in turn defines “Indian Tribe” by cross-referencing the definition of that term in another statute: the
Indian Self-Determination and Education Assistance
Act. In Plaintiffs’ view, ANCs do not meet the statutory definition of either “Indian Tribe” or “Tribal government.” The Secretary of the Treasury, whom Congress vested with authority to allocate Title V funds, on
the other hand, reads the CARES Act to allow payment
of Title V funds to ANCs. The court previously agreed
with Plaintiffs, at least tentatively, and preliminarily enjoined the Secretary from distributing CARES Act
funds to ANCs. See Confederated Tribes of the Chehalis Reservation v. Mnuchin, Case No. 20-cv-1002
(APM), 2020 WL 1984297 (D.D.C. April 27, 2020) (“Confederated Tribes”). In that decision, the court found

30a
that Plaintiffs would be irreparably harmed absent emergency relief, and that they had established a substantial
likelihood of success on the merits.
The matter is before the court on cross-motions for
summary judgment. Although the court initially determined that Plaintiffs were likely to succeed on the
merits of their claim, after reviewing the parties’ arguments on summary judgment, the court now holds that
ANCs are “Indian Tribes,” and that their boards of directors are “Tribal governments,” for purposes of the
CARES Act. Accordingly, ANCs are eligible to receive Title V funds. As a result, the court dissolves the
preliminary injunction and enters judgment in favor of
Defendants.
I.
A.

Background

The court begins with a brief overview of the relevant
statutes and the history of this case. 1
1. Statutory Background
Congress enacted the Coronavirus Aid, Relief, and
Economic Security Act (“CARES Act”), Pub. L. No.
116-136, 134 Stat. 281 (2020), to respond to the devastating impacts of the COVID-19 pandemic. Title V of the
CARES Act, the title relevant here, appropriates $150
billion for fiscal year 2020 for “payments to States,
Tribal governments, and units of local government.”

For a more detailed factual and procedural background, the
court directs the reader to its Memorandum Opinion granting preliminary injunctive relief. See Confederated Tribes, 2020 WL
1984297.
1

31a
42 U.S.C. § 801(a)(1). Of that sum, $8 billion is “reserve[d] . . . for making payments to Tribal governments.” Id. § 801(a)(2)(B). Congress directed the
Secretary of the Treasury (“Secretary”) to disburse
those monies to “Tribal governments” within 30 day of
the law’s enactment, or by April 26, 2020. § 801(b)(1).
The CARES Act defines “Tribal government” as
“the recognized governing body of an Indian tribe.”
Id. § 801(g)(5). The Act further provides that “[t]he
term ‘Indian Tribe’ has the meaning given that term”
in section 4(e) of the Indian Self-Determination and
Education Assistance Act, 25 U.S.C. § 5304(e)). Id.
§ 801(g)(1). The Indian Self-Determination and Education Assistance Act, or ISDEAA, defines “Indian
tribe” as “any Indian tribe, band, nation, or other organized group or community, including any Alaska Native
village or regional or village corporation as defined in
or established pursuant to the Alaska Native Claims
Settlement Act (85 Stat. 688) [43 U.S.C. § 1601 et seq.
(“ANCSA”)], which is recognized as eligible for the special programs and services provided by the United
States to Indians because of their status as Indians.”
25 U.S.C. § 5304(e). The court refers to “Alaska Native
. . . regional or village corporation[s]” in this opinion
as ANCs.
Congress enacted ISDEAA in 1975 “to help Indian
tribes assume responsibility for aid programs that benefit their members.” Menominee Indian Tribes of
Wis. v. United States, 136 S. Ct. 750, 753 (2016). Under
ISDEAA, federally recognized Indian tribes, tribal organizations, and tribal consortiums can choose to have
the Bureau of Indian Affairs (BIA) provide direct services, or they can operate the programs themselves by

32a
entering into “self-determination contracts” with these
federal agencies to provide services that otherwise
would have been provided by the federal government,
such as education, law enforcement, and health care.
25 U.S.C. § 5321(a)(1); see also Menominee Indian
Tribes of Wis., 136 S. Ct. at 753. A contracting tribal
organization is eligible to receive the amount of money
that the federal government would have otherwise spent
on the program, see 25 U.S.C. § 5325(a)(1), as well as reimbursement for reasonable “contract support costs,”
which include administrative and overhead costs associated with carrying out the contracted programs, id.
§ 5325(a)(2), (3)(A). ISDEAA was amended in 1988,
1994, and 2000, and now includes health care programs
administered by the Indian Health Service. See Pub.
L. 100-472 (Oct. 5, 1988); Pub. L. 103-413 (Oct. 25, 1994);
Pub. L. 106-260 (Aug. 18, 2000).
2. Factual and Procedural Background
Congress instructed the Secretary to distribute Title
V funding quickly—within 30 days of the law’s enactment. So, on April 13, 2020, shortly after the CARES
Act became law, the Secretary published on the Treasury Department’s website a form titled “Certification
for Requested Tribal Data,” which sought certain data
to effectuate disbursement of CARES Act funds. See
Confederated Tribes of the Chehalis Pls.’ Mot. for TRO
& Prelim. Inj., ECF No. 3, Decl. of Riyaz Kanji, Ex. 2,
ECF No. 3-8 [hereinafter Certification], at 15-16. The
Certification identified metrics specific to ANCs.
ANCs are not federally recognized Indian tribes but are
for-profit corporations established by Congress under
the Alaska Native Claims Settlement Act. See 43
U.S.C. §§ 1606, 1607. The metrics specific to ANCs

33a
identified by the Secretary included “shareholders” as
of January 1, 2020, and total land base, which expressly
included lands “selected pursuant to the Alaska Native
Claims Settlement Act.” Certification.
The Certification’s posting prompted three groups of
Tribes to bring suit against the Secretary under the Administrative Procedure Act (“APA”), challenging the
Secretary’s anticipated treatment of ANCs as eligible
for Title V funding. Id. On April 17, 2020, the Confederated Tribes of the Chehalis Reservation, the Tulalip
Tribes, the Houlton Band of Maliseet Indians, the Akiak
Native Community, the Asa’carsarmiut Tribe, and the
Aleut Community of St. Paul Island (collectively, “Confederated Tribes Plaintiffs”) filed an action against the
Secretary. Confederated Tribes Compl., ECF No. 1. 2
Shortly afterward, Plaintiffs Cheyenne River Sioux
Tribe, Oglala Sioux Tribe, and Rosebud Sioux Tribe
filed their suit, see Cheyenne River Sioux Compl., ECF
No. 1, and Plaintiff Ute Indian Tribe of the Uintah and
Ouray Reservation filed a third lawsuit the next day, see
Ute Compl., ECF No. 1. The court consolidated all
three cases. See Docket 20-cv-1070, Minute Order,
April 24, 2020; Docket 20-cv-1059, Minute Order, April
23, 2020.
On April 23, 2020, the Treasury Department formally
announced its position that it intended to distribute Title

The Confederated Tribes Plaintiffs filed an amended complaint,
which added the Navajo Nation; Quinault Indian Tribe; Pueblo of
Picuris; Elk Valley Rancheria, California; and San Carlos Apache
Tribe as plaintiffs. See Am. Confederated Tribes Compl., ECF
No. 7. Plaintiffs again brought the same single count for violations of the APA. Id. ¶¶ 117-23.
2

34a
V funds to ANCs: “After consultation with the Department of the Interior, Treasury has concluded that Alaska
Native regional and village corporations as defined in or
established pursuant to the Alaska Native Claims Settlement Act are eligible to receive payments from the
Fund in the amounts to be determined by the Secretary
of the Treasury.” U.S. TREASURY DEP’T, Coronavirus
Relief Fund Payments to Tribal Governments (April 23,
2020) (footnote omitted). 3
All Plaintiffs moved for preliminary injunctive relief,
which this court granted on April 27, 2020. See Confederated Tribes, 2020 WL 1984297. In granting that relief, the court rejected the Secretary’s threshold contention that the Treasury Department’s legal determination that ANCs are eligible for Title V funds is a presumptively unreviewable discretionary action under the
APA. See id. at *5-6. The court concluded that,
“while the Secretary’s decisions as to how much to disburse might not be reviewable, his decisions to whom to
disburse those funds most certainly is.” Id. at *5 (footnote omitted). As for the injunction factors, the court
evaluated them on a sliding scale and found that they
weighed in favor of granting relief. See id. at *7-15.
In particular, on the merits of the APA claim, the court

Available at https://home.treasury.gov/system/files/136/
Coronavirus-Relief-Fund-Payments-to-Tribal-Governments.pdf.
The Confederated Tribes and the Cheyenne River Sioux Plaintiffs
both amended their complaints a second time following summary
judgment briefing to include an additional allegation regarding the
Secretary’s April 23, 2020 statement, which was not issued until after the date of the Confederated Tribes Plaintiffs’ first amended
complaint. See Confederated Tribes Second Am. Compl., ECF No.
93; Cheyenne River Sioux Second Am. Compl., ECF No. 96.
3

35a
preliminarily agreed with Plaintiffs that no ANC satisfied the CARES Act’s definition of “Tribal government”
and therefore no ANC was eligible for Title V funds.
Id. at *10. The court declined, however, to grant the
full relief that Plaintiffs sought. Instead of compelling
the Secretary to distribute all $8 billion in Title V funds
only to federally recognized Indian tribes, the court entered a “more limited remedy,” id. at *16, which enjoined the Secretary from disbursing Title V funds to
any ANC pending entry of a final judgment in the case,
see Order, ECF No. 37.
On May 5, 2020, the Treasury Department began distributing 60 percent, or $4.8 billion, of the $8 billion in
Title V funds designated for Tribal governments. The
Secretary allocated that sum based not on any information collected through the Certification, but rather on
pre-existing tribal population data maintained by the
U.S. Department of Housing and Urban Development
(“HUD”). See U.S. DEP’T OF TREASURY, Coronavirus
Relief Fund Allocations to Tribal Governments (May 5,
2020), at 2. 4 Based on the HUD data, the Secretary determined that ANCs would receive $162.3 million in Title V funds but withheld that amount to comply with the
preliminary injunction. See Agua Caliente Band of
Cahuilla Indians v. Mnuchin, No. 20-cv-01136 (APM)
[hereinafter Agua Caliente Band], 5/8/2020 Hr’g Tr.,
ECF No. 30, at 18.
The Secretary began disbursing the balance of the
Title V funds on June 17, 2020. See Notice, Agua Caliente Band, ECF No. 43 [hereinafter Notice]. This
Available at https://home.treasury.gov/system/files/136/
Coronavirus-Relief-Fund-Tribal-Allocation-Methodology.pdf.
4

36a
second tranche of emergency relief was distributed
based on employment and expenditure data submitted
by Tribal governments, including ANCs. See Def.’s
Status Report, Agua Caliente Band, ECF No. 39. The
Secretary once again allocated Title V funds to ANCs
but withheld making payments per the court’s order, see
Notice, and he has not publicly announced the exact
amount withheld for ANCs in this second tranche of
funding.
Meanwhile, a number of ANCs and ANC associations
filed motions to intervene as defendants in this case, 5
which the court granted. See Minute Order, May 13,
2020; Order, ECF No. 70. Summary judgment briefing concluded on June 9, 2020, and the court heard argument on the parties’ cross-motions on June 12, 2020.
See Minute Entry, June 12, 2020.
II.

Under Federal Rule of Civil Procedure 56, summary
judgment is appropriate when the moving party demonstrates that “there is no genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). However, in cases
such as this one involving review of a final agency action,
the standard set forth in Rule 56 does not apply. See
AFL-CIO v. Chao, 496 F. Supp. 2d 76, 81 (D.D.C. 2007).
The court’s role in an APA action “is to determine
whether or not as a matter of law the evidence in the
See Mot. of Ahtna, Inc. to Intervene as Defendant & Incorporated Mem. of Law, ECF No. 43; Mot. of Alaska Native Village Corp.
Ass’n, Inc. & Ass’n of ANCSA Regional Corp. Presidents/CEO’s,
Inc. to Intervene and Mem. of P. & A., ECF No. 45; Mot. to Intervene as Defendants & Supp. Mem. of Law, ECF No. 46.
5

37a
administrative record permitted the agency to make the
decision it did.” Charter Operators of Ala. v. Blank,
844 F. Supp. 2d 122, 127 (D.D.C. 2012) (quoting Occidental Eng’g Co. v. INS, 753 F.2d 766, 769-70 (9th Cir.
1985)). Summary judgment “serves as a mechanism
for deciding, as a matter of law, whether the agency action is supported by the administrative record and is
otherwise consistent with the APA standard of review.”
Id.
III.

The Secretary renews the jurisdictional argument
that the court rejected at the preliminary injunction
stage, which is that “Congress did not intend for emergency relief payments to be subject to judicial review.”
Def.’s Mot for Summ. J., ECF No. 79, Def.’s Mem of
Law in Supp. of its Mot. for Summ. J., ECF No. 79-1
[hereinafter Def.’s Mot.], at 11. The Secretary points
to two features of the CARES Act that he contends
evince such congressional intent. First, he points to the
short statutory, 30-day timeline to distribute funds. Id.
at 11-12. Second, he argues that the statutory scheme,
which does not require Treasury to publish to “whom it
will be paying, its methodology or the payment amounts”
prior to disbursing the funds, makes clear Congress’s
intent that the Secretary’s decisions be insulated from
review. Id. at 12. These arguments are refinements
of the Secretary’s prior assertion of judicial non-reviewability, but they fare no better.
There is a “strong presumption that Congress intends judicial review of administrative action.” Council for Urological Interests v. Sebelius, 668 F.3d 704, 708
(D.C. Cir. 2011) (quoting Bowen v. Mich. Acad. of Fam-

38a
ily Physicians, 476 U.S. 667, 670 (1986)). That presumption can be overcome if “congressional intent to
preclude judicial review is fairly discernible from the
statutory scheme.” Block v. Cmty. Nutrition Inst., 467
U.S. 340, 390 (1984). But such a showing entails a “heavy
burden,” which must be carried by “clear and convincing
evidence.” Dunlop v. Bachowski, 421 U.S. 560, 567
(1975) (citation omitted), overruled on other grounds by
Furniture & Piano Moving, Furniture Store Drivers,
Helpers, Warehousemen & Packers v. Crowley, 467 U.S.
526 (1984).
A tight statutory deadline by itself is not sufficient to
overcome the strong presumption in favor of judicial review. See id. at 562 n.2 & 567 (holding that a decision
by the Secretary of Labor subject to a 60-day deadline
is reviewable); In re FTC Corp. Patterns Report Litig.,
432 F. Supp. 274, 289-90 (D.D.C. 1977) (rejecting argument that 45-day timeline for agency action evinced
Congress’[s] intent to preclude judicial review, and reasoning that “[a]t best, a court could indirectly imply
from Congress’s obvious desire to prevent undue delays
an intent to protect the [Secretary’s] actions from judicial scrutiny. This tenuous link, however, does not constitute clear and convincing evidence of Congressional
intent to preclude judicial review.”). The cases Defendant cites to the contrary are easily distinguishable.
In Morris v. Gressette, 432 U.S. 491 (1977), for example,
the Court pointed to numerous features of the statute,
including “the potential severity of the . . . remedy,
the statutory language, and the legislative history,”
from which “nonreviewability [could] fairly be inferred.”
Id. at 501, 504 (citation omitted). No such additional
indicia are present here. Dalton v. Specter also is inapposite. There, four concurring Justices found that a

39a
series of “tight and rigid deadlines” prescribed in a statutory scheme for military base closings was an indication that Congress did not intend for judicial review of
an individual closing determination. 511 U.S. 462, 479
(1994) (Souter, J., concurring, joined by Blackmun, Stevens, Ginsburg, JJ.). But there was also more at play
in Dalton: the Justices observed that “the Act’s text
and intricate structure . . . plainly express congressional intent that action on a base-closing package be
quick and final, or no action be taken at all.” Id. That
included not only a series of “unbending” time deadlines,
but also the speed with which the base closures were to
occur if approved and the disbanding of the base-closing
Commission at the end of each decision round, and its
eventual automatic termination. See id. at 480-81.
Here, in sharp contrast, Congress did not tie the 30-day
distribution period to any other deadline for congressional or agency action; and there is no impending automatic expiration of authority to distribute the funds. 6
Nor can it be said that the deadline is “unbending,” as
the Secretary—independent of any litigation—did not
begin distributing the second tranche of funds until
June 12, 2020, 47 days past the 30-day deadline, see
Def.’s Status Report, Agua Caliente Band, ECF No. 39;
42 U.S.C. § 801(b)(1). A stand-alone deadline, even one
of a mere 30 days, cannot without more overcome the
strong presumption in favor of agency review.

At most, Title V mandates payment of funds for “fiscal year 2020,”
which expires September 30, 2020. 42 U.S.C. § 801(b). That leaves
sufficient time to litigate this matter to its conclusion, including possible expedited appellate review.
6

40a
Nor does the fact that Congress did not require the
Secretary to identify aid recipients before making payments indicate an intent to foreclose judicial review.
The Secretary points to no evidence that Congress even
considered such a pre-publication requirement, let alone
consciously elected not to adopt one. The court cannot
draw any inference of non-reviewability from Congress’s failure to enact a provision that it did not even
consider. The presumption of reviewability therefore
applies, and the Secretary has failed to defeat it.
IV.

The court turns now to the merits. Recall, the CARES
Act grants $8 billion in emergency aid to “Tribal governments,” which the Act defines as “the recognized governing body of an Indian Tribe.” 42 U.S.C. § 801(g)(5).
“Indian Tribe,” in turn, “has the meaning given that
term” under ISDEAA. Id. § 801(g)(1). ISDEAA defines “Indian tribe” as:
[A]ny Indian tribe, band, nation, or other organized
group or community, including any Alaska Native village or regional or village corporation as defined in
or established pursuant to the Alaska Native Claims
Settlement Act (85 Stat. 688), which is recognized as
eligible for the special programs and services provided by the United States to Indians because of their
status as Indians.
25 U.S.C. § 5304(e). Plaintiffs argue that ANCs do not
qualify for Title V funds for two reasons: (1) ANCs do
not meet ISDEAA’s definition of “Indian Tribe,” and (2)
ANCs are not a “recognized governing body” of an Indian tribe, nor do they have such a body. Though these

41a
arguments seem straightforward at first blush, the parties have staked out varied approaches in addressing
them.
Whether ANCs are “Indian Tribes” under ISDEAA
turns on how one reads the dependent clause that appears at the end of the ISDEAA definition—“which is
recognized as eligible for the special programs and services provided by the United States to Indians because
of their status as Indians.” The court refers to this
as the “eligibility clause.” According to the Confederated Tribes Plaintiffs, the eligibility clause applies to
each listed entity that comes before it, including most
critically “Alaska Native . . . regional or village
corporations” —ANCs. See Confederated Tribes Mot.
for Summ. J. and Mem. of P. & A., ECF No. 77 [hereinafter Confederated Tribes Mot.], at 13 (citing 25 U.S.C.
§ 5304(e)). Because no ANC presently satisfies the eligibility clause, those Plaintiffs say, none qualifies for
CARES Act funds. Id. at 13-14.
The Confederated Tribes Plaintiffs, however, are the
only Plaintiffs that press this interpretation. The Cheyenne River Sioux and Ute Plaintiffs (collectively, “Cheyenne River Sioux Plaintiffs”) acknowledge that “ANCs
can be treated as ‘Indian tribe[s]’ for limited purposes”
under ISDEAA.
See Pls. Cheyenne River Sioux
Tribe’s, Rosebud Sioux Tribe’s, Oglala Sioux Tribe’s,
Nondalton Tribal Council’s Arctic Village Council’s Native Village of Venetie Tribal Government’s, Navajo Nation’s, & Ute Indian of the Uintah & Ouray Indian Reservation’s Mem. in Supp. of Jt. Mot. for Summ. J., ECF
No. 76-2 [hereinafter Cheyenne River Sioux Mot.], at 4.
Thus, there is a split among Plaintiffs as to whether

42a
ANCs qualify as “Indian Tribes” for purposes of the
CARES Act.
Ironically, the Secretary agrees with the Confederated Tribe Plaintiffs that ANCs do not satisfy, and never
have satisfied, the eligibility clause; and yet he contends
that ANCs qualify for CARES Act funding as “Indian
Tribes” under ISDEAA. Def.’s Mot. at 1. The Secretary asserts that the ISDEAA definition must be read
to, in effect, exempt ANCs from satisfying the eligibility
clause. That interpretation, the Secretary claims, is
faithful to congressional design, because the Confederated Tribes’ alternative reading, if accepted, would render the listing of ANCs in the ISDEAA definition surplusage and defeat Congress’s intent to make ANCs eligible for ISDEAA self-determination contracts. The
ANC-Intervenors, by contrast, take a “heads-I-win,
tails-I-win” approach to reading the ISDEAA definition.
They say that ANCs do satisfy the ordinary meaning of
the eligibility clause, because they are “eligible for the
special programs and services provided by the United
States to Indians because of their status as Indians.”
Mem. of P. & A. in Supp. of Intervenor-Defs.’ Mot. for
Summ. J., ECF No. 78-1 [hereinafter Intervenors’
Mot.], at 47; Intervenor-Defs.’ Resp. in Opp’n to Pls.’
Cross-Mots. for Summ. J., ECF No. 86 [hereinafter Intervenors’ Opp’n], at 5. The Secretary expressly rejects this reading, contending that the eligibility clause
conveys the principle of federal recognition of Indian
tribes, which ANCs as corporations cannot satisfy (the
Confederated Tribe Plaintiffs agree). See Def.’s Combined Opp’n & Reply in Supp. of Mot. for Summ. J., ECF
No. 88 [hereinafter Def.’s Opp’n], at 4 n.3; Confederated
Tribes Mot. at 14; Confederated Tribes Pls.’ Reply in
Supp. of its Mot. for Summ. J. & Resp. in Opp’n to Defs.’

43a
Mots. for Summ. J., ECF No. 87 [hereinafter Confederated Tribes Opp’n], at 7-8. No matter, say the ANCIntervenors. If their primary reading is incorrect, they
then embrace the Secretary’s reading, which exempts
ANCs from the eligibility clause. See 6/12/2020 Hr’g
Tr., ECF No. 94, at 88-89. Either way, according to the
ANC-Intervenors, they qualify as “Indian Tribes” under ISDEAA and therefore are eligible for Title V funds.
Id.
There is greater alignment among the parties on the
second question: whether an ANC qualifies as a “Tribal
government” for the purposes of the CARES Act. The
Cheyenne River Sioux Plaintiffs urge the court not to
get bogged down in the morass of whether ANCs qualify
as “Indian Tribes” because, in their view, “ANCs are not
Tribal governments under any measure.” Cheyenne
River Sioux Mot. at 2. The Confederated Tribes Plaintiffs agree, though this is their secondary position.
Confederated Tribes Mot. at 12-13. The Secretary and
the ANC-Intervenors see eye-to-eye on this question,
too. They agree that an ANC’s board of directors qualifies as a “recognized governing body of an Indian tribe”
for purposes of the CARES Act. Def.’s Mot. at 34; Intervenors’ Mot. at 38-39. Their argument, as will be
seen below, relies on a similar definitional phrase contained in ISDEAA, “tribal organization,” that appears
nearly verbatim as the CARES Act’s definition of “Tribal
government,” compare 25 U.S.C. § 5304(l) (defining “tribal
organization” to mean in part “the recognized governing
body of any Indian tribe”) with 42 U.S.C. § 801(g)(5) (defining “Tribal government” to mean “the recognized
governing body of an Indian Tribe”), which they assert
encompasses an ANC’s board of directors for ISDEAA

44a
contracting purposes.
venors’ Mot. at 38-39.

Def.’s Mot. at 30-31, 33; Inter-

As the above summation shows, this case does not
present easy, straightforward questions of statutory interpretation. The court has wrestled with them. Each
side has marshaled an impressive array of textual, historical, and practical evidence, all of which must be
viewed against the unique treatment of Native Alaskans
by Congress and Executive Branch agencies. Though
the court ruled at the preliminary injunction stage that
ANCs likely did not qualify for CARES Act funds, as
explained below, the court now concludes otherwise:
ANCs qualify as “Indian Tribes,” and their boards of directors are “recognized governing bod[ies],” for purposes of the CARES Act. Accordingly, the court holds
that ANCs are eligible for Title V funding.
A.

“Indian Tribe” under ISDEAA

The parties agree that, as a matter of pure grammar,
the eligibility clause contained in the definition of “Indian Tribe” in ISDEAA and the CARES Act applies to
ANCs. See Hr’g Tr. at 54-55; Intervenors’ Opp’n at 45; Confederated Tribes Mot. at 13-14. The eligibility
clause plainly modifies each of the nouns that precedes
it, including ANCs. The parties diverge, however, on
whether that grammatical structure both begins and
ends the statutory interpretation debate.
Each side comes armed with its own preferred canon
of statutory construction. The Confederated Tribes
Plaintiffs contend that the series-qualifier canon of statutory interpretation settles this case. See Confederated Tribes Mot. at 13-14. Under that canon, “ ‘[w]hen

45a
there is a straightforward, parallel construction that involves all nouns or verbs in a series,’ a modifier at the
end of the list ‘normally applies to the entire series,’ ”
Lockhart v. United States, 136 S. Ct. 958, 970 (2016) (Kagan, J., dissenting) (quoting ANTONIN SCALIA & BRYAN
A. GARNER, READING LAW: THE INTERPRETATION OF
LEGAL TEXTS 147 (2012) (SCALIA & GARNER)). Relatedly, under the last antecedent rule, “a limiting clause
or phrase . . . should ordinarily be read as modifying only the noun or phrase that it immediately follows.”
Barnhart v. Thomas, 540 U.S. 20, 26 (2003). Applying
either of these canons dictates that “any Alaska Native
village or regional or village corporation” qualifies as an
“Indian tribe” only if it is “recognized as eligible for the
special programs and services provided by the United
States to Indians because of their status as Indians,” 25
U.S.C. § 5304(e); see also Confederated Tribes Mot. at
13 n.8. Because no ANC is so recognized as eligible for
the special programs and services provided by the
United States, the argument goes, no ANC is an “Indian
tribe” under ISDEAA.
The Secretary, on the other hand, urges the court to
look beyond the statute’s grammatical structure. He
argues that a blind application of the series-qualifier
canon would violate the “ ‘cardinal principle’ of statutory
interpretation”—that is, “to adopt a reading that gives
effect to every term in the statute.” Def.’s Opp’n at 7
(quoting Parker Drilling Mgmt. Servs., Ltd. v. Newton,
139 S. Ct. 1881, 1890 (2019)). Here, according to the
Secretary, Congress expressly inserted ANCs into the
statutory text, despite knowing that ANCs could not
satisfy the eligibility clause because of their status as
for-profit corporations. Subjecting ANCs to the eligi-

46a
bility clause therefore would negate their addition, rendering the inclusion of “Alaska Native [ ] regional or village corporation” surplusage.
Although a close question, the court is now convinced
that, in 2020 when Congress passed the CARES Act, it
could not have intended the eligibility clause to apply
ANCs. Several considerations lead the court to this result. First, while the Confederated Tribes Plaintiffs
emphasize the importance of the series-qualifier canon,
the court’s proper role is not to apply a single canon of
statutory construction—“canons of construction are no
more than rules of thumb that help courts determine the
meaning of legislation,” Conn. Nat’l Bank v. Germain,
503 U.S. 249, 253 (1992). The court must interpret the
statute as whole to give effect to congressional intent.
Parker Drilling, 139 S. Ct. at 1890. Consequently, the
court cannot simply disregard the inclusion of ANCs in
the definition that Congress chose for purposes of the
CARES Act. Second, the court’s interpretation is consistent with ISDEAA’s legislative history, which reveals
that Congress took pains to include ANCs in the ISDEAA definition. Third, to the extent the competing
canons of construction give rise to ambiguity, Skidmore
deference to the BIA’s interpretation of ISDEAA is
warranted, given the reasonableness of the agency’s approach and its longstanding adherence to it. The court
discusses each of these reasons below. Because the court
reads the eligibility clause as inapplicable to ANCs, the
court does not address the ANC’s alternative argument
that they satisfy the ordinary meaning of the eligibility
clause.

47a
1.

Applying the series-qualifier canon in this case does
not resolve the statutory interpretation debate. “[A]s
with any canon of statutory interpretation,” the seriesqualifier canon “ ‘is not an absolute and can assuredly be
overcome by other indicia of meaning.’ ” Lockhart, 136
S. Ct. at 963, 965 (quoting Barnhart, 540 U.S. at 26).
Indeed, as the Tenth Circuit has observed, the seriesqualifier canon, “perhaps more than most canons, is subject to defeasance by other canons—that is, it is perhaps
more prone than most to have its effect nullified by
other canons.” Jordan v. Maxim Healthcare Servs.,
Inc., 950 F.3d 724, 745 (10th Cir. 2020) (cleaned up); see
also SCALIA & GARNER at 150 (“Perhaps more than
most of the other canons, [the series-qualifier canon] is
highly sensitive to context.”).
Such is the case here, where the series-qualifier
canon runs headlong into another canon of interpretation: the rule against superfluity. It is “the ‘cardinal
principle’ of interpretation that courts ‘must give effect,
if possible, to every clause and word of a statute.’ ”
Parker Drilling, 139 S. Ct. at 1890 (quoting Loughrin v.
United States, 573 U.S. 351, 358 (2014)). As a result,
courts are “reluctant to treat statutory terms as surplusage in any setting.” Duncan v. Walker, 533 U.S.
167, 174 (2001) (cleaned up). Such reluctance is particularly apt here, where adopting Plaintiffs’ construction
would render Congress’s purposeful inclusion of ANCs
in the ISDEAA definition “wholly superfluous.” Id. at
174. ANCs would become “wholly superfluous” under
the Confederated Tribes’ preferred reading, because all
agree (except the ANCs themselves) that ANCs never

48a
have, and almost certainly never will, satisfy the eligibility clause. ANCs cannot be recognized “as eligible for
the special programs and services provided by the United
States to Indians because of their status as Indians.”
25 U.S.C. § 5304(e) (emphasis added). ANCs, after all,
are for-profit corporations established by Congress and
recognized under Alaska law, and thus do not enjoy “status as Indians.” Indeed, under the Alaska Native Claims
Settlement Act, the statute that established ANCs by
extinguishing all aboriginal claims to Alaska land, the
transfer of land to the new, state-chartered private business corporations “was without any restraints on alienation or significant use restrictions” precisely because
Congress intended to avoid “ ‘any permanent racially defined institutions, rights, privileges, or obligations.’ ”
Alaska v. Native Vill. of Venetie Tribal Gov’t, 522 U.S.
520, 532-33 (1998) (quoting 43 U.S.C. § 1601(b)). Thus,
while the first ANC shareholders were required to be
Alaska Natives, the corporations could immediately convey former reservation lands and ANC stock to non-Natives. Id. at 533; 43 U.S.C. § 1606(h). It cannot be
said, then, that ANCs enjoy “status as Indians.”
Moreover, both the Secretary and the Confederated
Tribes read the eligibility clause as conveying the principle of federal recognition, which confers upon tribes a
distinct political and legal status in relation to the
United States. See 6/12/2020 Hr’g Tr. at 60; Confederated Tribes Mot. at 14-15. The Confederated Tribes
contend that ISDEAA’s eligibility clause must be read
in pari materia with the nearly identical language in the
Federally Recognized Indian Tribe List Act of 1994,
Pub. L. No. 103-454, 108 Stat. 4791, or List Act, which
directs the Secretary of Interior to publish a “list of all
Indian tribes that the Secretary recognizes to be eligible

49a
for the special programs and services provided by the
United States to Indians because of their status as Indians” (quoting 25 U.S.C. § 5131(a))). No ANC has ever
been federally recognized by the United States as an Indian tribe under the List Act because no ANC is “recognize[d] to be eligible for the special programs and services provided by the United States to Indians because
of [its] status as Indians.” The court agrees that the
nearly identically worded eligibility clauses in both statutes are terms of art that convey the principle of federal
recognition, and thus reading the eligibility clause to apply to ANCs would render as surplusage their listing in
the ISDEAA definition of “Indian tribe.”
The Confederated Tribes Plaintiffs attempt to sidestep this superfluity problem by asserting there is no
such problem to begin with. They contend that the disjunctive nature of the clause in which ANCs appear—
which they refer to as the “Alaska clause”—“means that
the clause has effect as long as ‘any Alaska Native village or regional or village corporation’ satisfies the
terms of the eligibility clause, and according to the Secretary of the Interior’s own listing there are 229 Native
villages[ 7] that do.” Confederated Tribes Opp’n at 8.
The court expressed a similar logic in its preliminary injunction opinion, writing that “[t]he possibility that
ANCs might not qualify under the eligibility clause is
hardly fatal to carrying out Congress’s purpose under
Alaska Native villages are not corporations. They are sovereign, political entities exercising governmental authority, much like
“ ‘Indian tribes,’ as that term is commonly used to refer to Indian
entities in the contiguous 48 states.” See Indian Entities Recognized and Eligible to Receive Services from the United States Bureau of Indian Affairs, 58 Fed. Reg. 54,364, 54,365 1993 WL 420646
(October 21, 1993).
7

50a
ISDEAA . . . [because] [Alaska Native villages] are
also in the statute [and] [t]hey can and do satisfy the eligibility clause.”
Confederated Tribes, 2020 WL
1984297 at *11. The court is no longer convinced of this
rationale. ISDEAA says that “ ‘Indian tribe’ means
any . . . organized group or community, including
any Alaska Native [1] village or [2] regional [corporation] or [3] village corporation as defined in or established pursuant to [ANCSA].” 25 U.S.C. § 5304(e) (emphasis added). Congress thus intended for any of the
nouns in the Alaska clause to satisfy the definition, and
subjecting any of those nouns to a requirement that it
cannot meet—as Plaintiffs seek to do—would still turn
that noun into surplusage. The series-qualifier canon
therefore must give way in this case to the rule against
superfluity. 8
Plaintiffs’ cited authorities are not to the contrary.
Plaintiffs rely on Chickasaw Nation v. United States,
534 U.S. 84 (2001), and King v. Burwell, 135 S. Ct. 2480
(2015), for the proposition that “the canon against surplusage should [not] be elevated to Holy Grail status and
operate to subvert the plain meaning of the statutory
text.” Confederated Tribes Opp’n at 10. But these
cases are readily distinguishable. Chickasaw Nation
concerned a provision of the Indian Gaming Regulatory
Act that, like ISDEAA, featured an “including” clause
(akin to the Alaska clause) followed by a limiting clause
The Confederated Tribes Plaintiffs also suggest that applying the
eligibility clause to ANCs does not render them superfluous under
ISDEAA, because in 1975, when Congress passed the statute, it was
an open question whether ANCs could satisfy the eligibility clause.
Confederated Tribes Mot. at 31. The court addresses this argument in the following section.
8

51a
(akin to the eligibility clause). 534 U.S. at 86-87. The
Court there rejected the plaintiffs’ reliance on the canon
against surplusage and instead found that the limiting
clause applied to the words before it—to find otherwise
would “seriously rewrit[e] the language of the rest of the
statute.” Id. at 89. But critical to that conclusion was
the Court’s reasoning that the troublesome language in
the statute—a cross-reference to another chapter of the
Internal Revenue Code—was “simply a drafting mistake, a failure to delete an inappropriate cross-reference
in the bill that Congress later enacted into law.” Id. at
91.
The Court struck a similar chord in King v. Burwell.
That case involved the Affordable Care Act, which the
Court observed “contains more than a few examples of
inartful drafting” and, by virtue of how the legislation
was enacted, “does not reflect the type of care and deliberation that one might expect of such significant legislation.” 135 S. Ct. at 2492. In light of these shortcomings, the Court found “specifically with respect to
this Act, rigorous application of the [surplusage] canon
does not seem a particularly useful guide to a fair construction of the statute.” Id.
The reasons for discounting the surplusage canon
that were present in Chicksaw Nation and King v. Burwell simply are not present here. There is nothing
to suggest that Congress’s inclusion of ANCs in the
ISDEAA definition of “Indian tribe” was a drafting error; nor is there any reason to question the Legislative
Branch’s diligence in drafting the definition. To the
contrary, as discussed4 further below, the definition’s
legislative history reflects a conscious decision on the
part of Congress to make ANCs eligible to contract with

52a
the United States to deliver public services to Alaska
Native populations. Thus, while the “preference for
avoiding surplusage constructions is not absolute,”
Lamie v. United States Trustee, 540 U.S. 526, 536
(2004), there is no good reason to abandon it here.
Admittedly, reading the ISDEAA definition as the
Secretary posits gives rise to an odd grammatical result.
No one disputes that an “Alaska Native village”—the
first entity listed in the Alaska clause—must satisfy the
eligibility clause to qualify as an “Indian tribe” under
ISDEAA. See Confederated Tribes, 2020 WL 1984297
at *11. An Alaska Native village that is not “recognized as eligible for the special programs and services
provided by the United States to Indians because of
their status as Indians” cannot contract with a federal
agency under ISDEAA. That reading, however, creates the strange result that the eligibility clause modifies the first in the series of three nouns that comprises
the Alaska clause, but not the last two. That is an unnatural reading, to be sure. The court’s primary goal,
however, is to discern the “intent embodied in the statute Congress wrote.” Chicksaw Nation, 534 U.S. at 94.
Treating ANCs as not subject to the eligibility clause
achieves that purpose. Congress expressly included
ANCs in the definition of “Indian tribe” under ISDEAA
to make them eligible to enter into self-determination
contracts with federal agencies.
By incorporating
wholesale ISDEAA’s definition of “Indian Tribes” into
the CARES Act, Congress declared ANCs to be eligible
for Title V emergency relief funds.

53a
2.

ISDEAA’s drafting history lends support to this conclusion. Neither the Senate’s nor the House of Representative’s initial versions of the ISDEAA definition of
“Indian tribe” included ANCs, though each included the
eligibility clause. See H.R. 6372, § 450b(b), 93rd Cong.,
1st Sess. (1973); S. 1017, 93d Cong., 2d Sess. (1974), 120
Cong. Rec. 2813-19; see also Cook Inlet Native Ass’n v.
Bowen, 810 F.2d 1471, 1474-75 (9th Cir. 1987) (discussing ISDEAA’s legislative history). The House Committee on Interior and Insular Affairs, to whom the Senate bill was referred, “amended the definition of ‘Indian
tribe’ to include regional and village corporations established by the Alaska Native Claims Settlement Act.”
H.R. Rep. 93-1600; 120 Cong. Rec. 40252 (Dec. 16, 1974).
The amended definition that became law, and remains
the same today, thus reads, “including any Alaska Native village or regional or village corporation as defined
in or established pursuant to the Alaska Native Claims
Settlement Act.” See Pub. L. 93-638 § 4(b), 88 Stat.
2203, 2204 (1975) (codified at 25 U.S.C. § 5304(e)).
Importantly, not only did the amended definition expressly include ANCs, the latter portion of the clause—
“established pursuant to [ANCSA]”—applies only to
ANCs. As the Secretary points out, while “native villages” are defined in ANCSA, only Alaska regional and
village corporations are “established” by it. See Def.’s
Opp’n at 5 & n.5 (citing H.R. Rep. 93-1600; 120 Cong.
Rec. 40252 (Dec. 16, 1974)). That Congress went out of
its way to add ANCs to the statutory definition of “Indian tribe” is compelling evidence that Congress intended ANCs to meet that definition. It would be an
odd result indeed for Congress to include ANCs in one

54a
breath only to negate their inclusion in the very next
breath through the eligibility clause.
The Confederated Tribes Plaintiffs endeavor to explain this ostensible statutory contradiction by positing
that Congress “left the door open” for ANCs to satisfy
the eligibility clause in ISDEAA, and only “over time”
has the Secretary of the Interior declared that ANCs
are not eligible for the special programs and services
provided by the United States to Indians because of
their status as Indians. Confederated Tribes Mot. at 31.
In support, Plaintiffs point to two comments submitted
in 1977—two years after Congress passed ISDEAA—to
proposed BIA regulations regarding the development of
uniform procedures for the recognition of Indian tribes.
Confederated Tribes Opp’n at 20-21. These comments,
submitted by two Alaska Native corporations, suggest
some uncertainty as to whether ANCs could satisfy the
eligibility clause. See id. But these isolated comments, from private enterprises, have little to no probative value in determining whether Congress in fact “left
the door open” for ANCs to satisfy the eligibility clause
when it passed ISDEAA. There is simply no legislative history before the court to support the notion that
Congress in 1975 believed ANCs could ever meet the eligibility clause.
Moreover, whether ANC eligibility remained an unsettled question in 1975 is ultimately a distraction. The
issue before the court is whether Congress meant for
ANCs to be eligible for CARES Act relief in 2020. The
Confederated Tribes Plaintiffs concede that by 1978,
when the BIA proposed revised regulations regarding
the recognition of Indian tribes that expressly excluded
ANCs, “the door was closed on [the] possibility” that

55a
ANCs could meet the eligibility clause. Confederated
Tribes Opp’n at 21-22; 6/12/2020 Hr’g Tr. at 21. And
certainly by 2020, Congress understood that no ANC
could satisfy the eligibility clause, as none had done so
since ISDEAA’s inception. 6/12/20202 Hr’g Tr. at 5960. Thus, by incorporating the ISDEAA definition into
the CARES Act, Congress must have known that it had
selected a definition of “Indian Tribe” that expressly encompasses ANCs, notwithstanding their falling outside
the definition’s eligibility clause. 9 Congress therefore
intended to make Title V funds available to ANCs.

The parties tussle over what inference can be drawn, if any, from
Congress’s selection of the ISDEAA definition of “Indian tribe,” as
opposed to some other statutory definition of “Indian tribe” appearing in the U.S. Code. See Intervenors’ Mot. at 28; Confederated
Tribes’ Opp’n 12. The answer is none. As the parties point out,
the U.S. Code contains multiple different definitions of “Indian
tribe.” Some of those definitions expressly include ANCs. See,
e.g., 20 U.S.C. § 1401(13) (defining “Indian tribe” as “any Federal or
State Indian tribe, band, rancheria, pueblo, colony, or community,
including any Alaska Native village or regional village corporation
(as defined in or established under the Alaska Native Claims Settlement Act. . . . )”). Some do not. See, e.g., 25 U.S.C. § 5130(2)
(“The term ‘Indian Tribe’ means any Indian or Alaska Native tribe,
band, nation, pueblo, village or community that the Secretary of the
Interior acknowledges to exist as an Indian Tribe.”). Some expressly exclude ANCs. See, e.g., 25 U.S.C. § 3501(4)(B) (“For the
purpose of paragraph (12) and sections 3503(b)(1)(C) and 3504 of this
title, the term ‘Indian Tribe’ does not include any Native Corporation.”). Some expressly include them. Of those definitions that expressly include ANCs, some incorporate a similarly worded eligibility clause. See, e.g., 25 U.S.C. § 4103(13)(B) (defining “federally recognized tribe” as “any Indian tribe, band, nation, or other organized
group or community of Indians, including any Alaska Native village
or regional or village corporation as defined in or established pursuant to the Alaska Native Claims Settlement Act, that is recognized
9

56a
3.

The court also concludes that, to the extent there is
ambiguity in the definition of “Indian tribe,” the Secretary’s position is entitled to Skidmore deference. Under Skidmore v. Swift & Co., the weight a court affords
to an agency interpretation “will depend upon the thoroughness evident in its consideration, the validity of its
reasoning, its consistency with earlier and later pronouncements, and all those factors which give it power
to persuade, if lacking power to control.” 323 U.S. 134,
140 (1944). Ultimately, a court upholds an agency determination under Skidmore to the extent is has “power
to persuade.” Christensen v. Harris Cty., 529 U.S.
576, 587 (2000) (internal quotation marks and citation
omitted); see also Davis v. United States, 495 U.S. 472,
as eligible for the special programs and services provided by the
United States to Indians because of their status as Indians pursuant
to the Indian Self-Determination and Education Assistance Act”).
Others do not. See, e.g., 16 U.S.C. § 470bb(5) (defining “Indian
tribe” as “any Indian tribe, band, nation, or other organized group
or community, including any Alaska Native village or regional or village corporation as defined in, or established pursuant to, the Alaska
Native Claims Settlement Act (85 Stat. 688) [43 U.S.C. §§ 16011629h]”).
All this proves is that Congress, when it passed the CARES Act,
had other statutory definitions available to it that could have provided greater clarity about the eligibility of ANCs. Unfortunately,
this availability sheds no useful light on the dispute at hand. The
Alaska Federation of Natives amicus suggest a neat dichotomy
among the various statutory definitions: Congress includes ANCs
within the definition of “Indian tribe” when the statute concerns economic legislation, but not when it concerns tribal self-governance,
and the CARES Act falls into the former category. Amicus Br. of
the Alaska Federation of Natives, ECF No. 81, at 13-14. The court
need not pass on the merits of these proposed groupings, as the ordinary tools of statutory construction suffice to reach an answer.

57a
484 (1990) (“[W]e give an agency’s interpretations . . .
considerable weight where they involve the contemporaneous construction of a statute and where they have
been in long use.”).
The position that the Secretary advances in this case
is neither new nor cut from whole cloth. The Department of Interior, which administers the federal government’s affairs with Indian tribes, has long taken the position that ANCs qualify as “Indian Tribes” for purposes
of ISDEAA and therefore are permitted to contract with
federal agencies. In 1976, the year after ISDEAA was
enacted, the Assistant Solicitor for Indian Affairs, Charles
M. Soller, issued a memorandum to the Commissioner
of Indian Affairs that evaluated whether ANCs meet the
ISDEAA definition of “Indian tribe.” J.A., ECF No.
90-1, at 610-13 [hereinafter Soller Mem.] at 611. The
Commissioner had asked Soller to address “whether
[Alaska Native] village and regional corporations are
within the scope of ” ISDEAA. Id. at 610. The question arose due to the “qualifying language” in the statute’s definition of “Indian tribe,” i.e., the eligibility
clause. Id. at 611. Soller concluded that, “[s]ince both
regional and village corporations find express mention
in the definition, customary rules of statutory construction would indicate that they should be regarded as Indian tribes for purposes of application of this Act.” Id.
at 610. Soller acknowledged that the eligibility clause
added “qualifying language,” and he observed that “profitmaking regional and village corporations have not heretofore been recognized as eligible for [Bureau of Indian
Affairs] programs and services which are not provided
for by the terms of the Settlement Act.” Id. at 611.
But, Soller concluded,

58a
if the quoted language operates to disqualify [ANCs]
from the benefits of [ISDEAA], then their very mention in section 4(b) is superfluous. Therefore, we
think the better view is that Congress intended the
qualifying language not to apply to regional and village corporations but to pertain only to that part of
the paragraph which comes before the word “including.” Accordingly, regional and village corporations
are within the scope of the Act.
Id. 10
Thus, the argument against surplusage that the Secretary advances in this litigation has a long historical antecedent. It has been the position of the agency in charge
of Indian affairs for nearly 45 years. Although the
analysis is brief, Soller recognized the interpretive challenge presented by Congress’s drafting of the ISDEAA
definition, identified the competing canons of statutory
construction, and evaluated those canons in light of contemporaneous understandings of the statutory terms
used and Congress’s intent. The Soller Memorandum
therefore has the “power to persuade.” Christensen,
529 U.S. at 587 (citation omitted).
The Confederated Tribes Plaintiffs seek to undermine the force of the Soller Memorandum by faulting its
failure to consider the disjunctive nature of the Alaska
clause. See Confederated Tribes Opp’n at 18. But, as
Soller appears to have misspoken in one respect. To apply the
eligibility clause only to those words that appear “before the word
‘including’ ” would mean that the eligibility clause does not apply to
“Alaska Native village[s].” But no one then, or now, takes the position that an Alaska Native village can contract under ISDEAA
unless it satisfies the eligibility clause. See Confederated Tribes,
2020 WL 1984297 at *11.
10

59a
explained, the use of the disjunctive does nothing to save
the clause from superfluity. Soller’s ultimate reading
of the statute is reasonable. This was the conclusion of
the only appellate court to have considered whether
ANCs qualify as “Indian Tribes” for purposes of
ISDEAA. See Bowen, 810 F.2d at 1471. Although a single appellate decision cannot amount to a judicial consensus that the court can presume Congress knew of and
endorsed when it incorporated the ISDEAA definition
into the CARES Act, see Confederated Tribes, 2020 WL
1984297, at *12, Bowen lends additional persuasive force
to the agency’s longstanding view that ANCs are “Indian tribes” under ISDEAA. Thus, to the extent that
the ISDEAA definition of “Indian tribe” contains any
ambiguity, Skidmore counsels affording deference to
the agency’s interpretation.
The Confederated Tribes Plaintiffs go to great
lengths to cast the Department of Interior’s position on
ANCs under ISDEAA as inconsistent and lacking clarity. See Confederated Tribes Opp’n at 19-25. The
court need not take on this complex history. For present purposes, it suffices to say that the Confederated
Tribes have identified no point in time in last four decades in which the Department of Interior has not treated
ANCs as “Indian Tribes” for purposes of ISDEAA. 11

The most interesting evidence of different agency treatment of
ANCs is that, for a short period of time, from 1988 to 1994, the Department of Interior actually identified ANCs alongside federally
recognized tribes on its list of “Indian Entities Recognized and Eligible to Receive Services from [BIA].” Confederated Tribes Mot.
at 39 (citing 53 Fed. Reg. 52,829-02, 52,832-33 (Dec. 29, 1988)). The
BIA removed ANCs from the 1994 version of the list but in so doing
reaffirmed ANCs’ status as “Indian tribes” for purposes of ISDEAA.
11

60a
The BIA observed that “a number of non-tribal Native entities in
Alaska that currently contract with or receive services from the Bureau of Indian Affairs pursuant to specific statutory authority, including ANCSA village and regional corporations and various tribal
organizations,” were no longer on the list, but that their non-inclusion
on the list “does not affect the continued eligibility of the entities for
contracts and services.” Indian Entities Recognized and Eligible
to Receive Services from the United States Bureau of Indian Affairs,
58 FR 54,364, 54,366, 1993 WL 420646 (October 21, 1993) (emphasis
added). ANC’s on-and-off-again status on the BIA’s list, then, only
indicates that the BIA struggled with how to properly characterize
Alaska entities, but has always acknowledged their continued eligibility for certain contracts, including under ISDEAA.
This understanding comports with the 1977 Report submitted to
Congress by the American Indian Policy Review Commission. The
1977 Report made clear that while Alaska Native village and regional corporations are not “repositories of tribal sovereignty,” they
should not “be excluded from the benefits of existing and future legislation and programs designed to promote the development of Native peoples.” Def.’s Mot., Ex. 1, ECF No. 79-2, at 495. While the
Confederated Tribes Plaintiffs discount the 1977 Report as simply
one report submitted to Congress, with “no indication that Congress
ever agreed with these cursory and erroneous conclusions or has
taken any action in reliance on them,” Confederated Tribes Opp’n at
20, the court notes that the Report’s author, the American Indian
Policy Review Commission, was established through Congressional
resolution and was composed of three senators, three members of
the House of Representatives, and five Indian leaders. American
Indian Policy Review Commission, Final Report (May 17, 1977) (Appendix A (“How the Commission Did Its Work”) at 3, available at
https://catalog.hathitrust.org/Record/011340209. Further, the investigations that contributed to the Report were conducted by eleven
task forces “each composed of three members selected from among
the leading authorities in their respective fields of expertise in Indian affairs.” Id. The Commission’s Report, “a product of Indian
participation, represent[s] ‘a compendium of information on a scale
heretofore unavailable to the Federal Government’ ” and “represent[s] the most comprehensive review of Indian policies and programs ever conducted.” Id. at 4. See also Cheyenne River Sioux

61a
As noted at the outset of this discussion, the Cheyenne River Sioux Plaintiffs do not dispute that ANCs
qualify as “Indian tribes” under ISDEAA. But they do
seek to diminish their role and status, explaining that
ANCs have “limited tribal status” under certain narrow
circumstances. See Cheyenne River Sioux Mot. at 1417. Relying on agency contracting priority policies, they
contend that “ANCs may qualify under ISDEAA’s definition of ‘Indian tribe’ only as a stop-gap to ensure critical services are provided to Alaska Natives in regions
where there are no actual federally recognized Tribal
governments, or where Tribal governments choose to
compact with ANCs to provide services under ISDEAA.”
Id. at 14. The court has no reason to doubt the accuracy of that characterization. But ANCs’ status as a
contracting partner of “last resort” only underscores
that ANCs are nevertheless eligible for ISDEAA contracts.
For definitional purposes, ANCs are not
considered “Indian tribes” only as a last resort under
ISDEAA; they are always “Indian tribes.” The same
thus holds true under the CARES Act.
4.

Before moving on, the court must address some of the
reasons it set forth in its preliminary injunction opinion
when ruling that Plaintiffs were likely to succeed on the
merits. Of course, the “findings of fact and conclusions
of law made by a court granting a preliminary injunction
Mot. at 16 n.14 (explaining that the Department of the Interior “still
relies [on] this [1977] Report”). Thus, the court has no reason to
doubt the accuracy of the 1977 Report generally and considers the
Report as providing some evidence that, close to the time of IDEAA’s
enactment, Congress understood ISDEAA to treat ANCs as “eligible” Indian tribes.

62a
are not binding at trial on the merits,” see Univ. of Texas
v. Camenisch, 451 U.S. 390, 395 (1981), and the additional
briefing in this case has convinced the court to change
its mind.
First, the court described the Secretary’s reading of
ISDEAA as “counter-textual.” Confederated Tribes,
2020 WL 1984297, at *11. The court no longer ascribes
to that view for the reasons already discussed. Second,
the court deemed inconsistent and unexplained the government’s position taken in other cases, but not here,
that “the definition of ‘Indian tribe’ in various federal
statutes must be read in conjunction with the List Act.
In other words, unless the entity or group appears on
the Interior Secretary’s List, it does not qualify as an
‘Indian tribe.’ ” Id. at *12-13 (citing Wyandot Nation
of Kan. v. United States, 858 F.3d 1392, 1396, 1397-98
(Fed. Cir. 2017); Slockish v. U.S. Fed. Highway Admin.,
682 F. Supp. 2d 1178, 1202 (D. Or. 2010)). As the Secretary now points out, Wyandot and Slockish were cases
that did not involve ANCs but entities claiming tribal
status even though not federally recognized. Def.’s Mot.
at 19-20. It was therefore appropriate in those cases
for the government to insist on identification on the Interior Department’s List, whereas the same insistence
is not necessary here, because ANCs are already
treated as “Indian tribes” for purposes of ISDEAA.
Finally, the court reasoned that “Congress’s adoption of
the ISDEAA definition cannot be divorced from actual
agency practice under ISDEAA, which seemingly is to
contract with ANCs only, if at all, with tribal consent or
as a last resort.” Id. at *13. The flaw in that logic is
now apparent. Even if actual agency practice is to
rarely contract with ANCs to deliver services under ISDEAA, the fact remains that ANCs are “Indian tribes”

63a
for purposes of ISDEAA contracting eligibility. By
importing ISDEAA’s definition into the CARES Act,
Congress carried forward that same treatment. 12
* * *
Accordingly, the court holds that Alaska Native village and regional corporations meet ISDEAA’s definition of “Indian tribe,” and therefore ANCs qualify as
“Indian tribes” for the purposes of CARES Act funding.
B.

“Recognized Governing Bodies” under ISDEAA

Having concluded that ANCs qualify as “Indian tribes”
under ISDEAA, the court now turns to the second question: Are ANCs “recognized governing bod[ies],” or do
they have such bodies? Remember, Title V provides
that the Secretary shall make payments only to “the
recognized governing bod[ies]” of Indian Tribes. See
42 U.S.C. § 801(g)(5). The parties dispute whether
“recognized” is a legal term of art meaning “federally
recognized”—in which case, only federally recognized
tribes, and not ANCs, meet the definition—or whether
it carries an ordinary meaning. Confederated Tribes
Mot. at 19; Cheyenne River Sioux Opp’n at 7-8; Def.’s
Opp’n at 31-32; Intervenors’ Opp’n. at 16-17. They also
dispute whether “governing body” refers to “government status or attributes of sovereignty,” see Cheyenne
The decision whether to award ANCs Title V funds in proportion
to their status as a service provider of “last resort” is an allocation
determination that rests squarely within the broad discretion that
Congress vested in the Secretary. See generally Prairie Band Potawatomi Nation v. Mnuchin, No. 20-cv-1491 (APM), 2020 WL 3402298,
at *1-2 (D.D.C. June 11, 2020) (holding that the Secretary’s selected
allocation method under Title V of the CARES Act is an unreviewable discretionary agency action under the APA).
12

64a
River Sioux Mot. at 4, or whether it “simply references
the entity or individuals authorized to govern the organization in its charter or other organizing documents,” Intervenors’ Opp’n at 15.
In evaluating the parties’ arguments, ISDEAA once
more serves as the starting point. ISDEAA authorizes
the federal government to contract not with an Indian
tribe, but with a tribal organization, to deliver public services. 25 U.S.C. § 5321. ISDEAA defines “tribal organization” in two ways: (1) “the recognized governing
body of any Indian tribe”; and
(2) any legally established organization of Indians
which is controlled, sanctioned, or chartered by such
governing body or which is democratically elected by
the adult members of the Indian community to be
served by such organization and which includes the
maximum participation of Indians in all phases of its
activities: Provided, That in any case where a contract is let or grant made to an organization to perform services benefiting more than one Indian tribe,
the approval of each such Indian tribe shall be a prerequisite to the letting or making of such contract or
grant.
25 U.S.C. § 5304(l). The first definition of “tribal organization” should ring familiar as Congress used almost the same exact words to define “Tribal government” for purposes of the CARES Act. Compare id.
with 42 U.S.C. § 801(g)(5) (“The term ‘Tribal government’ means the recognized governing body of an Indian
Tribe.”). The ISDEAA definition of “tribal organization” is therefore instructive in understanding the term
“Tribal government” under the CARES Act. See Branch
v. Smith, 538 U.S. 254, 281 (2003) (explaining that “courts

65a
do not interpret statutes in isolation, but in the context
of the corpus juris of which they are a part”).
All parties, even the Confederated Tribe Plaintiffs,
concede that ANCs may enter into ISDEAA contracts.
See Confederated Tribes Mot. at 36 (describing ANC
contracting under ISDEAA as occurring in “exceptional” or “narrow” circumstances). Thus, to enjoy
such status, ANCs, or some constituent part of them,
necessarily must meet at least one of ISDEAA’s two definitions of “Tribal organization,” because only a “tribal
organization” may enter into an ISDEAA contract, see
25 U.S.C. § 5321(a)(1). The Plaintiffs part ways on
which of the two definitions apply. The Cheyenne
River Sioux Plaintiffs say that ANCs satisfy the first
definition of “tribal organization”—“the recognized governing body of any Indian tribe”; yet they resist the logical next step that ANCs also are, or have, a “recognized
governing body” for purposes of the CARES Act, even
though the two statutes use the exact same terms. The
Confederated Tribes Plaintiffs attempt to dodge this
trap. They argue that ANCs fall into the second,
longer definition of “tribal organization,” which Congress did not incorporate into the CARES Act. See id.
at 35. In their view, ANCs qualify as “tribal organization[s]” only because they are a “legally established organizations of Indians . . . sanctioned by” the governing body of an Indian tribe, in this case, “a Native
village.” 6/12/2020 Hr’g Tr. at 14. This reading, in
their view, harmonizes how ANCs are not, or do not
have, a “recognized governing body,” but still can enter
into ISDEAA contracts as a “tribal organization.” Id.
The court takes Plaintiffs’ arguments in reverse order.

66a
The Confederated Tribes’ reading cannot be squared
with ISDEAA’s text. ANCs are not “controlled, sanctioned, or chartered” by the governing body of an Indian
Tribe. 13 ANCs are corporate entities established by
Congress and chartered under Alaska state law. See
generally 43 U.S.C. § 1601 et seq. Though the ISDEAA
definition of “tribal organization” uses the word “sanctioned,” it does not use that term in the sense of tribal
approval of ISDEAA contracts. The term “sanction”
in the definition of “tribal organization” is entirely disconnected from contract approval. It is true, as the
Confederated Tribes Plaintiffs point out, that ANCs ordinarily obtain the approval of governing bodies of Native Villages as a condition of ISDEAA contracts. But
that requirement stems not from the word “sanctioned,”
but rather from the “Provided” clause found later in the
definition: “in any case where a contract is let or grant
made to an organization to perform services benefiting
more than one Indian tribe, the approval of each such
Indian tribe shall be a prerequisite to the letting or
making of such contract or grant.” 25 U.S.C. § 5304(l)
(emphasis added). Thus, if an ANC seeks to enter into
a contract that benefits a Native Village, it must logically obtain the approval of that Native Village’s governing body as a condition of doing so. 14
Nor do they satisfy the second half of the second “tribal organization” definition: ANCs are not “democratically elected by the
adult members of the Indian community to be served by such organization.” 25 U.S.C. § 5304(l).
14
Plaintiffs make the point that, absent specific approval from a
Tribal government, an ANC can receive an ISDEAA contract “[o]nly
if a Tribal government does not exist for a specific area.” Cheyenne River Sioux Mot. at 17; 6/12/2020 Hr’g Tr. at 40; see also Confederated Tribes Mot. at 36. This fact only underscores that
13

67a
This interpretation of ISDEAA is consistent with the
longstanding view of the Department of Interior. As
the Soller Memorandum explains, ANCs as “Indian
tribes” under ISDEAA can seek self-determination contracts on their own behalf, and their boards of directors
qualify as the “governing body” for such purposes. See
Soller Mem. at 611 (stating that “regional and village
corporations may request to contract for the provision
of BIA services under section 102 of the Act”). The
Memorandum further recognizes that, as a practical
matter, ANCs almost always must obtain tribal consent
because such self-determination contracts are likely in
some way to be for the benefit of one or more Native
Villages, rather than the corporation itself. Id. at 612
(“[T]he language of the Act is unambiguous. If a contract or grant benefits more than one village or village
corporation, the approval of each must be obtained.”);
id. (“Indeed, it is not clear to us what it means for a contract to ‘benefit’ a village corporation, as opposed to the
Native village. . . . However, it does seem clear that
if a contract is let to a regional tribal organization for
the purpose of providing services in a given village, some
governing body in that village must approve that contract.”).15 Thus, under a straightforward reading of
ANCs must fit under the first category of “tribal organization,”
because in these circumstances—limited though they may be—
there is no Tribe to “sanction” the ISDEAA contract. That such
ISDEAA contracts arise only as a “last resort” or in “exceptional
circumstances” is of no moment. Nothing in the text of the statute limits ANCs’ functioning as, or having, “recognized governing
bodies” only to these “last resort” circumstances.
15
The sole case that the Confederated Tribes Plaintiffs cite,
Ukpeagvik Inupiat Corp. (“UIC”) v. U.S. Dep’t of Health and Human Svcs, No. 3:13-cv-00073-TMB, 2013 WL 12119576 (D. Alaska

68a
“tribal organization,” ANCs must be eligible for contracting under the first definition of “tribal organization”—
“the recognized governing body of any Indian tribe.”
25 U.S.C. § 5304(l). 16 And by the terms of that definition, they must have a “recognized governing body” for
purposes of ISDEAA. If ANCs have a “recognized
governing body” for purposes of ISDEAA, it stands to
reason that Congress brought that same meaning forward in the CARES Act, as the first definition of “tribal
organization” in ISDEAA and the definition of “Tribal
government” in the CARES Act are essentially identical. See Branch, 538 U.S. at 281.
Plaintiffs resist this logic. They contend that Congress’s use of the word “recognized” was intended as a

May 20, 2013), at *2–3), does not help them. There, an ANC obtained
a contract to provide services at a hospital. Of the approvals it obtained, two were from other ANCs and one was from the contracting
ANC itself. 2013 WL 12119576 at *1 & n.5 (listing, in addition to UIC
(the contracting ANC), Atqasuk Village Corporation and Kuukpik
Village Corporation). This case thus supports the understanding
that ANCs are “Indian Tribes.” Otherwise, the ANCs’ “approvals”
would not have been required under the proviso in ISDEAA’s definition of “tribal organization.” See 25 U.S.C. § 5304(l) (“[I]n any
case where a contract is let or grant made to an organization to perform services benefitting more than one Indian tribe, the approval
of each such Indian tribe shall be a prerequisite.”) (emphasis added).
16
ANCs plainly fall under the first definition for another reason.
If, as the Confederated Tribes Plaintiffs contend, they fall under the
second definition of “Tribal organization,” there would have been no
need to expressly include them in the definition of “Indian Tribe,”
see 25 U.S.C. § 5304(e), because ANCs could simply contract under
the second definition, see id. § 5304(l). Accepting the Confederated
Tribes Plaintiffs’ position would thus render ANCs’ inclusion in the
“Indian Tribe” definition surplusage twice over.

69a
term of art, meant to convey the unique political and legal status afforded to federally recognized tribes. See
Confederated Tribes Mot. at 21-23; Cheyenne River
Sioux Opp’n at 6-8. The Confederated Tribes Plaintiffs, for example, point to a federal regulation that defines “[r]ecognized governing body” as “the tribe’s governing body recognized by the Bureau [of Indian Affairs] for the purposes of government-to-government
relations.” Confederated Tribes Mot. at 21 (quoting 25
C.F.R. § 81.4). But that regulation by its own terms
“applies only to federally recognized tribes,” id. § 81.2,
because the regulation concerns election procedures to
“adopt, amend, or revoke tribal governing documents”
and charters, id. § 81.1. It is unsurprising, then, that
ANCs would not be included in such a regulation.
Likewise, the Cheyenne River Sioux Plaintiffs point to a
slew of cases holding that ANCs are not “governing bodies” or “tribal governments.” See Cheyenne River
Sioux Mot. at 11-12 (collecting cases); Cheyenne River
Sioux Opp’n at 6-8; see also Confederated Tribes Mot. at
22-23 (same). Not only are these cases from nonISDEAA contexts, they concern a proposition that is
simply not at issue here; no one disputes that ANCs are
not Tribal governments in the traditional sense. This
case concerns the entirely separate question whether
ANCs have “recognized governing bodies” for purposes
of the CARES Act. See Mohamad v. Palestinian
Auth., 566 U.S. 449, 455 (2012) (“Congress remains free,
as always, to give [a] word a broader or different meaning” than the one suggested by the word’s plain meaning.).
On this question, while the court agreed with Plaintiffs’ argument at the preliminary injunction stage, see

70a
Confederated Tribes, 2020 WL 1984297, at *10, upon further reflection the court now concludes the opposite—
“recognized” standing alone, as it is used in the CARES
Act’s definition of “Tribal government,” does not convey
federal recognition of an Indian tribe. The best evidence of this reading is that Congress used nearly the
exact same words, “recognized governing body of any
Indian tribe,” found in the first definition of “tribal organization” in ISDEAA, 25 U.S.C. § 5304(l). While the
Cheyenne River Sioux Plaintiffs point out that the
CARES Act incorporated only ISDEAA’s definition of
“Indian Tribe” and did not import ISDEAA “whole
cloth,” 6/12/2020 Hr’g Tr. at 120, ISDEAA nevertheless
demonstrates that when Congress uses the word “recognized,” or even “recognized governing body,” it does
not a fortiori mean “federally recognized.” “Recognition” is not used as a term of art in the IDEAA definition
of “tribal organization”; 17 it follows that the same is true
under the CARES Act.
Another interpretive clue leads to this conclusion.
The Cheyenne River Sioux’s reading, if accepted, would
produce the result that Congress expressly granted eligibility in one definition under the CARES Act—by incorporating the ISDEAA definition of “Indian tribe”—but silently took it away in another—by excluding ANCs from

Relevant agencies have long understood this. Under the 1981
guidelines promulgated by Interior and HHS, for example, ANCs
can be “recognize[d] as the village governing body” for “the purposes
of contracting under Pub. L. 93-628 [ISDEAA].” 46 Fed. Reg.
27,178-02, 27,179 (May 18, 1981). And the 1988 list of Tribes published by Interior described ANCs as “Alaska entities which are recognized and eligible to receive funding and services from the Bureau
of Indian Affairs.” 53 Fed. Reg. at 52,832 (emphasis added).
17

71a
the definition of “Tribal government.” It would be passing strange to exclude ANCs so obliquely, and the court
cannot presume that Congress intended such a result.
Finally, and contrary to what the court previously
concluded, see Confederated Tribes, 2020 WL 1984297,
at *10, Plaintiffs’ appeal to statutory context is ultimately not convincing. Specifically, they contend that
the statute’s “definition of ‘Tribal government’ must be
read in th[e] context” of Title V of the CARES Act,
which they argue is “directed to sovereign governments
and their political subdivisions.” Confederated Tribes
Mot. at 24; see also Cheyenne River Sioux Mot. at 2 (emphasizing that the CARES Act uses the term “Tribal
governments” “15 times in just over three pages”).
But there is nothing inconsistent with treating ANCs
alongside tribal governments for these limited purposes.
ISDEAA is aimed at providing government services—
including health care—to Indians by partnering with
Tribal organizations, including, at times, ANCs. It
stands to reason that Congress, in its effort to distribute
emergency funds quickly to Indians under the CARES
Act, intended to get those dollars in the hands of the
same entities that deliver public services to Indians.
In the lower 48 states, those entities are largely Tribal
governments in the traditional sense, but in Alaska,
those entities include Alaska Native village and regional
corporations. See Intervenors’ Mot. at 14-18. ANCs’
inclusion in Title V alongside other types of traditional
governments is therefore not incongruous with Congress’s
purpose of appropriating emergency funds for “governments” to deliver public services to address and manage
a national health emergency. In the end, the question
before the court is whether ANCs are “Tribal govern-

72a
ments” for the limited purpose of delivering public services to combat the COVID-19 pandemic. For all the
foregoing reasons, they are.
* * *
Before concluding, the court addresses Plaintiffs’ concern that deeming ANCs eligible for Title V funding will
enact a sea-change in Tribal law. See, e.g., 6/12/2020 Hr’g
Tr. at 42-43. Not so. The court does no more than opine
on the status of ANCs under ISDEAA and the CARES
Act, and it reaches a holding that is consistent with
longstanding treatment of ANCs under ISDEAA by the
federal government. The court’s ruling in no way elevates ANCs to “super-tribal status” as the Confederated
Tribes Plaintiffs maintain, Confederated Tribes Opp’n at
10; nor does it allow ANCs to “compete” with federally
recognized tribes in any other context as the Cheyenne
River Sioux Plaintiffs fear, Cheyenne River Sioux Mot. at
12. The court’s decision simply recognizes that ANCs
are eligible for CARES Act funds, as Congress intended—
no more, no less.
IV.

For the foregoing reasons, the court grants the Secretary’s and Defendant-Intervenors’ Motions for Summary Judgment, ECF Nos. 78 and 79, and denies Plaintiffs’ Motions for Summary Judgment, ECF Nos. 76 and
77. A final, appealable Order accompanies this Memorandum Opinion.
Dated:

June 26, 2020
/s/ AMIT P. MEHTA
AMIT P. MEHTA
United States District Court Judge

73a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 20-5204
Consolidated with 20-5205 and 20-5209
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL., APPELLEES
UTE TRIBE OF THE UINTAH AND OURAY INDIAN
RESERVATION, APPELLANT
v.
STEVEN T. MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF U.S. DEPARTMENT OF THE TREASURY,
ET AL., APPELLEES
Filed: Sept. 30, 2020
September Term, 2020
No. 1:20-cv-01002-APM
No. 1:20-cv-01059-APM
No. 1:20-cv-01070-APM
ORDER
BEFORE:

Circuit Judges

*

HENDERSON*, MILLETT, and KATSAS,

Circuit Judge Henderson would deny the motion.

74a
Upon consideration of the emergency motion to suspend statutory lapse of appropriation and extend budget
authority, the responses thereto, and the replies, it is
ORDERED that to ensure an opportunity for orderly
review of this Court’s September 25, 2020 decision, as
well as the government’s ability to disburse the disputed
funds upon completion of the litigation, any expiration
of the appropriation for Tribal governments set forth in
42 U.S.C. 801(a)(2)(B) is hereby suspended. See Nat’l
Ass’n of Reg’l Councils v. Costle, 564 F.2d 583, 588 (D.C.
Cir. 1977). It is
FURTHER ORDERED that this order will expire at
5:00 p.m. on October 30, 2020, unless the federal government or the intervenor-appellees has by then filed either
a petition for rehearing en banc or for a writ of certiorari
seeking review of this Court’s decision, in which case
this order will remain effective until seven days after final action by this Court or the Supreme Court.
Per Curiam
FOR THE COURT:

BY:

/s/

Mark J. Langer, Clerk
Amanda Himes
Deputy Clerk

75a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 20-5204
Consolidated with 20-5205 and 20-5209
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL., APPELLEES
UTE TRIBE OF THE UINTAH AND OURAY INDIAN
RESERVATION, APPELLANT
v.
STEVEN T. MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF U.S. DEPARTMENT OF THE TREASURY,
ET AL., APPELLEES
Filed: Sept. 14, 2020
September Term, 2020
No. 1:20-cv-01002-APM
No. 1:20-cv-01059-APM
No. 1:20-cv-01070-APM
ORDER
BEFORE:

Circuit Judges

HENDERSON, MILLETT, and KATSAS,

On July 7, 2020, the district court issued a memorandum opinion staying its June 26, 2020 order until the
earlier of September 15, 2020, or resolution of this matter by this court. Upon consideration of the foregoing,
it is

76a
ORDERED, on the court’s own motion, that the Secretary of the Treasury be enjoined from disbursing or
otherwise paying Title V funds to any Alaska Native regional or village corporations pending resolution of
these consolidated appeals.
Per Curiam
FOR THE COURT:

BY:

/s/

Mark J. Langer, Clerk
Michael C. McGrail
Deputy Clerk

77a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Case No. 20-cv-01002 (APM)
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL., PLAINTIFFS
v.
STEVEN MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE TREASURY, DEFENDANT
Case No. 20-cv-01059 (APM)
CHEYENNE RIVER SIOUX TRIBE, ET AL., PLAINTIFFS
v.
STEVEN MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE TREASURY, DEFENDANT
Case No. 20-cv-01070 (APM)
UTE TRIBE OF THE UINTAH AND OURAY
RESERVATION, PLAINTIFF
v.
STEVEN MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE TREASURY, DEFENDANT
Filed:

July 7, 2020

78a
MEMORANDUM OPINION AND ORDER

I.
On June 26, 2020, the court ruled that Alaska Native
regional and village corporations (“ANCs”) are eligible
to receive emergency relief funds appropriated by Congress under Title V of the Coronavirus Aid, Relief, and
Economic Security Act, or CARES Act. See Confederated Tribes of Chehalis Reservation v. Mnuchin, No.
20-cv-01002 (APM), 2020 WL 3489479 (D.D.C. June 26,
2020). The court accordingly entered judgment in favor of Defendant Secretary of the U.S. Department of
the Treasury and the ANC Defendant-Intervenors, and
dissolved the preliminary injunction that, until then, had
prevented the Secretary from disbursing Title V funds
to ANCs. See Order, ECF No. 98. The Confederated
Tribes of the Chehalis Reservation Plaintiffs now ask
the court to stay its judgment pending appeal. Pls.’
Mot. for Injunction Pending Appeal and Mem. of P. &
A., ECF No. 99 [hereinafter Pls.’ Mot.]. 1 Specifically,
they seek an injunction that prohibits the Secretary
from “disbursing or otherwise paying Title V funds to
any [ANC], until further order of this Court or by order
of the Court of Appeals for the District of Columbia Circuit.” Proposed Order, ECF No. 99-1, at 2. For the
reasons that follow, the requested injunctive relief is

Plaintiff Ute Indian Tribe of the Uintah and Ouray Reservation
join in the Confederated Tribes Plaintiffs’ motion. See Ute Indian
Tribe’s Joinder in “Mot. for Leave to File Injunction Pending Appeal,” ECF No. 100.
1

79a
granted, subject to the condition that Plaintiffs file a notice of appeal and a motion for expedited review by July
14, 2020.
II.
This court set forth the standard governing a motion
for injunction pending appeal in Cigar Association of
America v. FDA, 317 F. Supp. 3d 555, 560-61 (D.D.C.
2018). The court need not repeat that discussion here
but incorporates it by reference, and proceeds directly
to the four injunction factors it must consider on a sliding scale.
First, Plaintiffs have presented “serious legal questions going to the merits, so serious, substantial, difficult as to make them a fair ground of litigation and thus
for more deliberative investigation.” Population Inst.
v. McPherson, 797 F.2d 1062, 1078 (D.C. Cir. 1986)
(quoting Wash. Metro. Area Transit Comm’n v. Holiday Tours, Inc., 559 F.2d 841, 844 (D.C. Cir. 1977)).
Although the court ultimately ruled in Defendants’ favor, it observed that “this case does not present easy,
straightforward questions of statutory interpretation,”
and it “wrestled” with the decision it made. Confederated Tribes, 2020 WL 3489479, at *6. The proper application of the competing canons of interpretation to Title V’s relevant statutory terms alone warrants additional scrutiny, and the “impressive array of textual, historical, and practical evidence” amassed by the parties,
“all of which must be viewed against the unique treatment of Native Alaskans by Congress and Executive
Branch agencies,” only counsels in favor of further review. Id. Because the question of statutory interpretation presented in this case is as complicated as it is

80a
consequential, it deserves an audience before a higher
court while maintaining the status quo. 2
Second, Plaintiffs would suffer irreparable harm if
the court denied injunctive relief and the Secretary then
distributed the withheld Title V funds to ANCs. Such
payments could result in this case becoming moot before
receiving a full hearing before the D.C. Circuit. See
City of Houston. v. Dep’t of Hous. & Urban Dev., 24 F.3d
1421, 1424 (D.C. Cir. 1994) (“It is a well-settled matter
of constitutional law that when an appropriation has
lapsed or has been fully obligated, federal courts cannot
order the expenditure of funds that were covered by
that appropriation.”); Ambach v. Bell, 686 F.2d 974, 986
(D.C. Cir. 1982) (holding that “interim relief ” was proper where plaintiff States challenged the agency’s formula for distributing education funding, because, “[o]nce
the . . . funds are distributed to the States and obligated, they cannot be recouped”). Given the complexity and significance of the questions presented, this
court should not have the last say on this matter. Defendants respond that the harm Plaintiffs faced at the
preliminary injunction stage is now greatly diminished
because they have received approximately 90% of the
CARES Act funding to which they are entitled. Opp’n
to Pls.’ Mot. for Inj. Pending Appeal of Intervenor-Defendants Alaska Native Village Corp. Assoc., Inc., and
Assoc. of ANCSA Regional Corp. Presidents/CEO’s,
To varying degrees, the parties have sought to revisit the merits of the court’s decision. See, e.g., Pls.’ Mot. at 6-12; Def,’s Opp’n
to Pls.’ Mot. for Inj. Pending Appeal, ECF No. 103, at 5-13. Wading into those thorny issues once more is neither desirable nor necessary. It suffices to say that the questions Plaintiffs have raised
are sufficiently “substantial” to warrant an injunction pending appeal.
2

81a
Inc., ECF No. 104, at 8. Yet, there remains hundreds
of millions of dollars in dispute. And, although not all
of those funds would go to these Plaintiffs if they were
to prevail, the lesser amount at stake would not make
the lost chance at appellate review sting any less.
Third, the final two factors taken together—the balance of equities and the public interest—cannot overcome the reasons favoring injunctive relief. See Nken
v. Holder, 556 U.S. 418, 434 (2009) (“The first two factors
of the traditional standard are the most critical.”); id. at
435 (observing that the third and fourth factors “merge”
when the government is the opposing party). To be
sure, the ANCs and, more importantly, the constituencies they serve will suffer some injury from additional
delay in receiving Title V funds. However, the public
interest also rests in carrying out Congress’s will, and
that interest is not served if ANCs receive and spend
tens of millions of dollars of emergency relief to which
they are not entitled. See League of Women Voters of
United States v. Newby, 838 F.3d 1, 12 (D.C. Cir. 2016)
(stating that “there is a substantial public interest in
having governmental agencies abide by the federal laws
that govern their existence and operations” (internal
quotation marks and citation omitted)). Although this
court has concluded that ANCs are eligible for those
funds, the public interest rests with the D.C. Circuit deciding whether this court got it right.
In summary, the injunction factors, applied on a sliding scale, favor granting Plaintiffs’ request for an injunction pending appeal.

82a
III.
The Calista ANC-Intervenor Defendants urge the
court, in effect, to punt Plaintiffs’ request for injunctive
relief to the D.C. Circuit. See Opp’n to Pls.’ Mot. to
Stay Judgment Pending Appeal, ECF No. 102 [hereinafter Calista Mot.] at 2 (“In all events, this Court is the
wrong court to grant the relief that plaintiffs seek.”).
The court declines to do so. This court has an independent obligation to consider Plaintiffs’ motion, see
Fed. R. Civ. P. 62(d); Fed. R. App. P. 8(a)(1), and it must
discharge that responsibility. That said, the Calista
ANC-Intervenor Defendants are right to be concerned
that a delayed appeal would defeat the very purposes for
which Congress appropriated CARES Act funds on an
emergency basis. See Calista Mot. at 2-3. The Confederated Tribes Plaintiffs have not suggested that they
intend to delay prosecuting an appeal; to the contrary,
they have said they will pursue expedited review. See
Pls.’ Mot. at 2 n.1. Nevertheless, to ensure prompt appellate consideration, the court will condition the requested stay on Plaintiffs’ filing both a notice of appeal
and a motion for expedited review before the D.C. Circuit by no later than July 14, 2020. See Ctr. for Int’l
Envtl. Law v. Office of the U.S. Trade Representative,
240 F. Supp. 2d 21, 23 & n.1 (D.D.C. 2003) (granting injunction pending appeal conditioned on seeking expedited review); accord Charles v. Office of the Armed
Forces Medical Examiner, Civil Action No. 1:09-cv-0199
(KBJ), 2013 WL 12332949, at *2 (D.D.C. May 9, 2013).
If Plaintiffs fail to move on an expedited basis, the stay
will expire.

83a
IV.
For the foregoing reasons, the Confederated Tribes
Plaintiffs’ Motion for Injunction Pending Appeal, ECF
No. 99, is hereby granted, subject to one condition.
The court’s Order of June 26, 2020, ECF No. 98, is
hereby stayed until the earlier of September 15, 2020, or
resolution of this matter by a three-judge panel of the
D.C. Circuit, so long as Plaintiffs file a notice of appeal
and seek expedited review by July 14, 2020. If Plaintiffs do not timely satisfy this condition, the injunction
pending appeal shall expire on July 15, 2020. If the
D.C. Circuit has not resolved this case by September 15,
2020, this order may be extended upon motion by a party
or by the D.C. Circuit. Any motion filed before this
court shall address whether Title V funds will expire if
the D.C. Circuit does not issue a decision by September
30, 2020.
Dated:

July 7, 2020
/s/ AMIT P. MEHTA
AMIT P. MEHTA
United States District Court Judge

84a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Case No. 20-cv-01002 (APM)
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL., PLAINTIFFS
v.
STEVEN MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE TREASURY, DEFENDANT
Case No. 20-cv-01059 (APM)
CHEYENNE RIVER SIOUX TRIBE, ET AL., PLAINTIFFS
v.
STEVEN MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE TREASURY, DEFENDANT
Case No. 20-cv-01070 (APM)
UTE TRIBE OF THE UINTAH AND OURAY
RESERVATION, PLAINTIFF
v.
STEVEN MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE TREASURY, DEFENDANT
Filed:

Apr. 27, 2020

85a
MEMORANDUM OPINION

Under Title V of the Coronavirus Aid, Relief, and
Economic Security Act, or CARES Act, Congress set
aside $8 billion in emergency aid for “Tribal governments” to combat the coronavirus pandemic. This case
concerns what it means to be a “Tribal government” for
the purpose of receiving Title V funds.
Plaintiffs are a group of federally recognized tribes
from the lower 48 states and Alaska. They unquestionably qualify to receive some portion of the emergency
relief set aside under Title V of the CARES Act. What
Plaintiffs fear, however, is that the Secretary of the Treasury, who Congress authorized to disburse the monies, is
about to give away a significant percentage of the $8 billion to what are known as Alaska Native regional and
village corporations, or ANCs. ANCs are for-profit
corporations recognized under Alaska law that were established by Congress as part of the Alaska Native
Claims Settlement Act. The Secretary of Treasury has
announced that ANCs are eligible to receive Title V
funds, although he has yet to identify which ANCs will
receive funds or how much. The Secretary intends to
disburse the funds tomorrow—April 28, 2020.
Plaintiffs ask this court to enjoin the Secretary from
making Title V payments to ANCs. Their position is
straightforward. Title V grants $8 billion in relief
funds for “Tribal governments,” which the CARES Act
defines as “the recognized governing body of an Indian
Tribe.” In Plaintiffs’ view, ANCs do not meet the statutory definition of either “Indian Tribe” or “Tribal government.” ANCs therefore are not eligible for Title V
funds. Whether Plaintiffs’ or the Secretary’s reading

86a
of Title V is the correct one is at the heart of the parties’
dispute.
Before the court are Plaintiffs’ motions for a temporary restraining order and preliminary injunction. Because the court finds that Plaintiffs have made a clear
showing that they are likely to suffer irreparable harm
in the absence of preliminary relief, that they are likely
to succeed on the merits, and the balance of the equities
and the public interest favor an injunction, the court
grants Plaintiffs’ motions—but only in part. The court
will preliminarily enjoin the Secretary from disbursing
Title V funds to any ANC, but will not direct him at this
time to disburse the entire $8 billion in emergency relief
to Plaintiffs and other federally recognized tribes.
I.
A.

Statutory Background

1.

The CARES Act

Congress enacted the Coronavirus Aid, Relief, and
Economic Security Act (“CARES Act”), Pub. L. No.
116-136, 134 Stat. 281 (2020), to respond to the devastating impacts of the COVID-19 pandemic. Its provisions
direct tailored relief to specific sectors of American society, including economic aid to small businesses and
employment retention programs for workers (Title I);
unemployment insurance and other financial support
systems for workers, businesses, and families (Title II);
pandemic response and healthcare funding (Title III);
support for economically struggling businesses regardless of size (Title IV); relief funding for State, Tribal,
and local governments (Title V); and supplemental appropriations for federal agencies and programs (Title
VI).

87a
Title V, the title relevant here, amends the Social Security Act (42 U.S.C. 301 et seq.), and appropriates $150
billion for fiscal year 2020 for “payments to States,
Tribal governments, and units of local government.”
42 U.S.C. § 801(a)(1). Of that sum, $8 billion is “reserve[d] . . . for making payments to Tribal governments.” Id. § 801(a)(2)(B). The Act requires the Secretary of the United States Department of the Treasury
(“Secretary”) to disburse the Title V funds to Tribal governments “not later than 30 days after” March 26, 2020,
the date of enactment of this section—that is, by April
26, 2020. Id. § 801(b)(1). The Act further instructs
that the funds are intended:
to cover only those costs of the State, Tribal government, or unit of local government that—(1) are necessary expenditures incurred due to the public health
emergency with respect to the Coronavirus Disease
2019 (COVID-19); (2) were not accounted for in the
budget most recently approved as of the date of enactment of this section for the State or government;
and (3) were incurred during the period that begins
on March 1, 2020, and ends on December 30, 2020.
Id. § 801(d).
For purposes of Title V funding, the CARES Act defines “Tribal government” as “the recognized governing
body of an Indian tribe.” Id. § 801(g)(5). The Act further provides that “[t]he term ‘Indian Tribe’ has the
meaning given that term in [section 5304(e) of the Indian
Self-Determination and Education Assistance Act, 25
U.S.C. § 5304(e)].” Id. § 801(g)(1). The Indian SelfDetermination and Education Assistance Act in turn defines “Indian tribe” as “any Indian tribe, band, nation,
or other organized group or community, including any

88a
Alaska Native village or regional or village corporation
as defined in or established pursuant to the Alaska Native Claims Settlement Act (85 Stat. 688) [43 U.S.C. 1601
et seq.], which is recognized as eligible for the special
programs and services provided by the United States to
Indians because of their status as Indians.” 25 U.S.C.
§ 5304(e).
2.

The Alaska Native Claims Settlement Act

The Alaska Native Claims Settlement Act, enacted in
1971, Pub. L. No. 92-203, § 2(b), 85 Stat. 688, (“ANSCA”)
is “a comprehensive statute designed to settle all land
claims by Alaska Natives,” Alaska v. Native Vill. of Venetie Tribal Gov’t, 522 U.S. 520, 523 (1998). Among
other things, ANSCA extinguished all aboriginal claims
to Alaska land, and “[i]n return, Congress authorized
the transfer of $962.5 million in state and federal funds
and approximately 44 million acres of Alaska land to
state-chartered private business corporations that were
to be formed pursuant to the statute; all of the shareholders of these corporations were required to be
Alaska Natives.” Id. at 524 (citing ANCSA, §§ 6, 8, 14
(codified at 43 U.S.C. §§ 1605, 1607, 1613)). The transfer of reservation lands to private, state-chartered Native corporations, or ANCs, was “without any restraints
on alienation or significant use restrictions,” because
Congress intended to avoid “ ‘any permanent racially defined institutions, rights, privileges, or obligations.’ ”
Id. at 532-33 (citing ANCSA, §§ 2b, 8, 14). “By ANCSA’s
very design, Native corporations can immediately convey former reservation lands to non-Natives, and such
corporations are not restricted to using those lands for
Indian purposes.” Id. at 533.

89a
Today, ANCs continue to own approximately 44 million acres of land. RESOURCE DEVELOPMENT COUNCIL, Alaska Native Corporations, https://www.akrdc.org/
alaska-native-corporations (last visited Apr. 25, 2020)
[hereinafter Res. Dev. Council]. The ANCs’ “landholdings are equivalent to the total trust land base of all federally recognized Tribal governments in the Lower-48
states combined.” First Am. Compl. for Declaratory
and Inj. Relief, No. 20-cv-1059, ECF No. 14 [hereinafter
Cheyenne River Am. Compl.], at 22. In fiscal year
2017, ANCs had a combined revenue of $9.1 billion, and
the twelve regional ANCs have over 138,000 shareholders and employ more than 43,000 people worldwide.
See Res. Dev. Council.
3.

ISDEAA and ANCs

Congress enacted the Indian Self-Determination and
Education Assistance Act, or ISDEAA, in 1975 “to help
Indian tribes assume responsibility for aid programs
that benefit their members.” Menominee Indian Tribe of
Wis. v. United States, 136 S. Ct. 750, 753 (2016). Under
ISDEAA, tribes may enter into “self-determination contracts,” or “638” agreements, with federal agencies to
provide services that otherwise would have been provided by the federal government, such as education, law
enforcement, and health care. 25 U.S.C. § 5321(a)(1);
Menominee Indian Tribe, 136 S. Ct. at 753; Seminole
Tribe of Fla. v. Azar, 376 F. Supp. 3d 100, 103 (D.D.C.
2019).
Historically, federal agencies have treated ANCs as
“Indian tribes” under ISDEAA and therefore as eligible
to enter into 638 agreements. See Cook Inlet Native
Ass’n v. Bowen, 810 F.2d 1471, 1473-77 (9th Cir. 1987)

90a
(setting forth history of agency treatment of ANCs under ISDEAA). However, the extent of actual 638 contracting with ANCs under ISDEAA is unclear. The
Secretary’s counsel, for instance, was unable to identify
any present or past 638 agreement with an ANC, see
Hr’g Tr., 4/24/20, at 38—albeit, in fairness, the Secretary had only a limited time to conduct due diligence.
B.

Factual and Procedural Background

On April 13, 2020, the Secretary published on the
Treasury Department’s website a form titled “Certification for Requested Tribal Data” (“Certification”), which
requested certain data to effectuate disbursement of
CARES Act funds. See Confederated Tribes of the
Chehalis Pls.’ Mot. for TRO and Prelim. Injunction,
ECF No. 3 [hereinafter Chehalis Mot.], Kanji Decl., Ex.
2, ECF No. 3-8 at 15-16 [hereinafter Certification]. 1
The Certification sought the following information:
(1) “Name of Indian Tribe”;
(2) “Population,” defined as “Total number of Indian
Tribe Citizens/Members/Shareholders, as of January 1,
2020”;
(3) “Land Base,” defined as “Total number of land
acres held by the Indian Tribe and any tribally-owned
entity (to include entities in which the Indian Tribe
maintains at least 51% ownership) as of January 1, 2020”
noting that such lands would “include lands held in trust
by the United States, owned in restricted fee status,

Unless otherwise noted, all citations to the docket refer to the
Confederated Tribes of the Chehalis Reservation et al. v. Mnuchin
docket, Case No. 20-cv-1002 (APM).
1

91a
owned in fee, or selected pursuant to the Alaska Native
Claims Settlement Act”;
(4) “Employees,” defined as “Total number of persons employed by the Indian Tribe and any triballyowned entity (to include entities in which the Indian
Tribe maintains at least 51% ownership) on January 1,
2020”; and,
(5) “Total expenditures for the most recently completed fiscal year.”
Id. The Certification is notable in that it identifies metrics specific to ANCs. ANCs, and not traditional Tribes,
have “shareholders.” And the Certification asked for
land base information for lands “selected pursuant to
the Alaska Native Claims Settlement Act.” Federally
recognized tribes understood from the terms of the Certification that the Secretary had deemed ANCs eligible
for Title V funds, and immediately protested this apparent decision. See Cheyenne River Sioux Tribe Pls.’
Mot. for TRO and Prelim. Inj., Mem. of P. & A. in Support of Mot., ECF No. 4 [hereinafter Cheyenne River
Mot.], Ducheneaux Decl., Exs. A-E, ECF No. 4-1 (letters from representatives of various tribal governments
to Secretary Mnuchin, dated April 13, 2020, through
April 16, 2020, asking that the Secretary not allow ANCs
to be counted as Tribal governments under the CARES
Act). 2

Citations to the filings by the Cheyenne River Sioux Tribe Plaintiffs are found on the docket in Cheyenne River Sioux Tribe et al.
v. Mnuchin, 20-cv-1059 (APM).
2

92a
Four days later, on April 17, 2020, the first of three
suits was filed challenging the Secretary’s ostensible
treatment of ANCs as eligible for funding under Title V
of the CARES Act. The Confederated Tribes of the
Chehalis Reservation, the Tulalip Tribes, the Houlton
Band of Maliseet Indians, the Akiak Native Community,
the Asa’carsarmiut Tribe, and the Aleut Community of
St. Paul Island (collectively, “Chehalis Plaintiffs”) filed
an action against the Secretary under the Administrative Procedure Act (“APA”). Chehalis Compl., ECF
No. 1. As amended, the single-claim complaint alleges
that the Secretary’s designation of ANCs as eligible to
receive Title V funds was arbitrary, capricious, an abuse
of discretion, or otherwise not in accordance with law.
Chahalis Am. Compl., ECF No. 7 [hereinafter Chahalis
Am. Compl.], ¶ 119-22. Three days later, Plaintiffs
moved for a temporary restraining order and preliminary injunctive relief. See Chehalis Mot. They ask
the court both to enjoin the Secretary from disbursing
any Title V funds to ANCs and to order the Secretary to
disburse all $8 billion to federally recognized tribes.
Chehalis Am. Compl. ¶ 123; Chehalis Mot., Proposed Order, ECF No. 3-7. Plaintiffs then filed an amended
complaint, which added the Navajo Nation; Quinault Indian Tribe; Pueblo of Picuris; Elk Valley Rancheria,
California; and San Carlos Apache Tribe as plaintiffs.
See Am. Chehalis Compl., ECF No. 7 [hereinafter Am.
Compl.]. Plaintiffs again brought the same single count
for violations of the APA. Id. ¶¶ 117-23.
Two other lawsuits followed. Plaintiffs Cheyenne
River Sioux Tribe, Oglala Sioux Tribe, and Rosebud
Sioux Tribe (collectively, “Cheyenne River Plaintiffs”)
filed their suit on April 22, 2020, see Cheyenne River

93a
Compl., ECF No. 1, and moved for preliminary injunctive relief the same day, see Cheyenne River Mot. 3
Plaintiff Ute Indian Tribe of the Uintah and Ouray Reservation filed a third lawsuit and motion for a temporary
restraining order the next day. See Ute Compl., ECF
No. 1; Mot. for TRO and Prelim. Inj., ECF No. 5. 4 The
court consolidated all three cases. See Docket 20-cv1070, Minute Order, April 24, 2020; Docket 20-cv-1059,
Minute Order, April 23, 2020.
A number of amici curiae submitted briefs in support
of and in opposition to Plaintiffs’ motions. The Alaska
Native Village Corporation Association (“ANVCA”), a
non-profit corporation that represents 177 Alaska Native village corporations, and the Alaska Native Claims
Settlement Act Regional Association (“ARA”), a nonprofit association whose mission is to “promote and foster continued growth and economic strength of the
Alaska Native regional corporations for the benefit of
their Alaska Native shareholders and communities,”
filed a joint brief supporting the ANCs’ eligibility for Title V funding. See Br. of Amici Curiae, ECF No. 24
[hereinafter ANVCA Br.], at 1-2.
Ahtna, Inc., an
Alaska Native Regional Corporation created pursuant
to ANCSA, also filed an amicus brief supporting the Secretary. Br. of Amicus Curiae Ahtna, Inc., ECF No. 23

On April 24, 2020, the Cheyenne River Plaintiffs filed an Amended
Complaint, which added Nondalton Tribal Council, Arctic Village
Council, and Native Village of Venetie Tribal Government as plaintiffs. See Cheyenne River Am. Compl.
4
Citations to the filings by the Ute Tribe Plaintiffs are found on
the docket in Ute Tribe of the Uintah and Ouray Reservation v.
Mnuchin, 20-cv-1070 (APM).
3

94a
[hereinafter Ahtna Br.], at 1. Additionally, the National Congress of American Indians along with a group
of national and regional organizations of federally recognized Indian tribes, and the Native American Finance
Officers Association, the Gila River Indian Community,
the Penobscot Nation, and the Nottawaseppi Huron Band
of the Potawatomi filed their own amicus briefs supporting Plaintiffs’ position. See generally Br. of Amici Curiae National Congress of American Indians, et al., ECF
No. 20; Amicus Curiae Br. of the Native American Finance Officers Association, the Gila River Indian Community, the Penobscot Nation, and the Nottawaseppi
Huron Band of the Potawatomi, ECF No. 25.
On April 22, 2020, Defendant moved for an extension
to oppose the pending motions. See Def.’s Mot. for Extension of Time, ECF No. 9. In its motion, Defendant
represented that the Secretary “has not yet arrived at a
final decision on the question whether Alaska native corporations qualify as ‘Tribal governments’ under Title V
of the CARES Act.” Id. at 1. In a status hearing the
following day, counsel for Defendant reiterated that the
Secretary still had made no determination as to whether
ANCs would be eligible for Title V funding. Later that
day, however, the Secretary announced a firm position.
In a posting on the agency’s website, the Secretary
stated that, “[a]fter consultation with the Department of
the Interior, Treasury has concluded that Alaska Native
regional and village corporations as defined in or established pursuant to the Alaska Native Claims Settlement
Act are eligible to receive payments from the Fund in
the amounts to be determined by the Secretary of the

95a
Treasury.” U.S. TREASURY DEP’T, CORONAVIRUS RELIEF FUND PAYMENTS TO TRIBAL GOVERNMENTS (April
23, 2020) (footnote omitted). 5

The court heard argument on Plaintiffs’ motions the
next day, April 24, 2020. See Minute Entry, April 24,
2020. Plaintiffs contend that ANCs are not eligible for
Title V funding under the CARES Act, because no ANC
meets the statutory definition of “Tribal government”—
i.e., no ANC or ANC board of directors is “the recognized governing body of an Indian tribe.” 42 U.S.C.
§ 801(g)(5). Plaintiffs’ argument is essentially twofold: ANCs are not “Indian Tribes” under the ISDEAA
definition incorporated into the CARES Act, and no
ANC board of directors qualifies as a “recognized governing body.” Chehalis Mot. at 16-21; Cheyenne Mot.
at 20-27. Defendant, on the other hand, argues that
ANCs are treated as “Tribal governments” under
ISDEAA, relying primarily on a Bureau of Indian Affairs interpretation of the ISDEAA definition, upheld as
reasonable by the Ninth Circuit over thirty years ago.
Def.’s Cons. Opp’n to Pls.’ Mot. for TRO and Prelim.
Inj., ECF No. 21 [hereinafter Def.’s Opp’n] at 8-10 (citing Cook Inlet, 810 F.2d 1471). Defendant also contends that Plaintiffs have failed to demonstrate irreparable harm, id. at 19-22, and that, in any case, the Secretary’s decision to disburse funds is committed to his
discretion and is therefore unreviewable, id. at 7-8.
Following the hearing on Plaintiffs’ motions, the Secretary confirmed that no Title V funds will be released

https://home.treasury.gov/system/files/136/Coronavirus-ReliefFund-Payments-to-Tribal-Governments.pdf.
5

96a
to Tribal governments until April 28, 2020.
to Court, ECF No. 32.

See Notice

III.
Before turning to the merits of Plaintiffs’ requested
relief, the court addresses a threshold contention made
by Defendant. Defendant asserts that the Secretary’s
“ongoing decisions about how to implement an emergency relief fund . . . is not properly subject to judicial oversight.” Def.’s Opp’n at 7. The CARES Act
commits to the Executive Branch the decision how to allocate emergency relief payments, id. (citing 42 U.S.C.
§ 801(c)(7) (“[T]he Secretary shall determine” the amount
of the payments, which are to be made “in such manner
as the Secretary determines appropriate”)), and therefore, Defendant contends, such a discretionary determination is beyond the court’s authority to review under
the APA, see id. That argument fails.
The D.C. Circuit recently explained that there are
two categories of unreviewable discretionary agency actions, those that are “presumed immune from judicial
review” and those that are presumptively reviewable
but involve “rare instances where statutes are drawn in
such broad terms that in a given case there is no law to
apply.” Physicians for Soc. Responsibility v. Wheeler,
No. 19-5104, 2020 WL 1921539, at *4 (D.C. Cir. Apr. 21,
2020) (citing Heckler v. Chaney, 470 U.S. 821, 832 (1985),
and Citizens to Preserve Overton Park, Inc. v. Volpe,
401 U.S. 402, 410 (1971)). Defendant’s argument falls
into the former category. In Lincoln v. Vigil, the Supreme Court observed that “[t]he allocation of funds
from a lump-sum appropriation is another administrative decision traditionally regarded as committed to

97a
agency discretion.” 508 U.S. 182, 192 (1993). Such decisions are treated as presumptively unreviewable, because “an agency’s allocation of funds from a lump-sum
appropriation requires ‘a complicated balancing of a
number of factors which are peculiarly within its expertise.’ ” Id. at 193 (quoting Heckler, 470 U.S. at 831).
The Court added, however, that “an agency is not free
simply to disregard statutory responsibilities: Congress may always circumscribe agency discretion to allocate resources by putting restrictions in the operative
statutes.” Id.
That is precisely what Congress did here. True,
Congress allocated a lump-sum amount for the Secretary to allocate to “Tribal governments.” 42 U.S.C.
§ 801(a)(2)(B). But it also circumscribed the agency’s
discretion by supplying a concrete definition of “Tribal
government” against which to measure eligibility for Title V funds and, correspondingly, for the court to conduct judicial review. See id. § 801(g)(5). Thus, while
the Secretary’s decisions as to how much to disburse
might not be reviewable, 6 his decisions concerning to
whom to disburse those funds most certainly is. Cf.
Milk Train, Inc. v. Veneman, 310 F.3d 747, 752 (D.C.
Cir. 2002) (holding that Congress’s limitation on
agency’s “authority to disburse funds” provided a “statutory reference point” for judicial review).
Relatedly, Defendant argues that the Secretary’s decision is insulated from review, because it is in the na-

This observation should not be construed as a holding. The
court offers no opinion as to whether it would be foreclosed from reviewing a decision on how much to award a particular Tribal government in Title V funds.
6

98a
ture of a “time-pressed determination . . . to address a public health emergency.” Def.’s Opp’n at 7.
But Defendant cites no authority to support the contention that his decision to make funds available to a particular entity—even in contravention of a statutory mandate
—evades judicial review simply because Congress appropriated the funds to address an emergency. Curran v. Laird, relied on by Defendant, Def.’s Opp’n at
7-8, is a different case. It concerned “decisions relating to the conduct of national defense” that lie outside
the bounds of judicial reviewability. Curran, 420 F.2d
122, 128-29 (D.C. Cir. 1969). The Secretary’s decision
here, by contrast, concerns appropriations for domestic
emergency spending that is cabined by specific statutory terms. The mere emergency nature of the funding does not render it unreviewable. Cf. Milk Train,
310 F.3d at 752 (“By providing in the 2000 Appropriations Act that the moneys are for ‘economic losses incurred during 1999,’ Congress limited the Secretary’s
authority to disburse funds.” (internal citation omitted)).
Finally, Defendant asserts that, because Title V contains a provision that authorizes the Treasury Department’s Inspector General to recoup payments, Congress
somehow signaled that it “did not intend judicial oversight of the manner in which the funds are distributed.”
Def.’s Mot. at 8 (citations omitted). There is nothing in
the text of the CARES Act relating to the powers of the
Inspector General, however, that would overcome the
“strong presumption of reviewability under the [APA].”
Physicians for Soc. Responsibility, 2020 WL 1921539 at
*4 (quoting Steenholdt v. FAA, 314 F.3d 633, 638 (D.C.
Cir. 2003)).

99a
IV.

The court turns now to the heart of Plaintiffs’ motions. Injunctive relief is an “extraordinary and drastic remedy” that is “never awarded as [a matter] of
right.” Munaf v. Geren, 553 U.S. 674, 689-90 (2008) (citations and internal quotation marks omitted). A court
may only grant the “extraordinary remedy . . . upon a
clear showing that the plaintiff is entitled to such relief.”
Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 22
(2008) (citing Mazurek v. Armstrong, 520 U.S. 968, 972
(1997) (per curiam)). Specifically, Plaintiffs must show
that they are: (1) “likely to succeed on the merits”; (2)
“likely to suffer irreparable harm in the absence of preliminary relief ”; (3) “the balance of equities tips in
[their] favor”; and (4) “an injunction is in the public interest.” Winter, 555 U.S. at 20. Where, as here, the
federal government is the opposing party, the balance of
equities and public interest factors merge. See Nken
v. Holder, 556 U.S. 418, 434 (2009).
In this jurisdiction, courts evaluate the four preliminary injunction factors on a “sliding scale”—if a “movant
makes an unusually strong showing on one of the factors,
then it does not necessarily have to make as strong a showing on another factor.” Davis v. Pension Benefit Guar.
Corp, 571 F.3d 1288, 1291-92 (D.C. Cir. 2009). Winter v.
Natural Resources Defense Council, however, called
that approach into question and raised doubts over
whether the “sliding scale” framework continues to apply, or whether a movant must make a positive showing
on all four factors without discounting the importance of
one factor simply because one or more other factors
have been convincingly established. See Davis, 571
F.3d at 1296 (Kavanaugh, J., concurring) (“[T]he old

100a
sliding-scale approach to preliminary injunctions—
under which a very strong likelihood of success could
make up for a failure to show a likelihood of irreparable
harm, or vice versa—is ‘no longer controlling, or even
viable.’ ”) (quoting Am. Trucking Ass’ns v. City of Los
Angeles, 559 F.3d 1046, 1052 (9th Cir. 2009)); but see
Archdiocese of Washington v. Washington Metro. Area
Transit Auth., 897 F.3d 314, 334 (D.C. Cir. 2018) (explaining that the D.C. Circuit “has not yet decided
whether Winter . . . is properly read to suggest a
‘sliding scale’ approach to weighing the four factors be
abandoned”).
In the absence of a D.C. Circuit decision overruling
it, the sliding scale framework remains binding precedent that this court must follow. “[D]istrict judges,
like panels of [the D.C. Circuit], are obligated to follow
controlling circuit precedent until either [the D.C. Circuit], sitting en banc, or the Supreme Court, overrule it.”
United States v. Torres, 115 F.3d 1033, 1036 (D.C. Cir.
1997). Accordingly, at a minimum, a plaintiff seeking
preliminary injunctive relief “must make a ‘clear showing that four factors, taken together, warrant relief.’ ”
League of Women Voters of U.S. v. Newby, 838 F.3d 1, 6
(D.C. Cir. 2016) (quoting Pursuing Am.’s Greatness v.
FEC, 831 F.3d 500, 505 (D.C. Cir. 2016)). While the
sliding scale does not absolve Plaintiffs of their burden
to make an independent showing on each of the four factors, it “allow[s] that a strong showing on one factor
could make up for a weaker showing on another.”
Sherley v. Sebelius, 644 F.3d 388, 392 (D.C. Cir. 2011).
“It is in this sense that all four factors ‘must be balanced
against each other.’ ” Davis, 571 F.3d at 1292 (quoting
Davenport v. Int’l Bhd. of Teamsters, 166 F.3d 356, 361

101a
(D.C. Cir. 1999)). The weighing of the four factors is
within the district court’s discretion. See id. at 1291.
V.
A.

Irreparable Harm

The court begins with irreparable harm. A plaintiff
seeking injunctive relief must “demonstrate that irreparable injury is likely in the absence of an injunction.”
Winter, 555 U.S. at 22. To make such a showing, a
plaintiff must demonstrate an injury that is “both certain and great, actual and not theoretical, beyond remediation, and of such imminence that there is a clear and
present need for equitable relief to prevent irreparable
harm.” Mexichem Specialty Resins, Inc. v. EPA, 787
F.3d 544, 555 (D.C. Cir. 2015) (emphasis and internal
quotation marks omitted).
Plaintiffs easily satisfy their burden to show that
they will suffer irreparable injury in the absence of immediate injunctive relief. The $8 billion dollars allocated by Congress for “Tribal governments” is a fixed
sum that Plaintiffs and other Tribal governments are
entitled to receive to cover costs of combatting the
COVID-19 pandemic in their communities. See 42
U.S.C. § 801(d). Any dollars improperly paid to ANCs
will reduce the funds to Plaintiffs. And, once disbursed, those funds will not be recoverable by judicial
decree. 7 See City of Houston, Tex. v. Dep’t of Hous. &
During oral argument, Defendant suggested that funds improperly allocated to ANCs could be recovered by the agency’s Inspector General under his statutory recoupment authority. See
Hr’g Tr. at 45. That seems unlikely. Title V empowers the agency’s Inspector General to recoup funds if he “determines that a
State, Tribal government, or unit of local government has failed to
7

102a
Urban Dev., 24 F.3d 1421, 1424 (D.C. Cir. 1994) (“It is a
well-settled matter of constitutional law that when an
appropriation has lapsed or has been fully obligated,
federal courts cannot order the expenditure of funds
that were covered by that appropriation.”); Ambach v.
Bell, 686 F.2d 974, 986 (D.C. Cir. 1982) (holding that “interim relief ” was proper in a case in which plaintiff
States challenged the agency’s formula for distributing
educating funding, because, “[o]nce the . . . funds
are distributed to the States and obligated, they cannot
be recouped”). 8 Thus, “[i]t will be impossible in the absence of a preliminary injunction to award the plaintiffs
the relief they request if they should eventually prevail
on the merits.” Ambach, 686 F.2d at 986.
Defendant nevertheless maintains that Plaintiffs have
failed to establish irreparable harm, asserting that any
comply with subsection (d).” 42 U.S.C. § 801(f )(2). Subsection
(d) limits use of Title V dollars to “expenditures incurred [from
March 1, 2020, to December 30, 2020] due to the public health emergency” that “were not accounted for in the budget most recently
approved.” Id. § 801(d). The statute, therefore, does not appear
to grant authority to the Inspector General to recoup monies that,
say, are improperly disbursed to ANCs. Moreover, the statute
directs that any recouped funds “shall be deposited in the general
fund of the Treasury.” Id. § 801(f )(2). Thus, even if the Inspector General could recover funds, there is no guarantee that those
funds would be redistributed to qualifying Tribal governments.
8
Defendant argues in a footnote that City of Houston and Ambach
cannot stand for the proposition that the “inability to recover funds
after they are obligated constitutes irreparable harm ‘as a matter of
law.’ ” Def.’s Opp’n at 19 n.14. The court makes no such holding.
The court’s finding of irreparable harm is premised not solely on the
inability to recover allocated funds, but also the purpose for which
Congress allocated those funds and the serious effect diminishing
those funds will have on Plaintiffs.

103a
injury arising from reduced CARES Act funds would be
“economic in nature.” Def.’s Mot. at 20; see Safari
Club Int’l v. Salazar, 852 F. Supp. 2d 102, 120 (D.D.C.
2012) (stating the rule in this Circuit that “economic
harm alone is generally not sufficient to warrant . . .
granting of a motion for a preliminary injunction”).
But to characterize Plaintiffs’ claimed harm as merely
“economic” is terribly misguided. These are not funds
appropriated to carry out secondary or residual government functions. These are monies that Congress appropriated on an emergency basis to assist Tribal governments in providing core public services to battle a
pandemic that is ravaging the nation, including in Indian
country. As Plaintiffs’ declarants establish, COVID-19
and the public health measures necessary to combat the
novel coronavirus have caused their regular streams of
revenue to run dry, creating a crisis in funding needed
to deliver health care, procure medical equipment and
supplies, and provide meals and expand food banks—
just to name a few ways in which the CARES Act funds
would be put to use. See Chehalis Mot. at 30-33; Cheyenne River Mot. at 32-34. The diminishment of these
funds, which cannot be recovered once disbursed, makes
“a very strong showing of irreparable harm.” Davis,
571 F.3d at 1292.
Defendant asserts that Plaintiffs cannot show irreparable injury for another reason. Defendant argues
that Plaintiffs have not established that “the delta between the payment amounts they stand to receive under
Defendant’s determination, and the amounts they would
receive if ANCs were excluded, would make the difference between irreparable harm or not.” Def.’s Mot. at
20. But demanding such a “delta” from Plaintiffs imposes an impossible burden. After all, Defendant has

104a
not publicly confirmed how he will divide up the $8 billion that Congress allocated for “Tribal governments.”
Absent some indication of the actual formula that Defendant is using to make allocation decisions, Plaintiffs
are in no position to identify the loss “delta” they will
suffer if ANCs are awarded Title V dollars.
From what is publicly known, however, the potential
“delta” could be significant. On April 13, 2020, Defendant published a “Certification for Requested Tribal
Data” form on the Agency’s website, which sought certain information from Tribal government applicants for
Title V funds. Chahalis Am. Compl. ¶ 101. Submission of the requested information is a condition of funding. Id. Defendant requested “Population” data from
applicants, which included the number of “Shareholders.” Id. ¶ 102. It also asked for information about
“Land Base,” which included “lands . . . selected pursuant to the Alaska Native Claims Settlement Act.” Id.
¶ 103; Certification. An internal agency document
leaked to the media three days later shows that, if Defendant were to disburse Title V funds based on “Population,” “Land Base,” and other data, ANCs could receive a substantial share of Title V funds. See Cheyenne River Mot. at 18. The leaked document shows
that ANCs comprised 32.6% of the total population
listed for all Tribal governments; 45.2% of the total land
base; 16.6% of total employees; and 11% of total expenditures for the most recent completed year. See id;
Sealed Mot. for Leave to File Document Under Seal, Ex.
2, ECF No. 5-2. If the agency were to base its allocation decisions on such data, using it as a proxy for need,
ANCs stand to reap a considerable percentage of Title

105a
V funds. The “delta” suffered by Plaintiffs therefore
could be substantial. 9
To be fair, since the start of this case, Defendant has
maintained that its allocation formula remains a work in
progress and that the data sought in the Certification
should not be understood as proxies for how much funding a Tribal government will receive. Yet, it is this very
uncertainty that amplifies the likelihood of harm. The
agency has said that it will disclose how it made funding
decisions; however, it has not committed to making that
information public before disbursing the funds. But
once those dollars are committed, Plaintiffs will have no
path to recover them. See supra at 15-16 & n.7. Their
injury therefore will be irreparable absent injunctive relief.

Curiously, there is no indication on the present record that the
agency has considered data that matches the actual statutory criteria for disbursement of Title V funds to Tribal governments. The
CARES Act provides that:
9

the amount paid . . . to a Tribal government shall be the
amount the Secretary shall determine, in consultation with the
Secretary of the Interior and Indian Tribes, that is based on
increased expenditures of each such Tribal government (or a
tribally-owned entity of such Tribal government) relative to
aggregate expenditures in fiscal year 2019 by the Tribal government (or tribally-owned entity) and determined in such
manner as the Secretary determines appropriate to ensure
that all amounts available under subsection (a)(2)(B) for fiscal
year 2020 are distributed to Tribal governments.
42 U.S.C. § 801(c)(7) (emphasis added). Nothing on the present record suggests that the agency is making allocation decisions based, at
least in part, on “increased expenditures” during the present fiscal
year.

106a
B.

Likelihood of Success

Having found a strong case of irreparable harm, the
court turns to the other key factor—likelihood of success on the merits. See Nken, 556 U.S. at 434 (“The
first two factors of the traditional standard are the most
critical.”). Recall that under the “sliding scale” approach, “if the movant makes a very strong showing of
irreparable harm and there is no substantial harm to the
non-movant, then a correspondingly lower standard can
be applied for likelihood of success.”
Davis, 571 F.3d at 1292. That is not to say that a
movant for whom the other three factors “clearly favor[]” injunctive relief can succeed by making only a
modest showing of likelihood of success. Id. (quoting
Washington Metro. Area Transit Comm’n v. Holiday
Tours, Inc., 559 F.2d 841, 843 (D.C. Cir. 1977)). Rather, likelihood of success remains a “foundational requirement” for injunctive relief. Guedes v. Bureau of
Alcohol, Tobacco, Firearms & Explosives, 920 F.3d 1, 10
(D.C. Cir. 2019). As the court considers Plaintiffs’ likelihood of success it bears in mind that the other factors
of irreparable harm—as discussed above—and the balancing of the equities—as will be seen below—“clearly
favor[]” injunctive relief. Davis, 571 F.2d at 1292.
1. In determining whether Congress intended for
ANCs to be eligible for CARES Act funds, the court begins, as required, with the statutory text. See Desert
Palace, Inc. v. Costa, 539 U.S. 90, 98 (2003) (stating that
the “starting point” for statutory analysis “is the statutory text”). Title V of the CARES Act allocates $8
billion “for making payments to Tribal governments.”
42 U.S.C. § 801(a)(2)(B). The Act defines the term
“Tribal government” to mean “the recognized governing

107a
body of an Indian Tribe.” Id. § 801(g)(5). The Act
also defines “Indian Tribe,” giving it the same meaning
as “that term in section 5304(e) of title 25”—a crossreference to the definition of “Indian Tribe” under
ISDEAA. Id. § 801(g)(1). ISDEAA, in turn, defines
“Indian tribe” as follows:
[A]ny Indian tribe, band, nation, or other organized
group or community, including any Alaska Native village or regional or village corporation as defined in
or established pursuant to the Alaska Native Claims
Settlement Act (85 Stat. 688), which is recognized as
eligible for the special programs and services provided by the United States to Indians because of their
status as Indians.
25 U.S.C. § 5304(e). Thus, taken together, Congress
allocated $8 billion in the CARES Act “for making payments to” “the recognized governing body of ” “any Indian tribe, band, nation, or other organized group or
community, including any Alaska Native village or regional village corporation . . . , which is recognized
as eligible for the special programs and services provided by the United States to Indians because of their
status as Indians.” See 42 U.S.C. § 801(a)(2)(B), (g)(1),
(g)(5); 25 U.S.C. § 5304(e).
According to Plaintiffs, ANCs are not “Tribal governments,” and thus are ineligible for funds under Title
V of the CARES Act, for two reasons. First, they contend, ANCs are not “Indian Tribes” under the ISDEAA
definition incorporated into the CARES Act, because no
known ANC satisfies the limiting clause at the end of
ISDEAA definition’s —“which is recognized as eligible
for the special programs and services provided by the

108a
United States to Indians because of their status as Indians.” See Chehalis Mot. at 16-21. The court refers to
this text as the “eligibility clause.” Second, Plaintiffs
contend, no ANC board of directors qualifies as a “recognized governing body.” Id. at 21-24; Cheyenne Mot.
at 20-27. Both arguments rest, in part, on the contention that “recognition” is a term of art that is well understood in Indian law, and that no ANC has been “recognized” as “eligible for special programs and services
provided by the United States to Indians because of
their status as Indians” and, correspondingly, no ANC
board of directors has been “recognized” as the “governing body of an Indian tribe.” Chehalis Mot. at 19;
Cheyenne Mot. at 24-26.
For purposes of this preliminary injunction, the court
is persuaded that, presently, no ANC satisfies the definition of “Tribal government” under the CARES Act
and therefore no ANC is eligible for any share of the $8
billion allocated by Congress for Tribal governments.
For starters, neither Defendant nor any ANC amici has
identified an ANC that satisfies the eligibility clause under ISDEAA’s definition of Indian Tribe; that is, no
ANC “is [presently] recognized as eligible for the special
programs and services provided by the United States
to Indians because of their status as Indians.” See 25
U.S.C. § 5304(e). As the Chehalis Plaintiffs point out,
under the interpretative rule known as the seriesqualifier canon, “[w]hen there is a straightforward, parallel construction that involves all nouns or verbs in a
series,” a modifier at the end of the list “normally applies to the entire series.” See Chehalis Pls.’ Reply in
Supp. of Mot. for TRO & Prelim. Inj., ECF No. 30, at 5
(quoting Lockhart v. United States, 136 S. Ct. 958, 970

109a
(2016) (Kagan, J., dissenting) (citing A. Scalia & B. Garner, READING LAW: THE INTERPRETATION OF LEGAL
TEXTS 147 (2012)); United States v. Laraneta, 700 F.3d
983, 989 (7th Cir. 2020) (“[T]he ‘series-qualifier’ canon
. . . provides that a modifier at the beginning or end
of a series of terms modifies all the terms.”)). Applying
that canon here, the eligibility clause applies equally to
all entities and groups listed in the statute, including
“any Alaska Native village or regional or village corporation.” As no known ANC satisfies ISDEAA’s eligibility clause, no ANC can partake in the $8 billion funding set aside for Tribal governments.
The court also agrees that the term “recognition” as
used in Indian law statutes is a legal term of art, and
that no ANC board of directors qualifies as a “recognized governing body” of an Indian Tribe. Cf. Mackinac Tribe v. Jewell, 87 F. Supp. 3d 127, 131 (D.D.C.
2015) (“Federal ‘recognition’ of an Indian tribe is a term
of art that conveys a tribe’s legal status vis-à-vis the
United State[s]. . . . ”), aff ’d, 829 F.3d 754 (D.C. Cir.
2016); see also Frank’s Landing Indian Cmty. v. Nat’l
Indian Gaming Comm’n, 918 F.3d 610, 613 (9th Cir.
2019) (“ ‘Federal recognition’ of an Indian tribe is a legal
term of art meaning that the federal government
acknowledges as a matter of law that a particular Indian
group has tribal status.”). “[I]t is a ‘cardinal rule of
statutory construction’ that, when Congress employs
a term of art, ‘it presumably knows and adopts the
cluster of ideas that were attached to each borrowed
word in the body of learning from which it was taken.’ ”
FAA v. Cooper, 566 U.S. 284, 292 (2012) (quoting Molzof v. United States, 502 U.S. 301, 307 (1992)). That
rule of interpretation is particularly apt for statutes con-

110a
cerning Indians. Federal recognition is “a formal political act confirming the tribe’s existence as a distinct
political society, and institutionalizing the governmentto-government relationship between the tribe and the
federal government.”
Cal. Valley Miwok Tribe v.
United States, 515 F.3d 1262, 1263 (D.C. Cir. 2008)
(quoting COHEN’S HANDBOOK OF FEDERAL I NDIAN LAW
§ 3.02[3], at 138 (2005 ed.)); see also Chehalis Mot. at 19
(quoting H.R. Rep. No. 103-781, at 2-3 (1994) (stating
that recognition means a “formal political act, [which]
permanently establishes a government-to-government
relationship between the United States and the recognized tribe as a ‘domestic dependent nation’ ”). “The
definition of ‘recognition’ has evolved over time but historically the United States recognized tribes through
treaties, executive orders, and acts of Congress.”
Mackinac Tribe, 829 F.3d at 755. Today, uniform procedures exist through the Bureau of Indian Affairs for a
group to seek formal recognition. See id. at 756. As a
legal term of art then, Congress’s decision to qualify
only “recognized governing bod[ies]” of Indian Tribes
for CARES Act funds must be viewed through this historical lens. And no ANC board of directors satisfies
that criteria. Cf. Seldovia Native Ass’n v. Lujan, 904
F.2d 1335, 1350 (9th Cir. 1990) (holding that a village
corporation “is not a governmental unit with a local governing board organized under the Indian Reorganization Act . . . [and thus] does not meet one of the
basic criteria of an Indian tribe” (citation omitted)).
Context also supports Plaintiffs’ reading of the
CARES Act. See Robinson v. Shell Oil Co., 519 U.S.
337, 341 (1997) (“The plainness or ambiguity of statutory
language is determined by reference to the language itself, the specific context in which that language is used,
2.

111a
and the broader context of the statute as a whole.”).
Congress placed monies for “Tribal governments” in the
same title of the CARES Act as funding for other types
of “governments.” 42 U.S.C. § 801(a)(1). Title V appropriates money “for making payments to States,
Tribal governments, and units of local government.”
Id.. “State” is defined as “the 50 States, the District of
Columbia, the Commonwealth of Puerto Rico, the
United States Virgin Islands, Guam, the Commonwealth
of the Northern Mariana Islands, and American Samoa.” Id. § 801(g)(4). The term “unit of local government” is also defined, and it means “a county, municipality, town, township, village, parish, borough, or other
unit of general government below the State level with a
population that exceeds 500,000.”
Id. § 801(g)(2).
The term “Tribal government” must be read in this context. See Lagos v. United States, 138 S. Ct. 1684, 168889 (2018) (referencing “noscitur a sociis, the well-worn
Latin phrase that tells us that statutory words are often
known by the company they keep”). A “government”
is commonly understood to refer to “[t]he sovereign
power in a country or state” or “organization through
which a body of people exercises political authority; the
machinery by which sovereign power is expressed.”
Government, BLACK’S LAW DICTIONARY (11th ed. 2019);
see also Government, MERRIAM-WEBSTER DICTIONARY
(“[T]he body of persons that constitutes the governing
authority of a political unit or organization,” or “the organization, machinery, or agency through which a political unit exercises authority and performs functions and
which is usually classified according to the distribution

112a
of power within it”). 10 Reading the CARES Act to allow the Secretary to disburse Title V dollars to for-profit
corporations does not jibe with the Title’s general purpose of funding the emergency needs of “governments.”
See Richards v. United States, 369 U.S. 1, 9 (1962) (explaining that a court must “start with the assumption
that the legislative purpose is expressed by the ordinary
meaning of the words used” by Congress.”).
Defendant and the ANC Amici advance their
own textual analysis of the ISDEAA definition of “Indian tribe.” Echoing the rationale of the Ninth Circuit’s decision in Cook Inlet, 810 F.2d at 1474, Defendants and ANC Amici argue that to apply the eligibility
clause to ANCs would read the words “regional or village corporation” out of the statute because ANCs cannot satisfy the eligibility clause. Def.’s Mot. at 10-11;
Ahtna Br. at 20-21. ANCs cannot satisfy that clause
because, as corporations organized under state law, they
cannot be “recognized” as “eligible for special programs
and services provided by the United States to Indians
because of their status as Indians.” So, Defendant and
the ANC Amici maintain, the court must not apply the
eligibility clause to those entities so as to give meaning
to their placement in the statute. Id.
3.

The court is unpersuaded. To be sure, courts must
“interpret a statute to give meaning to every clause and
word.” Donnelly v. FAA, 411 F.3d 267, 271 (D.C. Cir.
2005). But the court cannot ignore the clear grammatical construct of the ISDEAA definition, which applies
the eligibility clause to every entity and group listed in

10

https://www.merriam-webster.com/dictionary/government.

113a
the statute. The possibility that ANCs might not qualify under the eligibility clause is hardly fatal to carrying
out Congress’s purpose under ISDEAA. “Alaska Native village[s]” are also in the statute. They can and do
satisfy the eligibility clause—in fact, there are 229 federally recognized Alaska Native villages, see Chehalis
Mot. at 18. Alaska Native villages are therefore able
to fulfill ISDEAA’s purpose of allowing Indian tribes to
assume responsibility for federal aid programs that benefit its members; Congress expressed no preference for
ANCs to fulfill the statute’s objectives. Accordingly,
the ISDEAA definition of “Indian tribe” does not compel reading the eligibility clause to not apply to ANCs,
as Defendant and the ANC Amici posit.
4. Defendant and the ANCs rely heavily on agency
guidance and case law to advance their position. See
Def.’s Opp’n at 9-10; Ahtna Br. at 18-19. Those sources,
Defendants assert, support reading the eligibility clause
under ISDEAA as not applying to ANCs, contrary to
the statute’s plain text. Defendant, for instance, points
out that “immediately after this definition was passed in
1975 as part of ISDEAA, the Bureau of Indian Affairs
(“BIA”) interpreted the [eligibility] clause not to apply
to ANCs—i.e., that they need not satisfy the recognition
clause.” Def.’s Opp’n at 9. Evidently, BIA adheres to
that interpretation today. 11 Additionally, Defendant
and the ANC amici cite Cook Inlet, in which the Ninth

Defendant does not cite to any contemporary guidance from BIA
regarding the ISDEAA definition that could confirm that the agency
continues to adhere to its original interpretation. However, all parties appear to agree that BIA has not deviated from its original interpretation.
11

114a
Circuit confirmed BIA’s reading of ISDEAA as “reasonable” and held that ANCs can be considered “Indian
Tribes” for purposes of ISDEAA. 810 F.2d at 1476.
These citations to long-standing agency interpretation
and a decades-old Ninth Circuit decision, the court is
told, bear on Congress’s present-day intent to include
ANCs for funding under Title V. The unstated assumption of this argument is that Congress is presumed
to have known about these interpretations of ISDEAA
and, by incorporating its definition of “Indian tribe” into
the CARES Act, Congress meant to make ANCs eligible
for Title V funding. Though not without some appeal,
this argument is flawed for at least three reasons.
First, it is counter-textual. As discussed, a straightforward reading of the eligibility clause of the ISDEAA
definition cannot be reasonably construed to exclude
ANCs. Agency interpretations to the contrary, even if
well-settled, cannot override congressional intent conveyed through a statute’s plain text. See SEC v. Sloan,
436 U.S. 103, 118 (1978) (“[C]ourts are the final authorities on issues of statutory construction, and are not
obliged to stand aside and rubber-stamp their affirmance of administrative decisions that they deem inconsistent with a statutory mandate or that frustrate the
congressional policy underlying a statute.” (internal
quotation marks and citation omitted)); Carlson v.
Postal Regulatory Comm’n, 938 F.3d 337, 349 (D.C. Cir.
2019) (“Even an agency’s consistent and longstanding
interpretation, if contrary to statute, can be overruled.”). Nor can a judicial decision supplant the clear
text of a statute, no matter how longstanding. See
Milner v. Dep’t of Navy, 562 U.S. 562, 576 (2011) (rejecting argument that lower court decision should stand because it had been followed and relied upon for 30 years,

115a
“because we have no warrant to ignore clear statutory
language on the ground that other courts have done so”).
ISDEAA’s plain meaning therefore surmounts any contrary agency or judicial interpretation.
Second, the administrative and judicial interpretations put forward by Defendant and the ANC amici are
not as definitive as they appear at first blush. It is true
that “[w]hen administrative and judicial interpretations
have settled the meaning of an existing statutory provision, repetition of the same language in a new statute
indicates, as a general matter, the intent to incorporate
its administrative and judicial interpretations as well.”
See Bragdon v. Abbott, 524 U.S. 624, 645 (1998). But
that presumption turns on whether existing interpretations have “settled the meaning” of a statutory provision.
That simply is not the case here. For one, Cook Inlet
is but one judicial decision, and “a lone appellate case
hardly counts” as establishing a “ ‘judicial consensus so
broad and unquestioned that [a court] must presume
Congress knew of and endorsed it.’ ” United States v.
Garcia Sota, 948 F.3d 356, 360 (D.C. Cir. 2020) (quoting
Jama v. ICE, 543 U.S. 335, 349 (2005)). 12
More significantly, post-ISDEAA legislation and judicial decisions raise the possibility that Congress did
not mean to signal, by adopting the ISDEAA definition,
Defendant maintains that the continuing validity of Cook Inlet
is confirmed by a more recent decision from the Ninth Circuit, Cook
Inlet Treaty Tribes v. Shalala, 166 F.3d 986, 988 (9th Cir. 1999). See
Def.’s Opp’n at 9. But that more recent decision simply cites to Cook
Inlet as part of its factual recitation, see Cook Inlet Treaty Tribes,
166 F.3d at 988, and, in any event, a subsequent decision from the
same circuit does nothing to create a “broad and unquestioned” judicial consensus, Jama, 543 U.S. at 349.
12

116a
that ANCs are eligible for Title V funds. In 1994, some
two decades after enacting ISDEAA, Congress passed
the Federally Recognized Indian Tribe List Act of 1994
(“List Act”), Pub. L. No. 103-454, § 103, 108 Stat. 4791.
The List Act directed the Secretary of the Interior to
“publish in the Federal Register a list of all Indian tribes
which the Secretary recognizes to be eligible for the special programs and services provided by the United
States to Indians because of their status as Indians.”
25 U.S.C. § 5131(a). The Act’s purpose was to “maintain[ ] an accurate, up-to-date list of federally recognized tribes.” Koi Nation of N. Cal. v. Dep’t of Interior, 361 F. Supp. 3d 14, 59 (D.D.C. 2019). No ANC appears on the Secretary’s last-published list, as of January 30, 2020. See Indian Entities Recognized by and
Eligible to Receive Services from the United States Bureau of Indian Affairs, 85 Fed. Reg. 5,462 (Jan. 30,
2020). 13
Critically, since the List Act’s passage, the government has taken the position, and courts have agreed,
that the definition of “Indian tribe” in various federal
statutes must be read in conjunction with the List Act.
In other words, unless the entity or group appears on
the Secretary’s List, it does not qualify as an “Indian
tribe.” For instance, in Wyandot Nation of Kan. v.
United States, the Federal Circuit held that the plaintiff
was not a qualified “Indian tribe” permitted to demand
an accounting under the American Indian Trust Fund
The most recent list contains 574 federally recognized Indian
tribes, including 229 Alaska Native villages—including Plaintiffs
Akiak Native Community, Asa’carsarmiut Tribe, and Aleut Community of St. Paul Island. See Chehalis Mot. at 18; 85 Fed. Reg. at
5,466, 5,467.
13

117a
Management Reform Act (“Reform Act”), Pub. L. No.
103-412, 108 Stat. 4239 (1994), because the plaintiff “is
not on the list maintained by the Secretary of the Interior.” 858 F.3d 1392, 1396, 1397–98 (Fed. Cir. 2017).
The Reform Act’s definition of “Indian tribe” is identical to the ISDEAA definition of that term. Compare
25 U.S.C. § 4001(2) with 25 U.S.C. § 5304(e). Interpreting the very same statutory language at issue here,
the government in Wyandot argued that “a tribe cannot
be a recognized Indian tribe within the meaning of the
Reform Act unless it is recognized as such by the Secretary of the Interior under the List Act,” 858 F.3d at
1398, and even asserted that the eligibility clause found
in the Reform Act’s definition of “Indian Tribe”—that
is, the exact same clause contained in the ISDEAA definition of “Indian Tribe”—“is a phrase of art defined in
the List Act, 25 U.S.C. § [5131(a)],” Br. of United States
as Appellee, Wyandot Nation of Kansas v. United
States, No. 2016-1654 (Doc. 18), 2016 WL 4442763, *24,
*35 (Fed. Cir. Aug. 11, 2016). The Federal Circuit
“was persuaded that the List Act regulatory scheme exclusively governs federal recognition of Indian tribes.”
858 F.3d at 1398.
The decision in Slockish v. U.S. Fed. Highway Admin., 682 F. Supp. 2d 1178 (D. Or. 2010), supplies another
example. There, the statute at issue was the National
Historic Preservation Act, which defines “Indian tribe”
in the same exact way as under ISDEAA. Compare
54 U.S.C. § 300309 with 25 U.S.C. § 5304(e). The government argued there, as it did in Wyandot, that the
plaintiffs could not state a claim under the relevant statute, because they were “not federally recognized tribes.”
682 F. Supp. 2d at 1202 (citing the Secretary’s List as of

118a
December 19, 1988). The court agreed and dismissed
the plaintiffs’ claims. See id.
Defendant does not satisfactorily explain why, in
post-List Act cases like Wyandot and Slockish, the government has insisted that courts read the same definition of “Indian tribe” at issue here with the List Act, but
not in this case. But no matter. The point is that
when Congress incorporated the ISDEAA definition
into the CARES Act, it is entirely plausible for it to have
understood, based on cases like Wyandot and Slockish,
that CARES Act eligibility under Title V would be limited only to federally recognized tribes. Those cases,
along with the government’s post-List Act litigation positions, defeats the notion that the Ninth Circuit’s decision in Cook Inlet is such settled law that Congress used
that case’s understanding of the ISDEAA definition of
“Indian tribe” in the CARES Act. 14

Amici ANVCA and ARA make the additional point that in American Federation of Government Employees, AFL-CIO v. United
States (“AFGE”), 330 F.3d 513, 516 (D.C. Cir. 2003), the D.C. Circuit noted that certain Alaska Native Regional and village corporations qualify as “Indian Tribes” under ISDEAA. See Not. and
Request to Correct Procedural Defect, Not. of Controlling Authority, ECF No. 34. But amici overread AFGE. While they are correct that the court in AFGE referred to the ANCs at issue as “Indian Tribes” and cited to ISDEAA, the case sheds no light on the
issues relevant here. AFGE concerned an equal protection challenge to an appropriations act that gave preference to firms with
51 percent Native American ownership in defense contracting.
330 F.3d at 516-17. The court had no occasion to consider ANCs’
status as it pertains to the ISDEAA definition, and the court’s
statement that the ANCs “are federally recognized Indian tribes”
is better viewed as dicta. See id.
14

119a
Third, Congress’s adoption of the ISDEAA definition
cannot be divorced from actual agency practice under
ISDEAA, which seemingly is to contract with ANCs
only, if at all, with tribal consent or as a last resort.
Although BIA has long viewed ANCs as qualifying as
“Indian tribes” under ISDEAA, see Cook Inlet, 810 F.2d
1474, there is scant evidence on the present record—in
fact, none—that BIA or any other federal agency has actually entered into a “self-determination contract,” or
638 agreement, with an ANC. Defendant’s counsel’s
inability to identify any such current or past agreement
between a federal agency and an ANC is telling see Hr’g
Tr. at 38, and suggests that such contracts are at least
rare. Moreover, at least one agency, the Indian Health
Service, has adopted guidelines that create a contracting hierarchy that prefers agreements for health services with Alaskan villages councils over ANCs. See
Alaska Area Guidelines for Tribal Clearances for Indian
Self-Determination Contracts, 46 Fed. Reg. 27,178-02
(May 18, 1981). Based on those guidelines, one court
has held that an ANC cannot maintain a self-determination
contract absent tribal villages’ consent. See Ukpeagvik
Inupiat Corp. v. Dep’t of Health and Human Servs., Case
No. 3:13-cv-00073-TMB, 2013 WL 12119576, at *2-3
(D. Alaska May 20, 2013).
This real-world treatment of ANCs by federal agencies under ISDEAA is informative. It tells the court,
even if an ANC can be potentially treated as an “Indian
tribe” under ISDEAA, they rarely are. And that infrequent treatment prevents the court from concluding at
this stage that, by using ISDEAA’s definition of “Indian
tribe” in the CARES Act, Congress necessarily signaled
its intent to treat ANCs and federally recognized tribes
as equals for purposes of Title V funding eligibility.

120a
5. Defendant and the ANC amici make another argument concerning Congress’s selection of the ISDEAA
definition of “Indian tribe” for the CARES Act. They
point out that the List Act’s definition of “Indian tribe”
clearly excludes ANCs. See Def.’s Opp’n at 11; Ahtna
Br. at 18-19. The List Act defines “Indian tribe” to
mean “any Indian or Alaska Native tribe, band, nation,
pueblo, village or community that the Secretary of
the Interior acknowledges to exist as an Indian tribe.”
25 U.S.C. § 5130(2). That clearly defined exclusion of
ANCs begs the question: If Congress wanted to exclude ANCs from receiving CARES Act funds, why not
incorporate the definition of “Indian tribe” from the List
Act, or refer expressly to the published list itself ? As
amicus Ahtna puts it, “if Congress wanted to exclude
[ANCs] it could have done so and in a much less convoluted way.” Ahtna Br. at 19. That is a fair point, but
it loses its luster when viewed against the backdrop of
the post-List Act case law and government litigation positions described above. Congress could have intended
that the ISDEAA definition of “Indian Tribe” exclude
ANCs under the CARES Act in the same way that the
identical ISDEAA definitions exclude non-federally recognized tribes under the Reform Act and the National
Historic Preservation Act. The court therefore can
glean no definitive congressional intent as to the inclusion or exclusion of ANCs under the CARES Act by
Congress’s selection of the ISDEAA definition over the
List Act definition.

Defendant also resists reading the word “recognized” used in the CARES Act’s definition of “Tribal government” as a legal term of art. See Def.’s Opp’n at 18.
The Secretary points out that “recognized” as used in the
6.

121a
CARES Act does not necessarily mean federal recognition, as understood in other statutes. Statutes that do
expressly concern federal recognition, according to Defendant, use different words to signify that term of art.
The List Act, for example, uses the phrase “recognized
tribes published by the Secretary,” 25 U.S.C. § 5130(3),
and the Indian Gaming Regulatory Act refers to tribes
or groups that are “recognized as eligible by the Secretary,” 25 U.S.C. § 2703(5)(A).
The court, however, does not view those modest statutory textual differences as bearing the weight that Defendant gives them. As already discussed, in other
statutes where the word “recognized” appears alone in
the statutory text, such as the Reform Act and the National Historic Preservation Act, see 25 U.S.C. § 4001(2);
54 U.S.C. § 300309, the government has equated the
term with federal recognition, see Wyandot, 858 F.3d at
1398; Slockish, 682 F. Supp. 2d at 1202. It is not clear
why the government takes a different view here. Moreover, given the history and significance of the term “recognition” in Indian law, the court doubts that Congress
would have used the term if it did not mean to equate it
with federal recognition. The word “recognize” as it
appears in the CARES Act is thus best understood as a
legal term of art that no ANC presently satisfies.
7. Finally, Defendant refutes that statutory context supports Plaintiffs’ position. Citing the fact that tribal
governments generate revenues from for-profit business operations, like casinos, Defendant contend that
“Plaintiffs’ argument assumes incorrectly that there is a
clean dividing line between government and business
operations. . . . [such that] Title V eligibility cannot
turn on whether the recipient is engaged in profitable

122a
businesses.” Def.’s Mot. at 11-12. But Plaintiffs’ position, with which the court agrees, does not depend on
a “clean dividing line.” Rather, the question is whether
treating an ANC’s board of directors as a “Tribal government” makes sense when the other identified recipients of Title V funds include “States” and “units of local
government.” See 42 U.S.C. § 801(a)(1). It does not.
* * *
In summary, the court finds that Plaintiffs have met
their burden of showing a likelihood of success on the
merits of their claim.
C.

Balance of the Equities and the Public Interest

The court turns finally to the remaining two injunctive relief factors: the balance of the equities and the
public interest. Where the federal government is the opposing party, these two factors merge. See Nken, 556
U.S. at 435. Thus, in this case, the balance of the equities requires the court to “weigh[] the harm to [Plaintiffs] if there is no injunction against the harm to [the
Treasury Department] if there is.” Pursuing Am.’s
Greatness, 831 F.3d at 511. The agency’s harm and “the
public interest are one and the same, because the government’s interest is the public interest.” Id.
For the reasons already discussed, the harm to Plaintiffs absent an injunction will be great. The court need
not recite the challenges that Plaintiffs are presently
facing and will continue to face with reduced funding,
though it notes that other Indian tribal governments
who are not involved in this action also would benefit
from an injunction. On the other side of the balance,
the tangible harm claimed by the agency from an injunc-

123a
tion is not substantiated. Defendant contends that halting disbursement of funds to ANCs would harm the native Alaskan communities that they serve. See Def.’s
Opp’n at 23. But neither Defendant nor the ANC Amici
present actual evidence demonstrating that ANCs are
currently providing public services comparable to Plaintiffs to combat the coronavirus pandemic. See id. at 23
(citing no evidence and simply cross-referencing ANVCA
Br. at 15-16, which identifies no coronavirus-related
public services); Ahtna Br. at 2-3 (stating that Ahtna
provides a “litany of social, educational, and healthrelated services,” but not specifying what those are services are with respect to the coronavirus pandemic or
specifying how Title V funds would be used); ANVCA
Br. at 16 (asserting, without detail or factual support,
that “[s]ervices ANCs currently provide pale in comparison to what will be demanded of them in the future”).
Moreover, it appears that ANCs may be eligible for
funding made available in other parts of the CARES
Act, see Def.’s Br. at 11 (stating that Congress could
have “reasonably provided two avenues of relief for an
entity in the CARES Act”), so whatever coronavirusrelated services they do provide arguably could come
from a different pot of appropriated funds. The claimed
harm to ANCs from an injunction is simply not supported by the record.
Both sides also assert that the public interest is
served by carrying out Congress’s intent; in Plaintiffs’
view, that means denying ANCs Title V funds, and in Defendant’s view, that means not interfering with the discretionary allocation of funds to ANCs. See Chehalis
Mot. at 36-37; Cheyenne River Mot. at 34-35; Def.’s Opp’n
at 23. Because, as already discussed, the court finds
that Plaintiffs have established a likelihood of success of

124a
showing that ANCs do not qualify for Title V funds, the
public interest factor favors preliminarily enjoining the
Secretary from disbursing Title V funds to ANCs. See
League of Women Voters of United States v. Newby, 838
F.3d 1, 12 (D.C. Cir. 2016) (stating that “there is a substantial public interest ‘in having governmental agencies
abide by the federal laws that govern their existence and
operations’ ”) (quoting Washington v. Reno, 35 F.3d
1093, 1103 (6th Cir. 1994)).
VI.

Although the court has determined that an injunction
is warranted, it does not grant relief to the full extent
requested by Plaintiffs. The D.C. Circuit has “long
held that ‘[a]n injunction must be narrowly tailored to
remedy the specific harm shown.’ ” Neb. Dep’t of Health
& Human Servs. v. Dep’t of Health & Human Servs.,
435 F.3d 326, 330 (D.C. Cir. 2006) (quoting Aviation
Consumer Action Project v. Washburn, 535 F.2d 101,
108 (D.C. Cir. 1976)). Here, preliminarily enjoining the
Secretary from disbursing funds to ANCs remedies the
immediate harm that Plaintiffs face—the payment of
Title V funds to ANCs that will be unrecoverable once
made. The added relief that Plaintiffs seek—an order
directing the Secretary to distribute the full $8 billion
only to federally recognized tribes—is greater than necessary to protect them against that injury. To be sure,
the more limited remedy could mean that Plaintiffs will
receive a lesser share of Title V funds in the short term,
if the Secretary decides to award some money to ANCs
and withholds those payments to comply with the court’s
order. But at least such funds will remain available for
later disbursement to federally recognized tribes for

125a
coronavirus-related public services, if the court ultimately enters a final judgment in Plaintiffs’ favor.
VII.

For the foregoing reasons, the court grants in part
the Chehalis Plaintiffs’, Cheyenne River Plaintiffs’, and
Ute Plaintiff ’s Motions for a Temporary Restraining
Order and Preliminary Injunction, ECF No. 3; No.
20-cv-1059, ECF No 4; No. 20-cv-1070, ECF No. 5. An
Order entering the preliminary injunction accompanies
this Memorandum Opinion.
Dated:

Apr. 27, 2020
/s/ AMIT P. MEHTA
AMIT P. MEHTA
United States District Court Judge

126a
APPENDIX G

1.

25 U.S.C. 5304(e) provides:

Definitions

For purposes of this chapter, the term—
(e) “Indian tribe” means any Indian tribe, band,
nation, or other organized group or community, including any Alaska Native village or regional or village corporation as defined in or established pursuant to the Alaska Native Claims Settlement Act
(85 Stat. 688) [43 U.S.C. 1601 et seq.], which is recognized as eligible for the special programs and services provided by the United States to Indians because of their status as Indians;
2.

42 U.S.C. 801 provides:

Coronavirus relief fund
(a)

Appropriation
(1) In general

Out of any money in the Treasury of the United
States not otherwise appropriated, there are appropriated for making payments to States, Tribal governments, and units of local government under this
section, $150,000,000,000 for fiscal year 2020.
(2) Reservation of funds

Of the amount appropriated under paragraph (1),
the Secretary shall reserve—

127a
(A) $3,000,000,000 of such amount for making
payments to the District of Columbia, the Commonwealth of Puerto Rico, the United States
Virgin Islands, Guam, the Commonwealth of the
Northern Mariana Islands, and American Samoa;
and
(B) $8,000,000,000 of such amount for making
payments to Tribal governments.
(b)

Authority to make payments
(1) In general

Subject to paragraph (2), not later than 30 days
after March 27, 2020, the Secretary shall pay each
State and Tribal government, and each unit of local
government that meets the condition described in
paragraph (2), the amount determined for the State,
Tribal government, or unit of local government, for
fiscal year 2020 under subsection (c).
(2) Direct payments to units of local government

If a unit of local government of a State submits the
certification required by subsection (e) for purposes
of receiving a direct payment from the Secretary under the authority of this paragraph, the Secretary
shall reduce the amount determined for that State by
the relative unit of local government population proportion amount described in subsection (c)(5) and pay
such amount directly to such unit of local government.

128a
(c)

Payment amounts
(1) In general

Subject to paragraph (2), the amount paid under
this section for fiscal year 2020 to a State that is 1 of
the 50 States shall be the amount equal to the relative
population proportion amount determined for the
State under paragraph (3) for such fiscal year.
(2) Minimum payment
(A)

In general

No State that is 1 of the 50 States shall receive
a payment under this section for fiscal year 2020
that is less than $1,250,000,000.
(B)

Pro rata adjustments

The Secretary shall adjust on a pro rata basis
the amount of the payments for each of the 50
States determined under this subsection without
regard to this subparagraph to the extent necessary to comply with the requirements of subparagraph (A).
(3) Relative population proportion amount

For purposes of paragraph (1), the relative population proportion amount determined under this paragraph for a State for fiscal year 2020 is the product
of—
(A) the amount appropriated under paragraph
(1) of subsection (a) for fiscal year 2020 that remains after the application of paragraph (2) of that
subsection; and

129a
(B) the relative State population proportion
(as defined in paragraph (4)).
(4) Relative State population proportion defined

For purposes of paragraph (3)(B), the term “relative State population proportion” means, with respect to a State, the quotient of—
(A)

the population of the State; and

(B) the total population of all States (excluding the District of Columbia and territories specified in subsection (a)(2)(A)).
(5) Relative unit of local government population
proportion amount

For purposes of subsection (b)(2), the term “relative unit of local government population proportion
amount” means, with respect to a unit of local government and a State, the amount equal to the product
of—
(A) 45 percent of the amount of the payment
determined for the State under this subsection
(without regard to this paragraph); and
(B)

the amount equal to the quotient of—

(i) the population of the unit of local government; and
(ii) the total population of the State in which
the unit of local government is located.

130a
(6) District of Columbia and territories

The amount paid under this section for fiscal year
2020 to a State that is the District of Columbia or a
territory specified in subsection (a)(2)(A) shall be the
amount equal to the product of—
(A) the amount set aside under subsection
(a)(2)(A) for such fiscal year; and
(B) each such District’s and territory’s share
of the combined total population of the District of
Columbia and all such territories, as determined
by the Secretary.
(7) Tribal governments

From the amount set aside under subsection
(a)(2)(B) for fiscal year 2020, the amount paid under
this section for fiscal year 2020 to a Tribal government shall be the amount the Secretary shall determine, in consultation with the Secretary of the Interior and Indian Tribes, that is based on increased
expenditures of each such Tribal government (or a
tribally-owned entity of such Tribal government) relative to aggregate expenditures in fiscal year 2019 by
the Tribal government (or tribally-owned entity) and
determined in such manner as the Secretary determines appropriate to ensure that all amounts available under subsection (a)(2)(B) for fiscal year 2020 are
distributed to Tribal governments.
(8) Data

For purposes of this subsection, the population of
States and units of local governments shall be determined based on the most recent year for which data
are available from the Bureau of the Census.

131a
(d)

Use of funds

A State, Tribal government, and unit of local government shall use the funds provided under a payment made
under this section to cover only those costs of the State,
Tribal government, or unit of local government that—
(1) are necessary expenditures incurred due to
the public health emergency with respect to the
Coronavirus Disease 2019 (COVID-19);
(2) were not accounted for in the budget most recently approved as of March 27, 2020, for the State or
government; and
(3) were incurred during the period that begins
on March 1, 2020, and ends on December 30, 2020.
(e)

Certification

In order to receive a payment under this section, a
unit of local government shall provide the Secretary
with a certification signed by the Chief Executive for the
unit of local government that the local government’s
proposed uses of the funds are consistent with subsection (d).
(f )

Inspector General oversight; recoupment
(1) Oversight authority

The Inspector General of the Department of the
Treasury shall conduct monitoring and oversight of
the receipt, disbursement, and use of funds made
available under this section.

132a
(2) Recoupment

If the Inspector General of the Department of the
Treasury determines that a State, Tribal government,
or unit of local government has failed to comply with
subsection (d), the amount equal to the amount of
funds used in violation of such subsection shall be
booked as a debt of such entity owed to the Federal
Government. Amounts recovered under this subsection shall be deposited into the general fund of the
Treasury.
(3) Appropriation

Out of any money in the Treasury of the United
States not otherwise appropriated, there are appropriated to the Office of the Inspector General of the
Department of the Treasury, $35,000,000 to carry out
oversight and recoupment activities under this subsection. Amounts appropriated under the preceding sentence shall remain available until expended.
(4) Authority of Inspector General

Nothing in this subsection shall be construed to
diminish the authority of any Inspector General, including such authority as provided in the Inspector
General Act of 1978 (5 U.S.C. App.).
(g)

Definitions

In this section:
(1) Indian Tribe

The term “Indian Tribe” has the meaning given
that term in section 5304(e) of title 25.

133a
(2) Local government

The term “unit of local government” means a
county, municipality, town, township, village, parish,
borough, or other unit of general government below
the State level with a population that exceeds
500,000.
(3) Secretary

The term “Secretary” means the Secretary of the
Treasury.
(4) State

The term “State” means the 50 States, the District
of Columbia, the Commonwealth of Puerto Rico, the
United States Virgin Islands, Guam, the Commonwealth of the Northern Mariana Islands, and American Samoa.
(5) Tribal government

The term “Tribal government” means the recognized governing body of an Indian Tribe.
3.

43 U.S.C. 1601(b) provides:

Congressional findings and declaration of policy

Congress finds and declares that—
(b) the settlement should be accomplished rapidly, with certainty, in conformity with the real economic and social needs of Natives, without litigation,
with maximum participation by Natives in decisions
affecting their rights and property, without establishing any permanent racially defined institutions,
rights, privileges, or obligations, without creating a

134a
reservation system or lengthy wardship or trusteeship, and without adding to the categories of property
and institutions enjoying special tax privileges or to
the legislation establishing special relationships between the United States Government and the State
of Alaska;
4.

43 U.S.C. 1606 provides in pertinent part:

Regional Corporations
(a)

Division of Alaska into twelve geographic regions;
common heritage and common interest of region;
area of region commensurate with operations of
Native association; boundary disputes, arbitration

For purposes of this chapter, the State of Alaska
shall be divided by the Secretary within one year after
December 18, 1971, into twelve geographic regions, with
each region composed as far as practicable of Natives
having a common heritage and sharing common interests. In the absence of good cause shown to the contrary, such regions shall approximate the areas covered
by the operations of the following existing Native associations:
(1) Arctic Slope Native Association (Barrow,
Point Hope);
(2) Bering Straits Association (Seward Peninsula, Unalakleet, Saint Lawrence Island);
(3) Northwest
(Kotzebue);

Alaska

Native

Association

135a
(4) Association of Village Council Presidents
(southwest coast, all villages in the Bethel area, including all villages on the Lower Yukon River and the
Lower Kuskokwim River);
(5) Tanana Chiefs’ Conference (Koyukuk, Middle and Upper Yukon Rivers, Upper Kuskokwim,
Tanana River);
(6) Cook Inlet Association (Kenai, Tyonek,
Eklutna, Iliamna);
(7) Bristol Bay Native Association (Dillingham,
Upper Alaska Peninsula);
(8) Aleut League (Aleutian Islands, Pribilof Islands and that part of the Alaska Peninsula which is
in the Aleut League);
(9) Chugach Native Association (Cordova, Tatitlek, Port Graham, English Bay, Valdez, and Seward);
(10) Tlingit-Haida Central Council (southeastern
Alaska, including Metlakatla);
(11) Kodiak Area Native Association (all villages
on and around Kodiak Island); and
(12) Copper River Native Association (Copper
Center, Glennallen, Chitina, Mentasta).
Any dispute over the boundaries of a region or regions
shall be resolved by a board of arbitrators consisting of
one person selected by each of the Native associations
involved, and an additional one or two persons, whichever is needed to make an odd number of arbitrators,
such additional person or persons to be selected by the
arbitrators selected by the Native associations involved.

136a
(b)

Region mergers; limitation

The Secretary may, on request made within one year
of December 18, 1971, by representative and responsible
leaders of the Native associations listed in subsection
(a), merge two or more of the twelve regions: Provided, That the twelve regions may not be reduced to
less than seven, and there may be no fewer than seven
Regional Corporations.
(c)

Establishment of thirteenth region for nonresident
Natives; majority vote; Regional Corporation for
thirteenth region

If a majority of all eligible Natives eighteen years of
age or older who are not permanent residents of Alaska
elect, pursuant to section 1604(c) of this title, to be enrolled in a thirteenth region for Natives who are nonresidents of Alaska, the Secretary shall establish such a
region for the benefit of the Natives who elected to be
enrolled therein, and they may establish a Regional Corporation pursuant to this chapter.
(d)

Incorporation; business for profit; eligibility for benefits; provisions in articles for carrying out chapter

Five incorporators within each region, named by the
Native association in the region, shall incorporate under
the laws of Alaska a Regional Corporation to conduct
business for profit, which shall be eligible for the benefits of this chapter so long as it is organized and functions in accordance with this chapter. The articles of
incorporation shall include provisions necessary to carry
out the terms of this chapter.

137a
(e)

Original articles and bylaws: approval by Secretary prior to filing, submission for approval; amendments to articles: approval by Secretary; withholding approval in event of creation of inequities among
Native individuals or groups

The original articles of incorporation and bylaws
shall be approved by the Secretary before they are filed,
and they shall be submitted for approval within eighteen
months after December 18, 1971. The articles of incorporation may not be amended during the Regional Corporation’s first five years without the approval of the
Secretary. The Secretary may withhold approval under this section if in his judgment inequities among Native individuals or groups of Native individuals would be
created.
(f)

Board of directors; management; stockholders; provisions in articles or bylaws for number, term, and
method of election

The management of the Regional Corporation shall
be vested in a board of directors, all of whom, with the
exception of the initial board, shall be stockholders over
the age of eighteen. The number, terms, and method
of election of members of the board of directors shall be
fixed in the articles of incorporation or bylaws of the Regional Corporation.
(g)

Issuance of stock
(1) Settlement Common Stock

(A) The Regional Corporation shall be authorized to issue such number of shares of Settlement
Common Stock (divided into such classes as may be
specified in the articles of incorporation to reflect the
provisions of this chapter) as may be needed to issue

138a
one hundred shares of stock to each Native enrolled
in the region pursuant to section 1604 of this title.
*
(r)

*

*

*

*

Benefits for shareholders or immediate families

The authority of a Native Corporation to provide
benefits to its shareholders who are Natives or descendants of Natives or to its shareholders’ immediate family
members who are Natives or descendants of Natives to
promote the health, education, or welfare of such shareholders or family members is expressly authorized and
confirmed. Eligibility for such benefits need not be
based on share ownership in the Native Corporation and
such benefits may be provided on a basis other than pro
rata based on share ownership.
5.

43 U.S.C. 1607 provides:

Village Corporations
(a)

Organization of Corporation prerequisite to receipt
of patent to lands or benefits under chapter

The Native residents of each Native village entitled
to receive lands and benefits under this chapter shall organize as a business for profit or nonprofit corporation
under the laws of the State before the Native village
may receive patent to lands or benefits under this chapter, except as otherwise provided.

139a
(b)

Regional Corporation: approval of initial articles;
review and approval of amendments to articles and
annual budgets; assistance in preparation of articles
and other documents

The initial articles of incorporation for each Village
Corporation shall be subject to the approval of the Regional Corporation for the region in which the village is
located. Amendments to the articles of incorporation
and the annual budgets of the Village Corporations shall,
for a period of five years, be subject to review and approval by the Regional Corporation. The Regional Corporation shall assist and advise Native villages in the
preparation of articles of incorporation and other documents necessary to meet the requirements of this subsection.
(c)

Applicability of section 1606

The provisions of subsections (g), (h) (other than paragraph (4)), and (o) of section 1606 of this title shall apply in all respects to Village Corporations, Urban Corporations, and Group Corporations.
6.

43 U.S.C. 1629c(a)-(b) provides:

Duration of alienability restrictions
(a)

General rule

Alienability restrictions shall continue until terminated in accordance with the procedures established by
this section. No such termination shall take effect until
after July 16, 1993: Provided, however, That this prohibition shall not apply to a Native Corporation whose
board of directors approves, no later than March 1, 1992,
a resolution (certified by the corporate secretary of such

140a
corporation) electing to decline the application of such
prohibition.
(b)

Opt-out procedure

(1)(A) A Native Corporation may amend its articles
of incorporation to terminate alienability restrictions in
accordance with this subsection. Only one amendment
to terminate alienability restrictions shall be considered
and voted on prior to December 18, 1991. Rejection of
the amendment shall not preclude consideration prior to
December 18, 1991, of subsequent amendments to terminate alienability restrictions.
(B) If an amendment to terminate alienability restrictions is considered, voted on, and rejected prior to
December 18, 1991, then subsequent amendments to terminate alienability restrictions after December 18, 1991,
shall be considered and voted on—
(i) in the case of an amendment submitted by
the board of directors of the corporation on its own
motion, not earlier than five years after the rejection
of the most recently rejected amendment to terminate restrictions; or
(ii) in the case of an amendment submitted by
the board of directors of the corporation pursuant to
a shareholder petition, not earlier than two years after the rejection of the most recently rejected amendment to terminate restrictions.
(C) If no amendment to terminate alienability restrictions is considered and voted on prior to December
18, 1991, then amendments to terminate alienability restrictions after December 18, 1991, shall be considered
and voted on—

141a
(i) in the case of an amendment submitted by
the board of directors of the corporation on its own
motion, not more than once every five years; or
(ii) in the case of an amendment submitted by
the board of directors of the corporation pursuant to
a shareholder petition, not more than once every two
years.
(2) An amendment authorized by paragraph (1)
shall specify the time of termination, either by establishing a date certain or by describing the specific event
upon which alienability restrictions shall terminate.
(3) Dissenters rights may be granted by the corporation in connection with the rejection of an amendment
to terminate alienability restrictions in accordance with
section 1629d of this title. Once dissenters rights have
been so granted, they shall not be granted again in connection with subsequent amendments to terminate alienability restrictions.
* * * * *

